<html>
<title> - IMPROVING THE QUALITY AND EFFICIENCY OF COMMODITY DISTRIBUTION TO FEDERAL CHILD NUTRITION PROGRAMS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
  IMPROVING THE QUALITY AND EFFICIENCY OF COMMODITY DISTRIBUTION TO 
                   FEDERAL CHILD NUTRITION PROGRAMS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            October 7, 2003

                               __________

                           Serial No. 108-36

                               __________

  Printed for the use of the Committee on Education and the Workforce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

90-141              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 7, 2003..................................     1

Statement of Members:
    Boehner, Hon. John A., a Representative in Congress from the 
      State of Ohio..............................................     1
        Prepared statement of....................................     3
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington, prepared statement of.................    69
    Kildee, Hon. Dale E., a Representative in Congress from the 
      State of Michigan..........................................     4
    Miller, Hon. George, a Representative in Congress from the 
      State of California, prepared statement of.................    68

Statement of Witnesses:
    Bost, Hon. Eric M., Under Secretary for Food, Nutrition, and 
      Consumer Services, U.S. Department of Agriculture..........     6
        Prepared statement of....................................     8
        Response to questions submitted for the record...........    69
    Cockwell, Paula, Manager of Nutrition Services, Adams County 
      School District #14, and Food Service Director, Mapleton 
      Public School District.....................................    35
        Prepared statement of....................................    37
    Heaney, Dr. Robert P., John A. Creighton University 
      Professor, Professor of Medicine, Creighton University.....    56
        Prepared statement of....................................    59
    Joslin, Robinson W., President, Ohio Soybean Association.....    51
        Prepared statement of....................................    53
    Slavin, Dr. Joanne L., Professor of Nutrition, University of 
      Minnesota..................................................    46
        Prepared statement of....................................    48
    Stenzel, Thomas E., President and CEO, United Fresh Fruit and 
      Vegetable Association......................................    39
        Prepared statement of....................................    41
    Yates, A.J., Administrator, Agricultural Marketing Service, 
      U.S. Department of Agriculture.............................    11
        Prepared statement of....................................    13

Additional materials supplied:
    American Commodity Distribution Association, Statement 
      submitted for the record...................................    71
    Barnard, Dr. Neal D., President, Physicians Committee for 
      Responsible Medicine, Statement submitted for the record...    73
        Additional statement submitted for the record............    75
    Foster, Nancy E., President and CEO, U.S. Apple Association, 
      Statement submitted for the record.........................    76
    The Humane Society of the Unted States, Statement submitted 
      for the record.............................................    78
    Keith, Dr. Jeanette Newton, Assistant Professor of Medicine, 
      Attending Physician, Nutrition Support Service, The 
      University of Chicago Hospitals, Section Gastroenterology/
      Clinical Nutrition, Statement submitted for the record.....    79
    Savaiano, Dr. Dennis A., Professor of Foods & Nutrition, Dean 
      of Consumer and Family Sciences, Purdue University.........    81
    Wittrock, Donna, President, American School Food Service 
      Association................................................    82


   IMPROVING THE QUALITY AND EFFICIENCY OF COMMODITY DISTRIBUTION TO 
                    FEDERAL CHILD NUTRITION PROGRAMS

                              ----------                              


                        Tuesday, October 7, 2003

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to call, at 2 p.m., in room 
2175, Rayburn House Office Building, Hon. John A. Boehner 
(Chairman of the Committee) presiding.
    Present: Representatives Boehner, Petri, McKeon, Norwood, 
Biggert, Tiberi, Keller, Osborne, Wilson, Kline, Carter, 
Kildee, Payne, Holt, McCollum, Grijalva, and Majette.
    Staff Present: Julian Baer, Legislative Assistant; Kevin 
Frank, Professional Staff Member; Parker Hamilton, 
Communications Coordinator; Kate Houston, Professional Staff 
Member; Sally Lovejoy, Director of Education and Human 
Resources Policy; Stephanie Milburn, Professional Staff Member; 
Deborah L. Samantar, Committee Clerk/Intern Coordinator; Denise 
Forte, Minority Legislative Associate/Education; Alex Nock, 
Minority Legislative Associate/Education; Joe Novotny, Minority 
Legislative Assistant/Education; and Lynda Theil, Minority 
Legislative Associate/Education.
    Chairman Boehner. A quorum being present, the Committee on 
Education and the Workforce will come to order.
    We are meeting today to hear testimony on Improving the 
Quality and Efficiency of Commodity Distribution to the Federal 
Child Nutrition Programs.
    Under Committee rules, opening statements are limited to 
the Chairman and Ranking Minority Member of the Committee. 
Therefore, if other members have statements, they may be 
included in the hearing record. And with that, I ask unanimous 
consent for the hearing record to remain open for 14 days to 
allow members' statements and other extraneous material 
referenced during today's hearing to be submitted in the 
official hearing record. Without objection, so ordered.

    STATEMENT OF HON. JOHN BOEHNER, CHAIRMAN, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Good afternoon. Let me thank all of you for coming today, 
especially those of you who will serve on your panels today. 
This is an important hearing on Improving the Quality and 
Efficiency of the Commodity Distribution Program to the Federal 
Child Nutrition Programs. These programs are central to 
providing the Nation's needy children with access to safe, 
affordable, and nutritious food.
    This marks the first Full Committee hearing to help prepare 
members of this Committee for the upcoming reauthorization of 
the Child Nutrition Act and the Richard B. Russell National 
School Lunch Act. There is general agreement on the importance 
of good nutrition for everyone, especially growing children. 
And while parents obviously bear the first responsibility for 
ensuring their children eat well and exercise regularly, 
programs authorized under the Child Nutrition Act and the 
National School Lunch Act play a positive role as well, helping 
to provide disadvantaged children with access to nutritious 
meals and snacks.
    Programs such as the National School Lunch and Breakfast 
Programs, WIC, the Summer Food Service Program, and the Child 
and Adult Care Food Program are helping many of these children 
achieve full physical development and success in school. The 
Federal child nutrition programs were conceived to offer 
wholesome meals and snacks to children in need and to support 
the health of lower-income pregnant women, breastfeeding 
mothers, and their young children.
    These programs represent a huge national investment 
totaling more than $12 billion per year. And while these 
programs have been generally heralded as successful, this 
Committee is seeking new ways to improve access to safe, 
healthy, and affordable meals and to better serve all program 
participants.
    Today's hearing will focus on a critical component of many 
Federally funded child nutrition programs: commodity 
distribution. The U.S. Department of Agriculture provides 
commodity support for the School Lunch Program, the Child and 
Adult Care Food Program, and the Summer Food Service Program as 
well.
    Last year, the United States Department of Agriculture 
provided commodities to these programs valued at more than $700 
million. The Department of Agriculture has two major objectives 
in its mission to provide food products to schools. One 
objective is to purchase products as part of the Department's 
price support and surplus removal program. The second is to 
provide schools with high-quality nutritious foods so that 
children have access to meals that are both healthful and 
appealing.
    Now, these objectives are frequently at odds, which poses 
an ongoing challenge for the Department. And because the 
Department is charged with stabilizing agricultural markets and 
children's preferences, food quality and nutrition must 
frequently compete with economic factors when the Department 
decides which commodities to purchase and supply.
    In 1999 the USDA undertook a broad evaluation of its 
commodity procurement and distribution systems to improve food 
distribution to schools and other beneficiaries. The 
Department's ultimate goal was to better serve producers and 
consumers by improving both the efficiency of the distribution 
process and the quality of the foods delivered.
    USDA convened a blue ribbon panel, Food Distribution 2000, 
which included representatives from industry, schools, and 
State commodity distribution agencies as well. The result was a 
report that made many valuable recommendations for improving 
USDA's food distribution systems. Since that time the 
Department has created a number of pilot programs and other 
initiatives to improve upon the current system. However, 
additional efforts are needed and several recommendations have 
yet to be implemented.
    Last month I sent a letter to Agriculture Secretary Ann 
Veneman requesting information about the Department's efforts 
to implement the recommendations of the Food Distribution 2000 
panel. I look forward to working with the Secretary, Under 
Secretary for Food and Nutrition, Eric Bost, Ag Marketing 
Services Administrator, A. J. Yates, and our partners in the 
food industry and school food service providers to continue the 
good work that has been started to make meaningful reforms in 
the commodity distribution system.
    Today we will hear from experts who will help us shed light 
on the commodity distribution to child nutrition programs, what 
works well, what needs improvement. Several of today's 
witnesses will tell us about progress made by the Department to 
act upon the recommendations of the Food Distribution 2000 
report and how Congress can help.
    I am certain all of our witnesses today will offer unique 
perspectives on child nutrition and program operations that 
will be helpful to the Members of this Committee as we work to 
improve these programs, and we look forward to all of your 
comments.
    Now, I would yield to our Ranking Member today, my good 
friend from the State of Michigan, Mr. Kildee.
    [The prepared statement of Chairman Boehner follows:]

  Statement of the Honorable John A. Boehner, Chairman, Committee on 
                      Education and the Workforce

    Good Afternoon. Thank you for joining us today for this important 
hearing on improving the quality and efficiency of commodity 
distribution to federal child nutrition programs. These programs are 
central to providing the nation's needy children with access to safe, 
affordable, and nutritious food. This marks the first Full Committee 
hearing to help prepare Members of this Committee for the upcoming 
reauthorization of the Child Nutrition Act and the Richard B. Russell 
National School Lunch Act.
    There is general agreement on the importance of good nutrition for 
everyone, especially growing children. While parents obviously bear 
first responsibility for ensuring their children eat well and exercise 
regularly, programs authorized under the Child Nutrition Act and 
National School Lunch Act play a positive role as well, helping to 
provide disadvantaged children access to nutritious meals and snacks. 
Programs such as the National School Lunch and Breakfast Programs, WIC, 
the Summer Food Service Program, and the Child and Adult Care Food 
Program are helping many of these children achieve full physical 
development and success in school.
    The federal child nutrition programs were conceived to offer 
wholesome meals and snacks to children in need, and to support the 
health of lower-income pregnant women, breastfeeding mothers, and their 
young children. These programs represent a huge national investment 
totaling more than $15 billion per year. While these programs have been 
generally heralded as successful, this Committee is seeking new ways to 
improve access to safe, healthy, and affordable meals and to better 
serve all program participants.
    Today's hearing will focus on a critical component of many 
federally-funded child nutrition programs--commodity distribution. The 
U.S. Department of Agriculture provides commodity support for the 
National School Lunch, the Child and Adult Care Food, and the Summer 
Food Service program. Last year, the United States Department of 
Agriculture provided commodities to these programs valued at more than 
$700 million.
    The Department of Agriculture has two major objectives in its 
mission to provide food products to schools. One objective is to 
purchase products as part of the Department's price-support and 
surplus-removal programs. The second is to provide schools with high 
quality, nutritious foods so that children have access to meals that 
are both healthful and appealing. These objectives are frequently at 
odds, which poses an ongoing challenge for the Department. Because the 
Department is charged with stabilizing agriculture markets, children's 
preferences, food quality and nutrition must frequently compete with 
economic factors when the Department decides which commodities to 
purchase and supply.
    In 1999, USDA undertook a broad evaluation of its commodity 
procurement and distribution systems to improve food distribution to 
schools and other beneficiaries. The Department's ultimate goal was to 
better serve producers and consumers by improving both the efficiency 
of the distribution process and the quality of foods delivered. USDA 
convened a blue ribbon panel, Food Distribution 2000, which included 
representatives from industry, schools, and State commodity 
distribution agencies. The result was a report that made many valuable 
recommendations for improving USDA's food distribution system.
    Since that time, the Department has created a number of pilot 
programs and other initiatives to improve upon the current system. 
However, additional efforts are needed and several recommendations have 
yet to be implemented. Last month, I sent a letter to Agriculture 
Secretary Ann Veneman requesting information about the Department's 
efforts to implement the recommendations of the Food Distribution 2000 
panel. I look forward to working with Secretary Veneman, Under 
Secretary for Food and Nutrition, Eric Bost, Agriculture Marketing 
Service Administrator, A.J. Yates, our partners in the food industry, 
and school food service providers to continue the good work that has 
been started in making meaningful reforms to the commodity distribution 
system.
    Today, we will hear from experts who will help shed light on 
commodity distribution to child nutrition programs--what works well and 
what needs improvement. Several of today's witnesses will tell us about 
progress made by the Department to act upon the recommendations of the 
Food Distribution 2000 report and how Congress can help. I am certain 
all of today's witnesses will offer unique perspectives on child 
nutrition and program operations that will be tremendously helpful to 
the Members of this Committee as we work to improve these programs. We 
look forward to their comments.
    With that, I would like to recognize the Committee's distinguished 
Ranking Member, Mr. Miller.
                                 ______
                                 

  STATEMENT OF HON. DALE KILDEE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Kildee. Thank you, Mr. Chairman. Thank you very much 
for having this very important hearing. I have been involved 
with child nutrition since about 1954, when I became a teacher. 
I see people are there in the background that I have known 
since I have been here in Congress, 27 years. It is certainly a 
very, very important program.
    Some people forget that the program really began after 
World War II when it was discovered that many people entering 
the military in the draft at that time were physically unable 
to enter the military because of poor nutrition. Of course, 
many of them had grown up during the 1930's, when we had the 
Great Depression. So it really became apparent to the Federal 
Government, Franklin Roosevelt, and before him, Harry Truman, 
that nutrition was very, very important for the long-term 
health of young people and for the long-term health of this 
Nation.
    I have been through every permutation that this program has 
gone under, cash in lieu of commodities, everything, every 
permutation of that. But generally speaking, the Federal 
Government has kept its commitment. There are times when we had 
some problems with trying to call ketchup a vegetable and 
things like that, which we do muse about from time to time. But 
generally, all of the Administrations have been aware of the 
fact that this is a very, very important program.
    One of the programs I visited recently in my district--
Congress established a vegetable pilot program in four 
different States and one Indian reservation. That was very 
important. One of the States happened to be Ohio, the other was 
Michigan. I am not sure how we got in there. But I visited the 
program in Linden, Michigan and was very, very much impressed.
    I know we always have to go through changes and new ideas. 
But this program is really one of the great programs, and I 
would hope that that pilot program would be expanded and that 
the Department look at that. When Secretary Veneman announced 
the award of that $6 million, and that Michigan was one of 
those, I was determined to go out and visit the programs. You 
have done a very, very good job in that program and I commend 
you for it.
    When I taught school, we had no such thing as a formal 
breakfast program for students. As a matter of fact, there was 
a great deal of controversy when the breakfast programs 
started, the idea that that might weaken the family. But the 
breakfast program has been very, very important.
    Having taught school, I could recognize the students who 
arrived at school not having had breakfast and how that did 
affect their learning. I started the first breakfast program 
for one student, at--you have heard me tell that story many 
times--at Flint Central High School. I had noted that every day 
in my homeroom, someone's lunch was being stolen. Very often 
students packed their lunch and brought it to school. It was 
being stolen. And I was raised in a family where stealing was a 
very, very--.
    Chairman Boehner. Mr. Kildee, nobody attempted to ever 
steal my lunch.
    Mr. Kildee. Very good. Well, you probably kept a very 
watchful eye on it.
    Chairman Boehner. I would have gladly given it to them.
    Mr. Kildee. It was the quality then, right?
    But I finally caught the young man who was stealing the 
lunch. And stealing was not only considered a very serious 
crime in my family, but a sin. So I was going to turn him into 
the principal who would have suspended him for several weeks. 
But I found out that his mother was in no position to get him a 
breakfast in the morning. And whenever he got to school, his 
first task was to find something to eat.
    But then he said to me, he said, Mr. Kildee, I never steal 
the same lunch from the same person in the same week. And I 
figured, this kid has ethics. So I took him down to the 
cafeteria where we had no breakfast program, and said to Mrs. 
Pelkey, who was in charge of the cafeteria, ``Mrs. Pelkey, 
Robert will be coming down here every morning for breakfast, 
and you get him something for breakfast and then send me a 
bill.'' Well, he got breakfast for 3 years, and I never got a 
bill. But since then, of course, we have established breakfast 
programs in many schools.
    So I look forward to your hearing today. You are involved 
in something so important. Nutrition is so important. And the 
Federal Government has a great responsibility in this area. I 
look forward to your testimony. Thank you, Mr. Chairman.
    Chairman Boehner. Thank you, Mr. Kildee.
    I want to introduce our first panel of witnesses today. Our 
first witness will be the Honorable Eric M. Bost, who is the 
Department of Agriculture's Under Secretary for Food, 
Nutrition, and Consumer Services. As Under Secretary, he is 
responsible for the administration of the Department's 15 
nutrition assistance programs, including the Food Stamp 
Program, the National School Lunch Program, the School 
Breakfast Programs, and WIC. Before his appointment, Mr. Bost 
served as Commissioner and Chief Executive Officer of the Texas 
Department of Human Services.
    Our next witness will be Mr. A. J. Yates, who is the 
current administrator of USDA's Agriculture Marketing Service. 
Mr. Yates oversees more than 50 programs designed to maintain a 
stable marketing environment for the benefit of America's 
farmers, ranchers and consumers. Prior to his appointment, he 
served as both the Deputy Secretary and the Under Secretary for 
the California Department of Food and Agriculture. He has been 
actively involved in providing leadership to a variety of 
organizations supporting agriculture and education.
    For those of you that may not be aware, in addition to 
chairing this Committee, I am also the Vice Chairman of the 
House Committee on Agriculture. So I am glad to have both of 
these gentlemen here.
    Mr. Bost, with that you may begin your testimony.

 STATEMENT OF ERIC M. BOST, UNDER SECRETARY, FOOD, NUTRITION, 
     AND CONSUMER SERVICES, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Bost. Good afternoon, and thank you so very much, Mr. 
Chairman and members of the Committee. I am Eric Bost, the 
Under Secretary for Food, Nutrition, and Consumer Services at 
the United States Department of Agriculture. I appreciate this 
opportunity to review the Department's Commodity Nutrition 
Assistance Program and consider how this vital program can be 
enhanced as it relates to the National School Lunch Program.
    As you know, the Child Nutrition reauthorization process 
gives the Administration and Congress the opportunity to 
support local schools, parents, and communities to move toward 
an environment that values and fosters the health of our 
children. The commodities are used in school meals in over 
98,000 schools nationwide. Over 28 million lunches are served 
each day in the National School Lunch Program. In fiscal year 
2003, USDA provided schools with over 705 million in 
entitlement commodities and $75 million in bonus commodities 
for their school meal programs.
    Of course, the commodity programs are equally important to 
American farms and ranchers because they provide the Department 
with a means to stabilize agricultural markets.
    There has been considerable attention paid to the fat, 
sodium, and sugar content of school meals. I would like to 
ensure the Committee of our continuing and abiding concern in 
this area and share a few of the things that we have done to 
address this.
    The Department has, one, reviewed and modified recipes, 
commodity specifications, and other materials that support 
compliance with the dietary guidelines. We have also worked 
with schools to more closely align the meals they serve with 
the dietary guidelines. We are working hard to improve the 
quality, variety, and nutritional content of commodities we 
provide the schools, including offering reduced-fat meat and 
cheese products, reducing the salt content of canned 
vegetables, and reducing the sugar added to canned fruit.
    We have also strongly encouraged schools to offer more 
nutritious choices to students and provide food service workers 
with the training and technical assistance to help them prepare 
more nutritious and appealing meals. Today, over 80 percent of 
these National School Lunch Program schools, we believe, offer 
meals that are consistent with good health.
    We have also asked our partners in industry and State and 
local agencies for their suggestions in order to identify how 
we can improve the delivery of the commodity programs to States 
and schools. Earlier the Chairman made reference to the Food 
Distribution 2000 report that we use as a blueprint for change.
    There are a couple of things I would like to say about what 
we have done to address many of the recommendations, we 
believe, all of the recommendations that were noted in that 
report. We have implemented an Internet-based, commodity-based 
ordering system called the electronic commodity ordering 
system. This new system provides greater access and speed in 
food distribution processes at the Federal, State and recipient 
agency levels. States can now place, cancel, or modify food 
orders online that previously were handled through paper 
transactions. We plan to roll the system out in schools, at the 
State's option, beginning next year.
    We have also done some things to align the commodity 
programs with commercial practices. To bring our commodity 
programs more in line with commercial practices, we have now 
allowed vendors to use commercial labels on USDA commodities in 
lieu of USDA labels; permitted recipient agencies to maintain 
single inventory records, instead of requiring separate 
accounting for USDA commodities and commercial products; and 
reviewed all USDA commodity specifications and improving or 
modifying them when feasible, to better align them with 
commercial specifications.
    In addition to that, we have also revised regulations that 
allow for full substitution of all commodities with the 
exception of beef and pork, and with limited substitution for 
poultry products, which allows processors more flexibility in 
scheduling their production.
    In addition to that, we have also initiated a long-term 
contract for certain commodities, including cheese, some 
fruits, frozen chicken and turkey products, bringing 
consistency and predictability to the commodity program.
    ``Best value'' as opposed to ``lowest cost'' contracts are 
also being tested to focus on overall product quality and 
service. There is also a concern to ensure that the food that 
we serve as a part of this program is also safe. So we have 
worked very closely with the Department's Food Safety and 
Inspection Service to ensure that that occurs. We have 
established and implemented written procedures and timeframes 
to address commodity holds and/or recalls resulting from safety 
concerns. This initiative reduces the hold time on commodities, 
removes products quickly from schools and other outlets, and 
expedites product replacement and/or reimbursements.
    As with other Distribution 2000 initiatives, this was a 
joint effort by us, the Food and Nutrition Service, the 
Agricultural Marketing Service, the Farm Service Agency, and 
the Food Safety Inspection Service. In keeping with the dietary 
guidelines, we have established helpful standards for canned 
fruit and vegetables offered in our nutrition programs. We have 
also worked to ensure that we increase and encourage the 
purchase and consumption of fresh fruits and vegetables for our 
School Lunch Program.
    We have successfully teamed with the Department of Defense 
Supply Center of Philadelphia to deliver high-quality fresh 
produce to school children and Indian tribes. Under this 
program, participating schools nationwide order fresh produce 
directly from DOD prime vendors. In fiscal year 2003, USDA 
purchased $50 million worth of fresh fruit produce for schools, 
and the program has proven to be very popular and is currently 
in about 41 States.
    With Food Distribution 2000, we have worked cooperatively, 
as I noted, with all four of the agencies, and I am very 
pleased to announce that today, later on this afternoon, we 
will go live with a USDA commodity food network Web site, which 
allows customers to go to a single portal for all USDA 
commodity program needs. It is an E-government resource 
designed to provide a wealth of information about the purchase 
and distribution of USDA's commodities. This portal combines 
the resources and information from all four agencies and other 
partners in the commodity distribution network into a one-stop 
shopping for our customers. It is no longer necessary to 
understand the roles of each of the agencies individually, but 
you are able to go to one place and receive information about 
how the commodity program works.
    In conclusion, Mr. Chairman, USDA would be pleased to work 
with you and this Committee as we embark on reauthorizing the 
child nutrition programs to ensure the continued improvement 
and success of our nutrition programs for the Nation's children 
and the continued success of our commodity programs.
    Mr. Chairman, this concludes my testimony. Of course, I am 
happy to answer any questions that you or the Committee Members 
may have.
    Chairman Boehner. Mr. Bost, thank you for your testimony.
    [The prepared statement of Mr. Bost follows:]

  Statement of Eric M. Bost, Under Secretary of Food, Nutrition, and 
 Consumer Services, U.S. Department of Agriculture, Food and Nutrition 
                                Service

    Good afternoon, Mr. Chairman and Members of the Committee. I am 
Eric M. Bost, Under Secretary for Food, Nutrition and Consumer Services 
(FNCS) at the U.S. Department of Agriculture (USDA). I appreciate this 
opportunity to join you once again as you review the Department's 
commodity nutrition assistance program and consider how this vital 
program can be enhanced as it relates to the National School Lunch 
Program (NSLP). As you know, the Child Nutrition reauthorization 
process gives the Administration and Congress the opportunity to 
support local schools, parents, and communities to move toward a 
nutrition environment that values and fosters the health of our 
children.
    The Department of Agriculture is very proud of its commodity 
programs and the role they play in supplementing and supporting our 
other nutrition assistance programs. USDA commodities are used in 
school meals in over 98,000 schools nationwide. In Fiscal Year 2003, 
USDA provided schools with over $705 million in entitlement commodities 
and $79 million in bonus commodities for their school meals programs. 
Nationwide, over 28 million lunches are served each day in the National 
School Lunch Program. Of course, the commodity programs are equally 
important to American farms and ranches because they provide the 
Department with a means to stabilize agricultural markets.
    I would like to begin today by saying a few words about the 
nutritional aspects of our school meal programs. There has been 
considerable attention paid to the fat, sodium, and sugar content of 
these meals. I would like to assure the Committee of our continuing and 
abiding concern in this area. The Department has reviewed and modified 
the recipes, commodity specifications and other materials that support 
compliance with the Dietary Guidelines for Americans.
    USDA has worked with schools to more closely align the meals they 
serve with the Dietary Guidelines. Today, over 80 percent of NSLP 
schools offer meals that are consistent with good health. We have 
worked hard to improve the quality, variety, and nutritional content of 
the commodities we provide to schools and will continue to make 
improvements in the future. At the same time, we are strongly 
encouraging schools to offer more nutritious choices to students and we 
are providing food service workers with the training and technical 
assistance to help them prepare more nutritious and appealing meals.
    As many of you recall, back in the 1990's, the Department became 
aware of a growing gap between the way we were delivering our commodity 
support to schools and the way States, schools and industry could most 
efficiently and safely produce, deliver, store and serve a quality 
product. We asked our partners in industry, the State, and local 
agencies for their suggestions in order to identify how we could close 
this gap, and we incorporated these recommendations, along with our 
own, into a report entitled, ``Food Distribution 2000,'' and used it as 
a blueprint for change.
Recognizing and Responding to a Challenge
    The Food Distribution 2000 Report identified numerous ways in which 
USDA's commodity program for schools was overly cumbersome and burdened 
with red tape. Commodity ordering was handled by seven different 
regional offices, rather than centrally at USDA's Food and Nutrition 
Service headquarters. Orders were submitted on paper, not 
electronically.
    The Department's program was significantly out of step with 
commercial practices. Vendors were required to use USDA labels on 
commodities, which entailed running separate production lines and no 
interchangeable products. The Department required States and recipient 
agencies to maintain separate inventories for USDA products and account 
for them aside from commercial products. Specifications for USDA 
commodities often deviated from the specifications commonly used for 
commercial products. The vendor contracting process--short-term lowest 
cost contract awards--made USDA the customer of last resort and created 
inconsistent and unpredictable product quality and service.
    Other key issues the report addressed were how USDA agencies could 
better coordinate their efforts, improve food safety protocols, and 
promote fresh fruits and vegetables.
    I am pleased to report that USDA has addressed each of the issues 
raised by the Food Distribution 2000 Report, took action, and has now 
implemented most of the Report's recommendations, some of which I would 
like to share with you this afternoon.
Making Commodity Programs More Responsive to Customer Needs
    To make our commodity programs more responsive to our customers, 
USDA has implemented an Internet-based commodity ordering system called 
the Electronic Commodity Ordering System (ECOS). This new system 
provides greater access, speed and transparency to the food 
distribution process at the Federal, State, and recipient agency 
levels. States can now place, cancel, or modify food orders online that 
previously were handled by paper transactions. We plan to roll the 
system out to schools, at the State's option, beginning next year.
Aligning Commodity Programs with Commercial Practices
    To bring our commodity programs more in line with commercial 
practices, USDA now:
    <bullet>  Allows vendors to use commercial labels on USDA 
commodities in lieu of USDA labels;
    <bullet>  Permits recipient agencies to maintain single inventory 
records, instead of requiring separate accounting for USDA commodities 
and commercial products; and
    <bullet>  Reviews all USDA commodity specifications, and improves/
modifies them when feasible, to better align them with commercial 
specifications.
    We have revised regulations to allow for full substitution of all 
commodities, with the exception of beef and pork, and with limited 
substitution for poultry products. Substitution allows processors more 
flexibility in scheduling production. Through the use of the Standard 
Yield Program, schools can now obtain seamless distribution of 
commodities and commercial purchases.
    We have also initiated long-term contracts for certain commodities, 
including cheese, some fruits, frozen chicken and turkey products. This 
procurement method brings consistency and predictability to the 
commodity program. ``Best value'', as opposed to ``lowest cost'' 
contracts are also being tested to focus on overall product quality and 
service.
Improving Food Safety Protocols
    To ensure that the commodities we offer to schools are safe as well 
as nutritious, all meat and poultry product specifications are reviewed 
and/or amended in consultation with the Department's Food Safety 
Inspection Service (FSIS).
    Ground beef suppliers must operate under new process control 
protocols similar to those required by large volume commercial buyers 
of ground beef.
    USDA has also established and implemented written procedures and 
time frames to address commodity holds and/or recalls resulting from 
safety concerns. This initiative reduces the hold time on commodities, 
removes product quickly from schools and other outlets, and expedites 
product replacement/reimbursement. As with other Food Distribution 2000 
initiatives, this was a joint effort by FNS, the Agricultural Marketing 
Service (AMS), the Farm Service Agency (FSA), and FSIS.
Promoting Fresh Fruit and Vegetables
    As many of us here today recall from our own school days, the 
National School Lunch Program of the 1950's and 60's served canned 
fruits and vegetables almost exclusively, and in keeping with the 
tastes and nutrition knowledge of the times, they were often flavored 
with plenty of salt and heavy syrup. Since those days, and in keeping 
with our Dietary Guidelines, we have established much more healthful 
standards for canned fruits and vegetables offered in our nutrition 
programs. The sodium specifications for the vegetables we offer to 
schools are the minimum amount possible that still assures palatability 
of the products. Canned fruit is packed only in natural juice or light 
syrup.
    Recently, the Department has embarked on a major effort to increase 
and encourage the purchase and consumption of fresh fruits and 
vegetables for the school lunch program.
    USDA has successfully teamed up with the Department of Defense 
(DoD) Supply Center of Philadelphia to deliver high quality fresh 
produce to school children and Indian tribes. Under this program, 
participating schools nationwide order fresh produce directly from DoD 
prime vendors. In fiscal year 2003, USDA purchased $50 million worth of 
fresh produce for schools and the program has proven to be very popular 
in the 41 States that took part in it last year.
Improving USDA Inter-Agency Coordination
    Food Distribution 2000 has been a collective and unprecedented 
effort of four USDA agencies. Together, FNS, AMS, FSA, and FSIS have 
forged a partnership to eliminate inter-agency barriers and work 
together to bring about major structural changes to the commodity 
programs our Department administers. The success of these commodity 
improvement initiatives is due to the commitment, support, and 
considerable effort put forth by each agency at every level.
    I am proud to announce today that one of our inter-agency 
partnering goals has resulted in the creation of a one-stop USDA 
Commodity Food Network (CFN) website. This website--which goes ``live'' 
this afternoon--allows our customers to go to a single portal for all 
USDA Commodity Program needs. It is an e-government resource designed 
to provide a wealth of information about the purchase and distribution 
of USDA commodities. This portal combines the resources and information 
from all four agencies, and other partners in the commodity 
distribution network, into ``one-stop shopping'' for our customers. It 
is no longer necessary to understand the role of an individual USDA 
agency in order to obtain commodity information.
    The website enables schools, community feeding sites, State 
agencies, Native American Tribal Organizations and others to have 
instant access to information about USDA's commodities and distribution 
programs. CFN also provides direct links to other commodity 
distribution partner websites, such as the American Commodity 
Distribution Association and the American School Food Service 
Association.
Conclusion
    Mr. Chairman, USDA would be pleased to work with you and this 
Committee as we embark on reauthorizing the Child Nutrition programs to 
ensure the continued improvement and success of our nutrition programs 
for the nation's children and the continued success of our commodity 
programs.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions.
                                 ______
                                 
    Chairman Boehner. Mr. Yates, you may begin.

STATEMENT OF A. J. YATES, ADMINISTRATOR, AGRICULTURAL MARKETING 
            SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Yates. Mr. Chairman, members of the Committee, thank 
you for the invitation to appear before you today to discuss 
the role of the Agricultural Marketing Service, AMS, in the 
National School Lunch Program.
    I am A. J. Yates, Administrator of AMS, and I am pleased to 
be here with Under Secretary Bost. While USDA's Food and 
Nutrition Service administers the National School Lunch 
Program, AMS is responsible for purchasing many of the 
commodities for this and other domestic food assistance 
programs. We support the National School Lunch Program, 
providing nutritious, high-quality food to school children 
through our purchases of red meat, fish, poultry, eggs, fruit 
and vegetable products. USDA's Farm Service Agency purchases 
flours, grains, peanut products, dairy products, oils and 
shortening. All of these purchases help to stabilize the 
agricultural market by balancing supply and demand, thus 
helping domestic farmers and ranchers.
    Let me briefly describe the purchase process and AMS's role 
in it. The process begins long before AMS announces that it 
plans to purchase particular food items. AMS specialists 
knowledgeable in food processing work with potential vendors, 
Food Nutrition Service, and food safety officers in developing 
specifications for each item that will be purchased. Many of 
these items are similar to the popular commercial items.
    Other items are developed specifically to meet the special 
nutritional needs of our recipients. The specification provides 
details on product formulation, manufacturing, packaging, 
sampling and testing requirements and quality assurance 
provisions. By coordinating the development of specifications 
with specialists from all aspects of food processing, AMS 
ensures the purchase of high-quality, wholesome, appealing 
products that meet recipients' needs and Federal standards for 
nutrition.
    Prior to conducting any purchase, AMS economists assess 
market conditions and determine the availability for 
commodities the agency is considering buying. During this time, 
AMS also works closely with Food Nutrition Service to determine 
recipient preferences. Orders are taken by FNS and provided to 
AMS so that purchases can be made.
    Although weekly meal patterns must meet Federal standards, 
local school authorities make the decisions about what specific 
foods to serve and how they are prepared. Moreover, USDA's 
commodities comprise less than 20 percent of the food products 
put on school childrens' plates. AMS and FSA are responsible 
for issuing and accepting bids and awarding and administering 
contracts.
    FNS is responsible for taking commodity orders from States, 
monitoring purchases and entitlements throughout the year, and 
the overall administration of the commodity nutrition programs.
    Actual purchasing begins with AMS and Farm Service Agency 
notifying specific industries, through press releases and other 
means, of their intent to purchase particular food products. 
These agencies invite bids under a formal advertised 
competitive bid program. These invitations give specific 
details on when bids are due for a particular purchase. All 
products must be US-produced and of domestic origin. Under 
Federal acquisition regulations, vendors must be deemed 
responsible prior to participating in the program. For 
instance, they must have a satisfactory performance record and 
adequate financial resources to demonstrate their ability to 
produce and deliver the product within designated timeframes.
    It is essential that USDA-purchased food products arrive on 
time, as recipients depend on it. Bids are received from 
responsible vendors, analyzed, and contracts are awarded by AMS 
or Farm Service Agency. Contracts are then administered by the 
agencies to make sure that the terms and conditions are 
followed.
    All products purchased by USDA are produced in compliance 
with applicable food safety--Federal food safety laws and 
regulations. Red meat, poultry, and egg products must be 
processed under USDA's Food Safety and Inspection Service 
regulations. And all fruit, vegetable and fish products are 
subject to Food and Drug Administration regulations.
    FSIS and FDA ensure that such products are wholesome and 
that processing plants operate under sanitary conditions. In 
addition to FSIS inspection, AMS inspectors are present during 
production and shipping of all red meat and poultry items to 
ensure compliance with all specification requirements, 
including those for raw material processing, packaging, and 
testing.
    Plants supplying processed fruit and vegetable products 
undergo a survey by AMS inspectors to ensure compliance with 
FDA requirements, including that agency's good manufacturing 
practices. Additionally, fish products are produced in 
facilities operating under the National Marine Fisheries 
Service voluntary seafood inspection program. For certain types 
of products, such as ground beef, egg products and fruit 
juices, additional product handling and testing protocols are 
required.
    AMS also works with FSIS to distribute educational 
materials for food service professionals about proper handling 
and cooking techniques. These materials are available both in 
Spanish and English, and are designed to assist food service 
professionals in every school participating in the National 
School Lunch Program.
    As you know, in 1998, USDA policy officials met with 
representatives of the American School Food Service Association 
and the American Commodity Distribution Association, with the 
aim of improving the commodity procurement and distribution 
process. AMS played a key role in developing and implementing 
the initiatives contained in the ``Food Distribution 2000--
USDA's Reinvention Plan for Change'' report.
    Some of the key initiatives contained in this report that 
AMS has implemented include the expanded use of long-term 
contracts with proven suppliers; expanded use of best-value 
contracting; revised product specifications to align them with 
commercially available products; purchase of commercially 
labeled products; use of commercial and commodity products 
interchangeably by further processors in the manufacture of 
fruit and vegetables products, and, on a more limited basis, 
poultry products; implemented formal commodity product hold and 
recall procedures for use by State and local authorities; and 
relaxed truckload delivery requirements allowing multiple stops 
within a State or city.
    Mr. Chairman, AMS is proud of the role it plays in 
providing food products to this Nation's school children. We 
are proud of the relationship we have built with other Federal 
agencies, State agencies, and the school food community to 
carry out this most important responsibility. We look forward 
to working with you in any way that we can as the Child 
Nutrition Act and Richard B. Russell National School Lunch Act 
reauthorization process continues.
    This concludes my statement, Mr. Chairman, and I would be 
pleased to respond to any questions that you may have.
    Chairman Boehner. Mr. Yates, thank you for your testimony.
    [The prepared statement of Mr. Yates follows:]

    Statement of A. J. Yates, Administrator, Agricultural Marketing 
                Service, U.S. Department of Agriculture

    Mr. Chairman and Members of the Committee, thank you for the 
invitation to appear before you today to discuss the role of the 
Agricultural Marketing Service (AMS) in the National School Lunch 
Program. I am A. J. Yates, Administrator of AMS, and I am pleased to be 
here with Under Secretary Bost.
    In 1946, Congress passed the National School Lunch Act, providing a 
healthy lunch to millions of schoolchildren. Over 55 years later, the 
program continues to help improve the health of children, especially 
those at nutritional risk.
    While USDA's Food and Nutrition Service (FNS) administers the 
National School Lunch Program (NSLP), AMS is responsible for purchasing 
many of the commodities for this and other domestic food assistance 
programs. We support the NSLP by providing nutritious, high quality 
food to schoolchildren through our purchases of red meat, fish, 
poultry, egg, fruit, and vegetable products. USDA's Farm Services 
Agency (FSA) purchases flours, grains, peanut products, dairy products, 
oils, and shortenings. All of these purchases help to stabilize prices 
in agricultural markets by balancing supply and demand, thus helping 
domestic farmers and ranchers. Let me briefly describe the purchase 
process and AMS' roll in it.
    The process begins long before AMS announces that it plans to 
purchase particular food items. AMS specialists knowledgeable in food 
processing work with potential venders, FNS, and food safety officials 
to develop a specification for each item that will be purchased. Many 
of these items are similar to popular commercial items. Other items are 
developed specifically to meet the special nutritional needs of our 
recipients. The specification provides details on product formulations; 
manufacturing, packaging, sampling, and testing requirements; and 
quality assurance provisions. By coordinating the development of 
specifications with specialists from all aspects of food processing, 
AMS ensures the purchase of high-quality, wholesome, appealing products 
that meet recipients' needs and Federal standards for nutrition.
    Prior to conducting any purchase, AMS economists assess market 
conditions and determine the availability for commodities the Agency is 
considering buying. During this time AMS also works closely with FNS to 
determine recipient preferences. Orders are taken by FNS and provided 
to AMS so that purchases can be made. Although weekly meal patterns 
must meet Federal standards, local school authorities make the 
decisions about what specific foods to serve and how they are prepared. 
Moreover, USDA commodities comprise less than 20 percent of the food 
products put on schoolchildrens plates.
    AMS and FSA are responsible for issuing and accepting bids and 
awarding and administering contracts. FNS is responsible for taking 
commodity orders from States, monitoring purchases and entitlements 
throughout the year, and the overall administration of the commodity 
nutrition programs.
    Actual purchasing begins with AMS and FSA notifying specific 
industries through press releases and other means of their intent to 
purchase particular food products. The agencies invite bids under a 
formally advertised competitive bid program. These ``invitations'' give 
specific details on when bids are due for a particular purchase. All 
products must be U.S.-produced and of domestic origin.
    Under Federal Acquisition Regulations, vendors must be deemed 
``responsible'' prior to participating in the program. For instance, 
they must have a satisfactory performance record and adequate financial 
resources to demonstrate their ability to produce and deliver the 
product within designated timeframes. It is essential that USDA 
purchased food products arrive on time as recipients depend on it.
    Bids are received from responsible vendors, analyzed, and contracts 
are awarded by AMS and FSA. Contracts are then administered by the 
agencies to make sure that terms and conditions are followed.
    All products purchased by USDA are produced in compliance with 
applicable Federal food safety laws and regulations. Red meat, poultry, 
and egg products must be processed under USDAs Food Safety and 
Inspection Service (FSIS) regulations, and all fruit, vegetable, and 
fish products are subject to Food and Drug Administration (FDA) 
regulation. FSIS and FDA assure that such products are wholesome and 
that processing plants operate under sanitary conditions.
    In addition to FSIS inspection, AMS inspectors are present during 
production and shipping of all red meat and poultry items to ensure 
compliance with all specification requirements--including those for raw 
materials, processing, packaging, and testing. Plants supplying 
processed fruit and vegetable products undergo a survey by AMS 
inspectors to assure compliance with FDA requirements, including that 
Agency's Good Manufacturing Practices. Additionally, fish products are 
produced in facilities operating under the National Marine Fisheries 
Service voluntary seafood inspection program. For certain types of 
products, such as ground beef, egg products, and fruit juices, 
additional product handling and testing protocols are required.
    AMS also works with FSIS to distribute educational materials for 
food service professionals about proper handling and cooking 
techniques. These materials, available in both Spanish and English, are 
designed to assist food service professionals in every school 
participating in the NSLP.
    As you know, in 1998, USDA policy officials met with 
representatives of the American School Food Service Association and the 
American Commodity Distribution Association with the aim of improving 
the commodity procurement and distribution process. AMS played a key 
role in developing and implementing the initiatives contained in the 
``Food Distribution 2000--USDA's Reinvention Plan for Change'' report. 
Some of the key initiatives contained in this report that AMS has 
implemented include:
    <bullet>  Expanded use of long-term contracts with proven 
suppliers;
    <bullet>  Expanded use of best-value contracting;
    <bullet>  Revised product specifications to align them with 
commercially available products;
    <bullet>  Purchase of commercially labeled products;
    <bullet>  Use of commercial and commodity products interchangeably 
by further processors in the manufacture of fruit and vegetable 
products and, on a more limited basis, poultry products;
    <bullet>  Implemented formal commodity product hold and recall 
procedures for use by State and local authorities; and
    <bullet>  Relaxed truckload delivery requirements allowing multiple 
stops within a State or city.
    Mr. Chairman, AMS is proud of the role it plays in providing food 
products to this Nations schoolchildren. We are proud of the 
relationships we have built with other Federal agencies, State 
agencies, and the school food community to carry out this most 
important responsibility. We look forward to working with you any way 
we can as the Child Nutrition Act and Richard B. Russell National 
School Lunch Act reauthorization process continues.
    This concludes my statement, Mr. Chairman. I would be pleased to 
respond to questions from the Committee.
                                 ______
                                 
    Chairman Boehner. USDA's commodity distribution program 
really has two objectives. One is to stabilize the agricultural 
marketplace, and, second, to provide high-quality nutritious 
foods to Federal nutrition programs. And I am trying to--
wearing both of my hats of interest--trying to understand what 
really drives this process: what is good for the nutrition 
programs in terms of what the schools want; or is it the 
economics of the marketplace in terms of the stabilization of 
certain commodity markets?
    So I would like to ask both of you, just help me understand 
which objective wins when it is all said and done.
    Mr. Bost. Mr. Chairman, let me take a stab at it. I don't 
know if it is a question of which objective wins. I think what 
we have attempted to do in the Department is to ensure that 
there is a balance, and that essentially they balance one or 
the other out in terms of us making some decisions that are 
going to address both entities.
    On the one side, of course, what the farmers and ranchers 
produce and they want us to buy; and on the other hand, a very 
important consideration that we have to give--we are interested 
in giving to ensure that we provide nutritious, healthy food to 
the 29 million children in our schools.
    And also the other issue of dealing with the bonus buys 
that are out there. So we try to bring all of those to the 
table and balance them out in terms of some decisions that we 
make.
    Interestingly enough, that is why there are essentially two 
components of the program. One, of course, is entitlements. 
There are 143--145 items on that list that schools are actually 
able to order from. The other is bonus buys. The bonus buys 
afford the Department a great deal of flexibility in terms of 
when and what they buy and how much.
    And so that tends to be somewhat of a lever, because it 
affords us an opportunity to attempt to balance all of those 
things out, a challenge. It is a major challenge for us. 
Because there is a great deal of pressure coming, of course, 
from one side on occasion, saying ``Well, I want you to buy 
X.'' It could be peaches, it could be tree nuts. It could be, 
``Well, I want you to buy more beef.'' .
    On the other hand, it could be, we are interested in 
ensuring that the foods that we do buy, one, that we can afford 
to buy them; and, two, that they are going to meet the 
nutritional needs of school children. And, most importantly, 
that even when we do buy them, that the children are going to 
eat them. We have people who come to see us who are interested 
in, say, two of my favorites, asparagus and brussel sprouts. 
You know, there are not too many second graders that that is at 
the top of their list, you know, in terms of interest and 
taste.
    So we try to ensure that we balance all of those things 
out.
    Chairman Boehner. Mr. Yates.
    Mr. Yates. Mr. Chairman, it is a balancing act. And we at 
AMS work very closely with FNS. We will have a number of 
different agricultural commodity groups come before us in a 
period of time with a statement that our commodity is in 
surplus, we are having a difficult time. And the first thing 
that we always do, is we go to FNS and we say, here is what the 
industry has out there in surplus. Can you use it in any of the 
school lunch programs? Are the recipients interested in this 
type of product?
    It is a very close relationship that we have with FNS in 
this regard. And as the Under Secretary said, some of these 
commodities are wanted much more than others. And we look for 
ways of putting nutritious items together, even if it is a 
dried fruit mix, that would allow us to use certain commodities 
that by themselves might not be so appealing to an individual, 
a young student, but by combining these nutritious dried fruits 
together, it provides something that was very popular last year 
in the purchases that we made and the deliveries to the 
schools.
    Chairman Boehner. In Food Distribution 2000, the panel 
recommended that specifications be written to resemble, as 
close as possible, the specifications used in commercial food 
system procurement. I know the Department has reviewed some of 
these. But how are we coming in terms of the implementation of 
all of those recommendations?
    Mr. Yates. Well, I think we have been very successful in 
implementing most of those. One of the issues that the Under 
Secretary and I both stated in our testimony is the 
substitution issue in regards to fruit and vegetables. It is 
fairly broad in substitution there. And it is limited when it 
comes to poultry and to beef and pork products.
    For the poultry products, if our inspectors are in the 
facility where we have continuous inspection, the company can 
be making either commercial or school product, and actually we 
allow them to use their own label on the product. And so if it 
has passed under AMS inspection, those products can be 
interchanged.
    With beef, with the new beef specifications that we put in 
place last spring dealing with microbial testing, we allow no 
substitution because the health of one of the most at-risk 
groups of people we have in the country, the young people in 
school, we are going to assure to the best of our ability that 
we deliver a product that is safe and healthful.
    And so there--our testing begins at the carcass. And it 
goes through the boneless beef, on to after-processing. What we 
are looking at now in addressing the issue I think that you had 
raised is that we would entertain delivering on time to a 
processor, chilled, boneless beef for further processing that 
has gone through our inspection process and microbial testing. 
And I believe that that would provide a product that is more 
economical, and also a fresher product for school children.
    Chairman Boehner. I can see my time has expired. We will 
come back to that after all of the members have had a chance to 
ask their questions. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. We understand that the 
Department has conducted studies to determine how to reduce 
overcertification of eligibles. Do you believe that these--that 
there are program safeguards built into your proposal to reduce 
overcertification that protect children, and to make sure that 
we aren't dropping those that should still be in? And what are 
these safeguards?
    I have in mind, for example, that I have taught at an 
inner-city school. We had homeless kids. We had illegal 
immigrants. We had migrant workers. We had children in barely 
functional families, if not dysfunctional families. We had 
really a cross-section. How have you built safeguards in to 
make sure that in your zeal to reduce overcertification that 
you weren't really dropping those who legitimately need 
program?
    Mr. Bost. I think it is real important to note that, first 
of all, it is not necessarily just overcertification. We are 
interested in ensuring that every eligible child is able to 
participate in the program, because we have a significant 
number of eligible children, that for whatever reason, are not 
participating. So it is just not overcertification, but it is 
ensuring that those children that are eligible that are not 
participating, that they participate. That is the first point.
    The second point that I would like to make is the fact that 
we are looking at a system that we have built, hopefully, have 
described a system that will address many of those issues and 
start with one direct certification. The system now requires 
parents to send information back. The system that we have 
recommended essentially takes that first step away. Essentially 
they are automatically eligible, because we would tie some 
eligibility requirements to the food stamp caseloads. So it 
reduces the paperwork.
    And last but not least, this is a very important point to 
make, is the fact that we are motivated, and I have said this 
before, and I will try to make this just as clear as I possibly 
can--we are motivated by ensuring that every eligible child 
participates in this program.
    We are not interested, we are not motivated by either 
inhibiting or preventing any eligible child from participating 
in the program, but we are motivated by ensuring that they do 
meet the eligibility requirements, with that in mind, with the 
risk program that we are going to recommend.
    There will be a follow up for those that we don't think 
that we would be able to catch. One, a very assertive and 
aggressive follow-up that would be telephones, it would be 
letters, would be at the discretion of the teacher or would be 
at the discretion of the school system. If a person--you made 
reference to the fact yourself, that you had a child in your 
class that you knew was not receiving a meal that may be 
eligible. We have built into the process a system that would 
afford a teacher or the school system the opportunity to enroll 
that child.
    And so we believe that we have built safeguards in place to 
address all of the considerations that you spoke of, because we 
are motivated, very clearly we are motivated by ensuring that 
every eligible child participates, and that we do not--and I 
repeat--that we do not inhibit or prevent eligible children 
from participating in the program.
    Mr. Kildee. I appreciate that. I think it is very important 
that you have the same zeal--I am talking about anyone, the 
years that I have been here--that you have the same zeal in 
excluding the ineligible, and also the same zeal of including 
the eligible. And I think it is very, very important, because 
that is very often--there are certain people, it depends on who 
is in charge. Certain programs have a certain bias. I think 
that we have to make sure that we have that same zeal to 
include the eligible while you are trying to exclude those who 
are ineligible in that program.
    Mr. Bost. And we believe that we have put forth a process 
that will afford us the opportunity to do that. We are 
motivated by ensuring that eligible children participate in the 
program. There are people, there are critics who feel 
otherwise.
    And what I have said to them, and I will offer it today, if 
someone can come up with a much better system that is not going 
to cost any additional money, we are open.
    Mr. Kildee. OK. We hope to work closely with you. I think 
we do realize the importance of nutrition. I would like to also 
say hello to George Brailey, who I have been working with for 
many, many years on nutrition issues. Good to see you again, 
George. Take care. Thank you very much.
    Chairman Boehner. The Chair recognizes the gentlelady from 
Illinois, Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman. Just one question, 
first of all. I think that, Mr. Under Secretary, you talked 
about allowing vendors to use commercial labels on the USDA 
commodities. And I think that, Mr. Yates, you referred to that 
in your testimony also.
    Why is that important? Why is that a change?
    Mr. Yates. One of the reasons that it is important, I think 
it really holds the processor more accountable. His label is on 
the commodity. It also gives us a more seamless process to 
where this company is making a product, you know, such as we 
are already in there inspecting. They can put their label on 
it. But when it gets out there in the schools, the schools know 
who the processor was. It just doesn't have a USDA label on 
there. So I think the accountability issue is of utmost 
importance.
    Mrs. Biggert. It is accountability and safety, not that 
people would like to know where it came from.
    Mr. Yates. That is right.
    Mrs. Biggert. Then you also testified about it being 
twofold; one is for the agriculture, to stabilize the 
commodities; but also to provide, then, for the food substance 
for the schools. How does this work? Let's say you suddenly 
have an overabundance of chickens and so you are going to 
provide these to the schools. Do the schools have--is this a 
contract that is way ahead of time so that they know how to 
plan to use these foods in combination with their other foods 
that are going to the schools?
    Mr. Bost. Well, it tends to be a combination of both. As I 
said before, the commodity program has two parts. It has an 
entitlement and it has bonus buys. The entitlement, there is a 
list of 145 items that schools are able to order. And so they 
are able to anticipate what their needs may or may not be.
    In terms of bonus commodities, essentially, for example, 
last week I think it was tree nuts. Especially if they are 
interested in buying them, they would usually go to Mr. Yates 
and his folks and talk about what the need is, what they have, 
and what we are able to buy. Then, essentially, they make the 
case, and we talk among ourselves to make a determination if 
AMS purchases it, if we are able to use it. And not only are we 
able to use it, but is it going to meet the nutritional needs 
of children, and are they going to eat it? We are not 
interested in spending a significant amount of money on food 
that the children aren't going to eat. So it tends to be a 
combination of all of those.
    Mrs. Biggert. Are there commodities that might be available 
that are never requested?
    Mr. Bost. Yes.
    Mrs. Biggert. What happens to those?
    Mr. Bost. There are several opportunities in terms of the 
State using them for other things. As Mr. Brady is saying to 
me, most of time we usually don't buy it if we don't think that 
it is going to be needed. Usually the schools make their orders 
in advance.
    Mrs. Biggert. And then you have put in there that there is 
going to be more opportunity for fresh fruits and vegetables 
rather than the canned or frozen?
    Mr. Bost. Yes. There has been a concerted effort on our 
part to ensure that we increase the availability of fresh 
fruits and vegetables that are available as a part of our 
program. We are interested, of course, in increasing the ways 
to meet the nutritional needs of our children. And what better 
way to do that? And then also one on the other end, it helps 
the market on the other hand. It helps the nutrition and health 
of children. It also helps to address some of the issues of 
obesity that children in our schools today are experiencing. 
And so there has been a concerted effort on our part to 
increase the availability of fresh fruits and vegetables.
    And last but not least, as I travel around the country we 
find that children, when the fruits and vegetables are fresh, 
are much more likely to eat them.
    Mrs. Biggert. I think that is true. I think that is a very 
good program. But how long does it take you to get these 
products to the schools so that they are fresh? Is there any 
certain amount of time that you have after they have been 
ordered that they will arrive?
    Mr. Bost. Well, the Department of Defense, as I said in my 
testimony, last year I think they bought $50 million worth. And 
they are able to deliver it in a very timely fashion. Also, the 
fresh fruit and vegetable pilot, that was in 4 States, 100 
schools, and an Indian reservation. And it was shipped directly 
to those schools.
    And, last but not least, in at least a couple of States 
around the country, we have the farm--the local farm-to-school 
programs where fruits and vegetables are bought locally. So as 
a result, the time in terms of getting them to the schools is 
very, very short.
    Mrs. Biggert. Does this have anything to do with so many 
schools have their produce day where they bring in from their 
local farmers, from the families? Which I think has really 
gotten a lot of children wanting the fresh produce.
    Mr. Bost. Well, I think that is a part of it. In some of 
the schools that we have seen around the country, it is also an 
opportunity to introduce new fruits and vegetables to students 
so that they can acquire different tastes.
    Mrs. Biggert. Thank you very much.
    Chairman Boehner. The Chair recognizes the gentlelady from 
Georgia, Ms. Majette.
    Ms. Majette. Thank you, Mr. Chairman.
    Mr. Under Secretary, are there--is it anticipated when the 
report will be issued regarding the overcertification? It is my 
understanding that report has not been issued.
    Mr. Bost. Well, there was not a complete report. I believe 
that we had shared some preliminary information with folks on 
the staff of this Committee. And so there wasn't a complete 
report done, but some preliminary information that we did 
receive has already been shared.
    Ms. Majette. Are you anticipating that there will be any 
action taken with regard to overcertification and 
reauthorization? And, if so, wouldn't you agree that it would 
be important to have the formal report or the final information 
on that?
    Mr. Bost. Well, I think based on the information that we 
have been able to gather not only from that report but also 
from the data that has been collected before I became Under 
Secretary, we have put forth, we believe, some provisions that 
will address some of the concerns that I spoke of earlier.
    And like I said, it is not just those children that are not 
eligible that are participating in the program. We are also 
concerned about those--we are concerned about both. What I 
consider the over- and the under-, those that are eligible and 
those that are not eligible.
    We have put forth, we believe, a proposal that will address 
those and also improve the integrity of the program.
    Ms. Majette. And in your testimony you indicated that today 
over 80 percent of the NSLP schools offer meals that are 
consistent with good health. Is there a period during which you 
expect that it will get to closer to 100 percent? What kind of 
efforts are being made to improve that percentage?
    Mr. Bost. Well, of course, we work very diligently with the 
schools to ensure that they not only provide healthier--healthy 
and healthier foods in their schools to children, and we work 
very closely with some of the associations that you are going 
to hear from after I finish testifying today. And so we are 
working very diligently to increase that number, I think every 
day. But part of the challenge, of course, for us is what is 
served as opposed to what is consumed and eaten.
    If you look at children that participate in the National 
School Lunch Program, the data would indicate that those 
children consume more vegetables than those who don't 
participate. If you look at those children who participate in 
the National School Breakfast Program, the data indicates that 
those children consume more fruits than those who don't 
participate.
    But there is a challenge in terms of offering healthy and 
healthier foods and the challenges of children being able to go 
through the a la carte line and choose what they want to eat, 
which in some instances is not as healthy as what is offered in 
the National School Lunch Program.
    Ms. Majette. What kind of things do you think can be done, 
within the context of helping children make these decisions, 
what kinds of things do you think can be done to get the 
children to move toward making better choices? And I am asking 
that question because I think, perhaps to a certain extent, we 
as adults play into what the children say they want or what 
they see marketed.
    I represent Georgia's Fourth Congressional District, 
suburban Atlanta. In some of our new high schools, there is a 
food line that looks like the fast food row when you drive 
down--you can get pizza and Burger King and all of these 
various things that we already know, taken in large and regular 
quantities, are not good for our children.
    So certainly I can appreciate the average child not liking 
brussel sprouts, but what do you think that we can do to create 
the atmosphere that will allow them to make healthier choices 
as opposed to accommodating what we already know is not 
probably the best choice to make?
    Mr. Bost. Well, there are several things that we have done 
in terms of providing education and educational opportunities 
to teachers, administrators and parents. We have also provided 
education to children so that they are able to make better 
informed decisions about the choices the make and about the 
types of foods that are offered.
    And last but not least, I think it is also very important 
that we look at improving the quality and the types of foods 
that are also provided to our children in schools, so that we 
can make it appetizing and that it looks good and that it 
tastes good, so that they will actually choose it.
    I think one of the rules of thumb that I go by is that one 
of my colleagues in the Department has some young boys in 
school, and they had a real description of some food, and it 
was not very pleasant. So it tells us every day that we need to 
look at working with the schools. I think that they are trying 
as hard as they can to address some of those concerns in terms 
of educating the people so that they are able to make wise 
decisions and choices, also making the foods appealing.
    Also part of the things that we are doing, too, that I 
failed to mention is increasing--or ensuring that we add fresh 
fruits and vegetables to the menus, changing the way foods are 
prepared, the way they look. And let me give you a real 
specific example of something that occurred to me as I saw a 
school in Florida. Pizza was delivered initially in boxes that 
had one of the large pizza restaurants, and the kids loved it, 
and they ate it every day. And the food service workers, what 
they did was that they made the same pizza and put it out and 
the kids didn't eat it. And it was healthier. It was lower fat, 
more vegetables, a whole grain crust. So what they did was they 
started slipping some of the pizzas that they made in the 
commercial box and the kids ate it.
    Ms. Majette. So it is all about marketing?
    Mr. Bost. It is all about marketing. Because they didn't 
eat it the day before and it was the same pizza. And then they 
ate it the next day. That was another example.
    The other thing is I went up and looked at a school system 
in Bellingham, Washington, where the food service person is 
doing an outstanding job in terms of providing some very 
healthy choices and alternatives to school kids. And she makes 
it look really attractive, and it tastes good. And I was able 
to go through the line. And she did some other things that were 
also very interesting. And it was just the dynamics of how she 
had set up the line.
    Initially she had the salad bar as the kids went through 
the line, she had the salad bar at the beginning of the line. 
Kids were bypassing it and going to other items. She put the 
salad bar at the end of the line, so that when the kids were 
standing in line to pay, they were standing right next to the 
salad bar. And the kids were much more likely to take some 
additional items from it, because they were standing there 
waiting. So we found some of the school systems that are being 
very creative in terms of addressing that issue.
    And last but not least, parents have got to take some 
responsibility in terms of helping their children make some 
wise decisions and choices about what they eat, because for 
young kids, young kids don't buy junk food or the foods that 
are not healthy for them, their parents do. And the parents 
give them money to buy foods, too. So parents have a very 
important role to play in terms of helping guide their children 
and making some wise decisions about the types foods that they 
eat.
    Ms. Majette. Thank you.
    Chairman Boehner. The Chair recognizes the gentleman from 
Florida, Mr. Keller.
    Mr. Keller. Thank you, Mr. Chairman.
    And, Mr. Under Secretary, let me make a comment. As we sit 
here in the sterile atmosphere of a congressional hearing, it 
sounds very good, admittedly, that we have food that is 100 
percent nutritious 100 percent of the time for our school 
children.
    But as a Member of Congress who is only in his thirties, I 
am not that far removed from high school. And in my high 
school, we had pizza day every Wednesday, and I loved it. And I 
don't want to be known as the jerk who killed pizza day. So are 
we going to have our local schools still have the flexibility 
to once in a while serve some food that may not win the award 
as the most nutritious, but gives them the chance to serve some 
normal food without fearing losing dollars from the government?
    Mr. Bost. Absolutely. They are able to do that now. The 
issue is those are not reimbursable meals, and so they can 
continue to serve it as much or as frequently as they like to.
    But the challenge of that is the fact that parents go into 
it, into a school, and they see the pizzas, the hamburgers, the 
hot dogs, the french fries, the honey buns, and the donuts, the 
other things. Then they call me and say, why is it that my 
child is eating that food that is high in fat and high in sugar 
and high in sodium? And that is a decision that the school has 
made, not that we have made.
    So what we are saying is that we are interested in them 
providing healthier choices. But it is a local decision that is 
left to their discretion. But I think, given the rate of 
obesity that we are experiencing in this country, that we are 
going to have to look at making some very difficult decisions 
that we might not be interested in making.
    Mr. Keller. And whatever we do, let me tell you those kids, 
even elementary school kids, are pretty sophisticated about 
trading. You try to trade a banana for a Jello snack pack 
pudding, you aren't going to have any offers on the table 
there, as I recall.
    But let me ask you, how often are the dietary guidelines 
for Americans changed?
    Mr. Bost. They are reviewed every 5 years. We just swore in 
and gave the Committee their charge, I think, 2 weeks ago. So 
they are in the process of reviewing the dietary guidelines as 
we speak.
    Mr. Keller. It seems like we are in a state of flux when we 
are trying to determine what is healthy. For example, take the 
Atkins diet. For many years that was considered quite 
controversial by traditional physicians, and now even the most 
established journals such as New England Journal of Medicine 
say that this actually works. As you know, this diet advocates 
the more low-carb things, so the green vegetables as opposed to 
the more starchy vegetables like corn and potatoes.
    How do you take into consideration these new data as to 
what is healthy and what is not healthy in determining what the 
requirements are for reimbursable meals?
    Mr. Bost. Let us specifically talk about the Atkins diet 
for just 30 seconds. One, it is a diet. It is there to lose 
weight. I don't know if anybody said it was healthy for you. I 
haven't heard any of the research that say it is healthy. It is 
a diet. It is there to help one lose weight.
    Mr. Keller. Weren't you saying that one of your major 
challenges is obesity?
    Mr. Bost. But the Atkins diet, you talked about it. It is a 
diet, and it is there to help people lose weight. That is the 
first point.
    The second point is that I haven't heard any research that 
would indicate that anyone had said that the diet itself is 
healthy.
    The last point is the fact that when you look at those 
people that were on the Atkins diet long term, they essentially 
gained back all the weight that they had lost. That is the 
first point.
    The second point, 34 percent of the meal can meet the fat 
content, and that is why the dietary guidelines are essentially 
reviewed periodically so that we can look and receive the best 
possible data and science from the experts around the country 
that will afford us the opportunity to make some decisions 
about what is healthy and what is not. As I said before, that 
Committee is in the process of reviewing the Dietary Guidelines 
for Americans as we speak.
    Mr. Keller. You are a skeptic on a low-carb type of diet, 
it sounds like.
    Mr. Bost. No, it is not that I am a skeptic, it is just 
that if you go into a bookstore, there are 1,000 books on 
diets. It is a question of individual diets and preferences and 
choices and what works for you. If it is a diet that works for 
you, I have no problems with it whatsoever, but it doesn't work 
for everyone.
    Mr. Keller. Nothing works for me.
    We will move off of me.
    Let me just close by asking you, does the Department review 
and revise from time to time the specifications for products it 
procures to make sure that they are based on these changing 
dietary guidelines?
    Mr. Yates. Yes, we do. We review them on an annual basis.
    Mr. Keller. Thank you, Mr. Yates.
    Mr. Chairman, I yield back.
    Chairman Boehner. The Chair recognizes the gentleman from 
New Jersey Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman.
    I would like to talk a little bit about fresh fruits and 
vegetables. Mr. Secretary, it is good to see you again.
    Mr. Bost. It is good to see you.
    Mr. Holt. I think you have made it clear that they are 
important in the diet. I think you would also agree that they 
are important for pregnant women and moms of young children. 
What can we do in this reauthorization to make fresh fruits and 
vegetables both a permanent and nationwide part of the school 
program and a permanent part nationwide of the WIC program?
    I ask that partly because I know in my district, we 
encounter some difficulties with the produce sellers in fully 
participating in the program. So it makes it difficult to have 
this integrated into the diet.
    Mr. Bost. Let us start with the fresh fruit and vegetable 
pilot that is currently taking place in 4 States, 100 schools 
and an Indian reservation. As a part of child nutrition 
reauthorization, the administration recommended, one, that it 
continue in those schools and that we expand it initially to 
some additional schools. I didn't necessarily put a number on 
it because it depends a great deal on how much money would be 
available to do it. And so we feel that that would be one way, 
a very proactive way, to address the concern that you noted, 
because it has been very well received in all of the schools by 
all the teachers and administrators and, of course, by all of 
the children. And so we see that as a vehicle to address that 
specific concern.
    In terms of WIC, the WIC food package itself right now, we 
contracted with the Institute of Medicine to review the WIC 
food package because, one, we believe that it is time, and, 
two, there are opinions that it should change and include more 
fresh fruits and vegetables. So that it would not be a question 
about our lack of objectivity or subjectivity regarding this 
matter, we referred it to the Institute of Medicine. They are 
going to review it. There is an opportunity for anyone that is 
interested to comment on what should be a part of that, whether 
it should be fresh fruits and vegetables, whether it should be 
substitutions, whether there should be juices. They will review 
it and then make recommendations back to the Department in 
terms of exactly what the package should look like. So we 
believe that we have taken some steps to address both of those 
concerns.
    Mr. Holt. I hope we can find a way to make this more than 
just an experimental, partial program, but truly nationwide.
    Let me switch the subject to something that perhaps 
officially isn't in our jurisdiction here, but probably should 
be, and maybe we should try to extend our jurisdiction on that, 
and that is the bonus commodities that provides for the 
distribution of surplus production, because one of the 
recipients of that would be schools. How do we make sure that 
we don't experience what we experienced earlier this year, 
where the money was essentially raided, and it was restored, 
but it was--how do we make sure that that program continues and 
the funds aren't shifted to other uses? I address this to 
either of you to answer that.
    Mr. Yates. The bonus buying money is used for a variety of 
assistances to agriculture. We have helped the pork industry in 
times of crisis. We have helped the cattle industry. But we 
have been able to meet the needs of the schoolchildren even as 
we have had to help some of these commodities that are in dire 
distress. We believe that we will continue to be able to meet 
the needs of agriculture and still meet what schools want. This 
is one of the things, early in my testimony, we go to FNS and 
ask them, what do the schools want. But we do have the ability 
to help the industry when the market falls out of bed, and we 
can come in there and sometimes put a bottom under that market 
that helps considerably for a huge agricultural market. It is a 
dual-purpose program.
    Mr. Holt. Let me just say that many of the people who 
provide food, shelters, food banks and so forth, in my district 
had some very anxious weeks, or even months, this year when it 
looked like the program was going the other way, and there 
isn't time to go into that history today, but I just hope that 
we can find a way to see that it is maintained for the benefit 
of those who provide the food to the schools and to the 
shelters and food banks. Thank you.
    Mr. Osborne. [presiding.] Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here today and giving detailed answers to 
our questions, sometimes confusing questions, I am sure, at 
least confusing to me.
    You mentioned earlier that you had commodity 
representatives, of course, coming and asking you to buy 
Brussel sprouts and asparagus and so forth. I haven't had 
anybody in my office encouraging that we put Brussel sprouts in 
the program, but I certainly do get commodity representatives 
that come in, two recently. Dairy farmers and soybean growers 
have been in the office, and I am sure in yours as well. And I 
know we are going to have some testimony here a little bit 
later on that, but I would like to address a couple of 
questions to you if I could while you are here in this panel.
    The law now requires dairy milk in the reimbursable school 
meal program, but I understand that there is a provision in the 
law that allows children with allergies or lactose intolerance 
to receive a nondairy alternative, such as soy milk or orange 
juice. To the best of your knowledge, Mr. Under Secretary, is 
this current system fulfilling the nutritional needs of the 
children?
    Mr. Bost. To the best of my knowledge, yes, it is, because 
as you noted, children that require--for medical reasons or for 
religious reasons, there is an opportunity for them to receive 
other types of fluids that we believe go a long way toward 
addressing some of the nutritional challenges that they may 
present.
    The issue of soy--and, as you say, the soy folks have, of 
course, come to see me. The current rules, as you noted, in 
terms of reimbursement for the meal requires fluid milk. Soy-
based products do not meet that definition. But there is an 
opportunity for soy to be served in schools based on the 
individual needs of children and/or if there are religious 
considerations that need to be taken into consideration. That 
is one point.
    I think the other point has to do, of course, with the 
cost. The other consideration, of course, would be the 
fortification of those things, of soy, to meet some of the 
other nutritional needs that milk, we believe, currently 
addresses.
    With all of that said, we are always interested in 
providing our students with healthier alternatives and choices, 
and we have essentially said that, and it is at the discretion 
of the schools to serve it if they so choose. I think it comes 
down to a resource issue for them because of the issue of it 
not being reimbursable.
    Mr. Kline. Thank you.
    Let me get your opinion now, and as I said earlier, I know 
we have got some more testimony coming, but I am interested in 
your opinion, sir. Do you think that there should be 
alternatives to dairy milk served as part of the reimbursable 
school meal program?
    Mr. Bost. I think it is a question of where we are trying 
to go with that. One, soy at this point, based on my very 
limited knowledge, of course, of the subject, because I am not 
a scientist, does not meet the same nutritional needs in 
growing children that milk does, and so that has to be a 
consideration. Two, it is a question of being able to fortify 
it, and I don't know what that would take. Then, of course, the 
last issue, of course, is how much is it going to cost. That 
has to be a consideration. I don't know if I have enough 
information at this juncture to answer your question.
    Mr. Kline. All right, sir. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Osborne. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    After the discussion about soy, I have some other questions 
to follow up on, but I want to go back to a couple of earlier 
statements. You said that there is a report, and then you said, 
well, it is not really a report, there are just some documents 
on certification. Do you have anything else that is accessible 
to my office besides what is currently on your Web site, which 
is very, very incomplete and very sketchy?
    I have some other questions, and I have limited time.
    Mr. Bost. I just wanted to double-check my answer.
    One, it is all on our Web site. Two, there are some 
additional reports that we are putting some finishing touches 
on, and last but not least, we are still continuing to look at 
this issue.
    Ms. McCollum. I would also like to know how much money--I 
would like all the information you have delivered to either the 
Chair so he can distribute it to all of us or, if people aren't 
interested in it in the Full Committee, to my office, and the 
cost of what it has been to the Department to investigate this. 
My understanding, still current today, is that school districts 
are based under local control. Can you tell me on average how 
much a school lunch costs and how much the Federal Government 
is really participating in the cost of that school lunch?
    Mr. Bost. In terms of how much we reimburse the school 
lunch?
    Ms. McCollum. Per lunch.
    Mr. Bost. About $2.
    Ms. McCollum. A school lunch is about $2.
    Mr. Bost. We cover the complete cost of a free lunch that 
is provided to schoolchildren.
    Ms. McCollum. The complete cost of a free lunch.
    Mr. Bost. On average.
    Ms. McCollum. On average.
    Mr. Bost. Yes.
    Ms. McCollum. You talked about all this local control and 
local discretion for the certification. How does that work for 
a school district? Let us say Northwest Airlines lays off a lot 
of mechanics, and they find themselves on unemployment. How 
does that work for--are parents expected to come in, re-enroll, 
fill out paperwork? Does the school district have enough 
discretion that it can quietly, without causing--because this 
becomes very much peer pressure, sensitivity, especially as you 
go into the junior high years. Are school districts allowed to 
say, we know so and so works for Northwest or works for the 
packing plant, and we need to provide that family a little help 
and assistance here, and let us just cover the child's lunch 
while the family is underemployed or not employed at all?
    Mr. Bost. I think, first of all, we have to start with how 
much--how long they are going to be unemployed or how long they 
are laid off, because there are income requirements that the 
family would have to meet regardless of whether they are laid 
off or working. That is the first consideration. And so they 
may be laid off for a month, but they still might have other 
income, and so that has to be taken into consideration.
    The second point that I want to make is are you talking 
about under our proposal that talks about direct certification, 
or are you talking about right now?
    Ms. McCollum. I am talking about under your proposal, you 
said there was going to be a lot of flexibility for the school 
district, and so if the school district used this flexibility, 
what kind of accountability measures would the school district 
expect?
    Mr. Bost. From?
    Ms. McCollum. Well, I have a lot of National Guard families 
right now. Some of them are having a hard time hanging onto 
their homes, and so if a school district knew that and said, 
gee, these families are overseas serving, let us help the 
family out, they are having real challenging, difficult times 
right here; their assets might look good, but provide a free or 
reduced lunch. What would the school district expect the 
Federal Government--if you saw a blip go up, would you be in 
there saying, no, you can't do that?
    Mr. Bost. We don't make any decisions. It is based on the 
income of the family. So the income may go down, but they still 
might not meet the eligibility requirements.
    Ms. McCollum. You've answered my question.
    Could I ask you, as you are rolling out this Department of 
Defense program, how this is going to affect schools in 
Minnesota, schools in other parts of the United States that do 
not have military bases close to them?
    Mr. Bost. You mean the fresh fruits and vegetables--.
    Ms. McCollum. Yes, because I saw a list of bases. Are you 
providing to military bases and the schools around, or is the 
Department of Defense now delivering food all over the United 
States?
    Mr. Bost. Essentially there are selected bases and 
Department of Defense locations all over the country that they 
in turn purchase the fresh fruits and vegetables, and they 
deliver it. It doesn't have to be in a base. It is not 
necessarily--fresh fruits and vegetables are not necessarily 
delivered to people who live on a base. They are delivered to 
schools in various locations around the country. A distribution 
point, maybe that would be a better way of describing it.
    Ms. McCollum. Mr. Chair, I would be really interested in 
how that works and how they would be looking at rolling it out, 
because to the best of my knowledge, no one in the Department 
of Defense--.
    Chairman Boehner. Currently we just have a pilot project 
with regard to fresh fruits and vegetables. The distribution 
process is being handled by the Department of Defense because 
USDA doesn't have such a system at this point. DOD has done 
this for a long time.
    Ms. McCollum. Maybe that is why my school lunches were so 
bad, being a military brat.
    Chairman Boehner. The Chair recognizes the gentleman from 
Nebraska, Mr. Osborne.
    Mr. Osborne. Thank you, Mr. Chairman.
    I notice that the nutritional guidelines indicate that a 
young person should have 5 to 9 servings of fruits and 
vegetables, and also in some of the materials we have here, it 
indicates that roughly 45 percent of children consume no fruit, 
and 20 percent eat less than 1 serving of vegetables per day, 
which is a little bit alarming. I am sure it has some 
correlation with some of the obesity we are seeing. I just 
wondered if there is anything that the Department has done to 
attempt to educate, change behavior, because it seems like this 
is a little bit of a national problem.
    Mr. Bost. Mr. Osborne, we have done all of those things. We 
continue to work with the local school districts along with the 
American School Food Service Association, one, to encourage 
children to consume and to increase fruits and vegetables as a 
part of a healthy diet. We have several campaigns that are 
going on now; Eat Smart, Play Hard. We have a memorandum of 
understanding with Health and Human Services to expand the Five 
a Day Program.
    And so there are several campaigns that we have ongoing now 
even as we speak to hopefully turn the tide and get children to 
increase their consumption of fruits and vegetables, along with 
the DOD program that we talked about that actually distributes 
fresh fruits and vegetables to schools, along with the pilot 
that is going on in 4 States, where fruits and vegetables were 
actually given to 100 schools in 4 States and an Indian 
reservation. So we are always looking for those opportunities 
to continue to provide those choices to children so that they 
are able to eat it when it is put in front of them.
    Mr. Osborne. A follow-up question. Since you have these 
programs to educate, how are they administered? Do you try to 
have teachers in the classroom become actively involved or 
using public service announcements or using printed materials, 
or all of those?
    Mr. Bost. All of those, along with a major campaign that we 
have going on with school systems and school districts and some 
of the associations. Next week is National School Lunch Week, 
and all of our staff will be traveling the country, going to 
schools, talking about what we can do to continue to educate 
teachers, administrators, parents. We also have teachers who 
actually do that with some of the programs that they actually 
do have in classrooms. We also have done work with food service 
personnel in terms of providing them with information so that 
they are able to make decisions and choices about the types of 
foods that they purchase and how they prepare them.
    And so it runs the entire gamut in terms of, one, providing 
people with information and encouraging them to make some 
different decisions and choices. And I don't want to minimize 
this. We can do all of that, and we can continue to throw money 
at all of that, but it gets down to that child going through 
the line and what are they going to choose to eat. That is 
where we need--we try to start to focus on that, but when you 
have competing interests in some of the schools that we do have 
around the country--and I am very sympathetic to many of the 
financial challenges that schools have in terms of why they 
offer a la carte meals. If you have a 12-year-old or 13-year-
old who is able to choose a hamburger, a cheeseburger, french 
fries and a pizza as opposed to meatloaf, green beans and 
something else, it is a hard sell for that child every day. But 
what we are trying to do is to say to kids--and part of the 
thing I talk about is eating that hamburger and french fries, 
that is not bad. It is not bad for you, there are just concerns 
when you eat it every day. You need to choose a variety of 
foods that we are interested in you choosing. Do try to eat the 
five fruits and vegetables, five to nine fruits and vegetables 
a day, and that can take on different forms and shapes. And 
encouraging new tastes for our children.
    One of the things that did come out with our fresh fruits 
and vegetable pilot in those 100 schools is that there were 
some fruits, kiwis and other things, that kids had never 
tasted. When they tasted it, they loved it. We are always 
looking for opportunities to be a little bit more innovative 
and a little bit more creative in terms of helping children and 
parents and educators make more informed decisions and choices.
    Mr. Osborne. Thank you, Mr. Chairman.
    Chairman Boehner. The Chair recognizes the gentleman from 
South Carolina Mr. Wilson.
    Mr. Wilson. I have no questions, Mr. Chairman.
    Chairman Boehner. The Chair recognizes the gentleman from 
Texas Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman. I apologize for 
missing most of this hearing. I sometimes wish I could divide 
myself up a little bit better.
    But I have a question I would like to ask you about the WIC 
program. About 5 months ago, I got approached by a DPS, 
Department of Public Safety, Undercover Special Crimes Unit 
detective who had been in my court. I am a former judge, so he 
knew me. He approached me in Houston with a problem in Harris 
County of people stealing baby formula and selling it to the 
WIC program to the tune of $250,000 a week is the estimated 
amount of stolen merchandise being purchased by the WIC program 
in Harris County alone. The next time he met with me, he 
brought representatives of Wal-Mart, HEB, which is a local 
chain in our State.
    Mr. Bost. I am from Texas.
    Mr. Carter. Good. Then you know what I am talking about. 
And some of the folks from whatever Safeway calls themselves 
now. They were showing me evidence of the loss from theft that 
they were having there. He seemed to indicate to me that when 
he had approached at least the WIC people locally, the response 
that he got was that they are looking for the best price. Back 
where I come from, we call that fencing stolen merchandise.
    I was very concerned about it. I remain concerned. I have 
since met with him again, and he has followed some of this gang 
to Arizona and to California, and he is fairly confident that 
they have got a bigger operation in California than they do in 
Texas. A million dollars a month is, in my opinion, a pretty 
good operation in Houston.
    Do you have any information about that and what is being 
done to stop fencing of stolen merchandise in Texas?
    Mr. Bost. We have heard some of those stories. When we are 
aware of it, of course, we work with the local law enforcement 
agencies. We do sting operations through the Office of the 
Inspector General to address those concerns.
    I think part of the issue is what we have been able to see 
in many instances is that you have people that are going into 
HEB and actually stealing formula, so they are actually 
stealing it from a supermarket and then selling it on the black 
market to other entities. We have been able--whenever we find 
that, usually they mark it, and we are able to trace it.
    But there are problems with people essentially going into 
stores, stealing everything, and then putting it on the market. 
So it is not just specific to WIC, but we are aware of it, and 
we are working with the law enforcement agencies and also the 
State agencies to attempt to address this issue.
    But formula is a major product that is very popular, that 
is--it is like the automobiles. They release a list every year 
about the most popular automobiles that are stolen. For 
products that we deal in, formula is always at the top of that 
list.
    Mr. Carter. One of the problems that I have with this is if 
we have someone who is in possession of dangerous drugs, 
actually being in possession of those dangerous drugs is a 
crime. If you can make money stealing baby formula, possession 
of baby formula is not a crime, but if you have got a truck 
full of baby formula that your professional shoplifters have 
gotten for you that you are selling to the WIC program, and it 
is generating $1 million a month worth of income, that is just 
about as good as the drug business, especially if the Federal 
Government is buying this through their WIC marketers, because, 
as I understand it, he has clearly traced from the warehouse to 
the WIC marketers, the smaller guys, because they sell it for 
$7 to $9, sometimes $8 a unit, whatever that unit is, I assume 
a can, versus the market price, which I understand is $11. And 
then there is a cash rebate that comes back from manufacturers 
on that somehow for these guys that buy it from them. So they 
are making a real killing off this, the WIC merchants that are 
buying this stuff. This also is a fairly large operation 
involving as many as 50 people, both the people who do the 
stealing and the people who buy it and warehouse it and then 
sell it. To me that is organized criminal activity, and the 
Federal Government shouldn't be involved in fencing merchandise 
from organized criminal activity.
    Mr. Bost. We aren't. Let me make that point real clear. 
Essentially what happens is that an individual goes into a 
supermarket and essentially steals a product and goes somewhere 
else and sells it. It is a crime. It is criminal activity. 
Whenever we are aware that a vendor is buying stolen 
merchandise, we involve law enforcement officials, and we deal 
with it very quickly and very swiftly. So whenever we are aware 
of those things, we deal with it.
    In addition to that, there has been a great deal of work 
with our State partners to, one, make them aware that this is a 
crime, and that they need to continue to work with their 
vendors in their States to adequately address this problem. But 
you are dealing with people who are shoplifters.
    Mr. Carter. I actually think the Texas Legislature 
addressed it this year, but they still--it is my understanding 
to some extent, limited extent, the FBI is involved, but it is 
my understanding from talking to the Special Crimes Unit, they 
still feel like they are running up against sort of a stone 
wall from the WIC Program.
    Mr. Bost. I think it is something that we would be more 
than happy to come and talk to you about. If there is something 
that is occurring that they feel that we could help with, we 
would be more than happy to do that. It is something that we 
are aware of, it is something that we are on top of, and we are 
working very diligently in our States to ensure that when we 
find out about it, that we address it, and we address it very 
swiftly.
    Mr. Carter. When somebody like Wal-Mart is willing to come 
to Washington to testify on this, as much as they like money, I 
think they figure it is a pretty big problem. Thank you for 
answering the questions.
    Mr. Bost. Thank you.
    Chairman Boehner. The Chair recognizes the gentleman from 
New Jersey, Mr. Payne.
    Mr. Payne. Thank you very much, Mr. Chairman. I commend you 
for having this very important hearing. I am sorry that my 
schedule didn't permit me to be here earlier. I do know some of 
the questions that I had have already been talked about, over 
certification, things of that nature; however, I would like to 
ask Under Secretary Bost, there is a concern that many of us 
are discussing regarding the question of obesity in our 
elementary and secondary school children. Obesity in general is 
something that we are really starting to, I think, finally 
recognize is--we have always known that it could be a problem. 
However, I think there is more and more focus now on the 
question of obesity in general and, of course, to try to deal 
specifically with some of the problems as relates to elementary 
and secondary schools.
    I just wonder what your department is doing, or has this 
become a major concern? Has there been discussion regarding 
what could be done in general about the problem?
    Mr. Bost. One, let me say to you very clearly, this is a 
major concern, and it is something that is very important to 
us. As I shared with Representative Osborne, there are several 
things that we are doing in the Department to hopefully start 
to address this issue.
    And it is real important to note also that we cannot do 
this alone, that it is going to require a great deal of 
cooperation between us, Health and Human Services, the 
Department of Education, teachers and administrators.
    But in terms of what we are doing, as I said before, we 
have Changing the Scene, which is a kit that we have given to 
schools that promotes a healthy school environment; also an Eat 
Smart and Play Hard campaign, which uses a Power Panther 
spokesperson, character, that helps deliver our communication 
and nutrition and physical activity messages to schools. As I 
said, we have a Five a Day memorandum of understanding with the 
Department of Health and Human Services. There is also 
information which is a leader's guide to afterschool nutrition 
education that we have distributed to schools.
    Last but not least, one of the things that I failed to 
mention when I answered this question for Representative 
Osborne and is also very important to us is things we are doing 
in our WIC clinics in terms of nutrition education and also 
promoting breast-feeding. The research indicates for those 
children--and they don't know why this is the case, but for 
those children that are breast-fed, they are not as likely to 
be obese when they become older. And so we are encouraging and 
promoting breast-feeding. And also there are many other very 
positive benefits in terms of helping to address many of the 
health considerations that young children have. And so there 
are many things that we are doing to address the obesity issue 
among children.
    Last but not least, as a part of child nutrition 
reauthorization, one of the proposals that we have included 
would--if schools would create a healthy school environment, 
which means that if they are going to have vending machines, 
that they would offer healthier alternatives in their vending 
machines, that there be a physical education or physical 
activity component, that they help children avoid risky 
behavior, if they could be classified as a healthy school 
environment, then we would look at increasing their 
reimbursement rate that we give them as a part of the National 
School Lunch Program. We are also trying to build some 
incentive-based programs to move schools in the direction of 
addressing this issue.
    And, one more time, it is also very important that we 
engage parents--especially when you talk about elementary 
schools--that we engage parents in these discussions and 
activities and actions that we take to help them provide some 
guidance to their children, because the research also indicates 
this fact that is also very important. I think when we were 
growing up, there was a much higher likelihood that this 
occurred when we were kids than it is now, but for those 
families that consistently sit down with their children, 
parents and children who eat together, they are more likely to 
eat appropriately and not be as overweight. And so families 
have a very important role to play.
    Mr. Payne. I know my time has expired. I just wanted to say 
that I believe that also breakfast--the information that really 
ties sometimes performance of a child with the school breakfast 
program. I would hope that we would almost kind of look at the 
universal availability of school breakfast programs in areas.
    Then there was also a question about vitamins. I heard that 
there was some concern about whether vitamins are helpful to 
young people. If, in fact, they have poor nutrition, it might 
be more helpful than if a child had good nutrition. That is 
another whole question that I would have asked if my time had 
not run out.
    With that, I guess I have to yield back the balance of my 
time.
    Chairman Boehner. Thank you, Mr. Payne.
    The Chair recognizes the gentleman from Ohio Mr. Tiberi.
    Mr. Tiberi. Thank you, Mr. Chairman. I apologize for being 
late.
    I want to kind of deviate my questions a little bit from 
the questions that I have heard since I have been here. 
Graduating from an urban public school and having relatives who 
administer food lunch programs in urban public schools, one of 
the things that is not a topic of what we are talking about but 
related is--I just want to get your thoughts on have you heard 
much from the trenches, so to speak, on a problem that occurs, 
at least in my school district, where oftentimes food is being 
taken but thrown away, and, kind of piggybacking on what my 
colleague said, then the student goes to the candy machine and 
gets three candy bars? Food being dumped essentially.
    Mr. Bost. Essentially you are talking about plate waste.
    Mr. Tiberi. Yes, and how we deal with that issue.
    Mr. Bost. I have not heard a great deal about that. What we 
usually have heard about is the child even not going through 
the line, but going straight to the candy machine. I haven't 
heard a great deal about that. If you have heard about it or 
you have--.
    Mr. Tiberi. Yes. I have a relative who just retired. She 
was so frustrated by it, extremely frustrated. The students 
that would throw away the better food would tend to not throw 
away the food--the desserts, the chocolate milk or the pop, and 
then compound it by going to the vending machine and flaunting 
the fact that they were getting potato chips or a candy bar.
    Mr. Bost. If there is something specific, I would be more 
than happy to sit down with you, but that is not one of the 
things we have heard, like I say, that I have heard, and we 
spend a great deal of time in schools. I go to high schools, 
elementary schools, middle schools around the country. That is 
not usually what I hear. What I usually hear is about the kid 
who doesn't even go through the line; or does go through the 
line, they get what they like, and then go on to a candy or 
vending machine. But I would be more than happy to sit down and 
talk with you about it.
    Mr. Tiberi. Mr. Yates, any thoughts?
    Mr. Yates. I served 13 years on a school board. My oldest 
son is a principal at a K-8 and his wife is a teacher in a 
grammar school. It was interesting when my 5-year-old grandson 
started kindergarten. He lives in California. I call home every 
night, I ask him, I say, what was the most exciting thing of 
your first day at school? He said, you know, Grandpa, I had the 
opportunity to choose what I could have for lunch. That was 
much more exciting than the studies.
    Mr. Tiberi. I thought he might say the recall election.
    Mr. Yates. Anyway, I think there are occasions where you 
see it happen. I experienced it during my 13 years of service 
on the school board. I don't really see that as something that 
is a huge problem. It happens occasionally.
    I think we have to be very aware of offering these school 
children items that are healthful, such as if you are going to 
have machines to offer drinks, make sure those drinks are 
nutritious and healthful and not something that just fills you 
up with sugar. So those are things we need to look at. I see 
that happening throughout the schools.
    Mr. Tiberi. Thank you.
    Thank you, Mr. Chairman.
    Chairman Boehner. Before I dismiss the panel, Mr. Yates, we 
were talking about beef before. I think you understand my 
concern that what we go through in the commodity distribution 
program to actually distribute beef to a school and the number 
of operations and steps in the process, I continue to scratch 
my head wondering why we go through all of this. Based on the 
recommendations from the Food 2000 group, it is my hope that 
the Department will continue to try to address these issues 
with beef and move to more commercial standards.
    Mr. Yates. Yes, we have moved to commercial standards as 
far as our microbial testing program is concerned. As I stated 
to you earlier, we want to make this a more seamless operation 
by being able to provide to the processor on an on-time basis 
with a product that he can immediately process into what the 
school wants. It is a fresh product. It hasn't been frozen. We 
are being able to provide a more economical commodity. He is 
able to put that into a final product that is very fresh and 
meets our specifications. Anything that you could recommend to 
us in a way that we could make this work better, we would be 
more than open to that, Mr. Chairman.
    Chairman Boehner. I want to thank both of you for coming 
and testifying. We appreciate your testimony. I am sure in the 
coming months we will have an opportunity to meet with you 
again. Thank you very much.
    Mr. Bost. Thank you, Mr. Chairman.
    Chairman Boehner. I would now like to seat our second 
panel.
    I want to welcome our second panel today. Let me begin by 
introducing each of them before we get into all of their 
testimony. Our first witness, Ms. Paula Cockwell, is the 
manager of nutrition services and warehouse operations for the 
Mapleton Public Schools and Adams County School District 14. 
She has worked in the school food service industry since 1985. 
She has been a director of child nutrition programs for 13 
years. She recently completed a 2-year term as the American 
School Food Service Association Public Policy and Legislative 
Chair and is the current Colorado School Food Service 
Association Public Policy and Legislative Chair. Welcome.
    Our second witness will be Mr. Thomas Stenzel, president 
and chief executive officer of the United Fresh Fruit and 
Vegetable Association. Prior to his current position, he served 
as president of the International Food Information Council and 
served 6 years on the U.S. Agricultural Policy Advisory 
Committee for Trade. We welcome you.
    Our third witness, Dr. Joanne Slavin, is professor of 
nutrition at the University of Minnesota at St. Paul where she 
teaches courses in human nutrition, life-cycle nutrition, diet 
and disease. She is a member of the American Dietetic 
Association, American Society for Nutritional Sciences, 
American Association for Cancer Research, and serves as food 
science communicator for the Institute of Food Technologists. 
We welcome you.
    Our fourth witness, Mr. Robinson Joslin, currently serves 
as president of the Ohio Soybean Association as well as being a 
member of the Ohio Farm Bureau, Corn Growers Association, Ohio 
Wheat Growers and the Ohio Pork Producers Association. He grows 
approximately 850 acres of corn, soybeans and wheat, producing 
commodity grain and identity-preserved soybeans and used to be 
one of my constituents. Used to be.
    Our fifth witness in this group is Dr. Robert Heaney. He 
holds the John A. Creighton All-University Professorship at 
Creighton University in Omaha, Nebraska, where he works in the 
department of medicine. He is an internationally known expert 
in bone biology and has worked for more than 45 years studying 
osteoporosis and the health effects of dietary calcium. I want 
to welcome you.
    As you all know, you have 5 minutes, thereabout. We are 
pretty lenient around here, but 5 minutes or so. Then we will 
ask questions after all five of you have testified.
    With that, Ms. Cockwell, you may begin.

  STATEMENT OF PAULA COCKWELL, MANAGER OF NUTRITION SERVICES, 
   ADAMS COUNTY SCHOOL DISTRICT #14, FOOD SERVICE DIRECTOR, 
       MAPLETON PUBLIC SCHOOL DISTRICT, DENVER, COLORADO

    Ms. Cockwell. Mr. Chairman, allow me to express our 
appreciation to you and the Committee for holding this hearing. 
The commodity distribution program is a very key part of our 
school meal programs. Schools across the country depend on the 
commodity foods purchased by USDA to help provide nutritious 
meals to more than 28 million children every day.
    Commodity distribution to States constitutes about 20 
percent of the food used for the school lunch programs. My 
programs generate $3.7 million in revenue each year. I spend 
more than $1.25 million on food purchases. Without Federal 
commodities, it would be nearly impossible for me to maintain a 
financially self-supporting program and still provide meals 
that meet our high nutrition and quality standards.
    In the late 1980's, USDA convened a blue ribbon panel to 
evaluate the quality and nutrition of foods in the commodity 
program, resulting in improved product specifications and 
nutritional content. More recent changes have reduced the 
allowable fat levels in meat and other center-of-the-plate 
items.
    In 1999, USDA undertook a reengineering effort to identify 
ways to further improve the commodity distribution program to 
meet the needs of key constituents, the producers and the 
consumers. I had the honor to serve as the leader for the 
Commodity Order Reengineering Team. The team's goal was to 
evaluate the system then in place and suggest alternative 
approaches. I am pleased to highlight the recommendations from 
our work group that have been incorporated into the Federal 
commodity program.
    More commodities now parallel comparable products in the 
commercial sector. Evaluation showed that the additional costs 
for manufacturers of maintaining separate production lines and 
inventories inevitably passed through to the school district 
customer. Reducing or eliminating these costs increases the 
amount of agricultural products purchased by USDA and 
distributed to schools. Additionally, USDA greatly expanded the 
ability of further processors to substitute commercial product 
for commodity product as long as they are truly equivalent. 
USDA is also moving toward best value purchasing, which 
considers price, reliability of the supplier, quality and the 
acceptability of products to the consumers. I ask the Committee 
to encourage the Department to continue to move toward this 
model.
    Additional team recommendations are still under 
consideration by the Department; for example, the development 
of a commercial specification for boneless beef with complete 
seamless commodity processing. Also, further processed foods 
are increasingly important to the majority of school food 
service programs. As schools struggle to find qualified labor 
and keep costs down, processed products provide product 
consistency and maximize staff efficiencies.
    Fully cooked end products also provide an added food safety 
measure for schools. However, currently each State must enter 
into an agreement with a processor, and processors interested 
in doing business with multiple States must have an agreement 
in each State. The team advised the use of national processing 
contracts to facilitate processing availability to all schools. 
USDA is testing this concept as a means to streamline the 
program and reduce paperwork, and the Department should be 
encouraged to continue with this effort.
    USDA offers a wide variety of products to States; however, 
States make the decision on the products that they offer to 
local districts, sometimes limiting local choice. The team 
heard from school districts that had been told that certain 
products were unavailable, when, in fact, they were on the USDA 
offer lists. For example, sometimes small States cannot 
generate sufficient volume to meet the shipping minimums 
imposed by USDA. As first steps to address this issue, the 
Department has reduced minimum order levels and encouraged 
cooperative buying among the States. They are also developing 
an electronic ordering system which we hope will facilitate all 
schools having access to the full array of products that the 
Department offers.
    An area of great interest to all of us is the availability 
of high-quality fresh produce. I have the good fortune to be in 
one of the eight States that were part of a pilot partnership 
with the Department of Defense for the distribution of fresh 
produce with a small portion of their entitlement commodity 
allocation. Augmenting the Federal pilot program, our State was 
able to negotiate with DOD so that school districts may 
purchase all of their fresh produce under the contract, paying 
for that portion that is not available under the commodity 
program with other Federal meal reimbursement.
    The DOD program is a huge success. It ensures high quality 
and prices that reflect Federal economies of scale. I encourage 
this Committee to expand this program by both increasing the 
amount of commodity dollars available from the current 
entitlement level from $50 million to $100 million and by 
facilitating what Colorado has been able to do in allowing us 
to buy through DOD beyond our commodity entitlement.
    There are two additional areas where we believe this 
Committee can have a positive effect on the Nation's farmers 
and children. First, appropriate 5 cents in commodities for 
school breakfasts. Schools currently receive commodity 
reimbursement only for lunches. Five cents in breakfast 
commodities will help schools increase the variety and 
nutritional quality of school breakfasts and at the same time 
help our growers.
    The second area of concern is the way bonus commodities are 
accounted for in the school meal funding formula. As you know, 
a change imposed on the School Lunch Act in 1998 cut $50 
million in commodity assistance for school meals by counting 
bonus commodities, those purchased from market support, as part 
of a school's entitlement commodities. For the past 4 years, in 
a series of legislative actions, Congress has provided funding 
for these bonus commodities and, more importantly, maintained 
the level of entitlement commodities. I encourage the Committee 
to continue these precedents by restoring the entitlement 
commodities at least for fiscal year 2004 through the 
continuing resolution extending the child nutrition programs or 
through the agricultural appropriations bill.
    Mr. Chairman, Members of the Committee, again I thank you 
for this opportunity and look forward to our continued work 
together for the good of America's children.
    Chairman Boehner. [Presiding.] Ms. Cockwell, thank you for 
your testimony.
    [The prepared statement of Ms. Cockwell follows:]

   Statement of Paula Cockwell, Manager of Nutrition Services, Adams 
   County School District 14 , Commerce City, Colorado, and Mapleton 
Public Schools, Denver, Colorado on behalf of the American School Food 
                          Service Association

    Mr. Chairman, members of the Committee, I am Paula Cockwell, 
Manager of Nutrition Services for Adams County School District 14 in 
Commerce City, Colorado, and Mapleton Public Schools in Denver, 
Colorado. Additionally, I am the immediate past chair of the Public 
Policy and Legislation Committee of the American School Food Service 
Association.
    Mr. Chairman, allow me to express our appreciation to you and the 
Committee for holding this hearing. The commodity distribution program 
is a key part of our school meal programs. Schools across the country 
depend on the commodity foods purchased by USDA to help provide 
nutritious meals to more than 28 million children every day.
    As you know, Section 2 of the Richard B. Russell National School 
Lunch Act makes it clear that one of the goals of the program is, ``to 
encourage the domestic consumption of nutritious agricultural 
commodities.'' The important marriage between agriculture and child 
nutrition has stood the test of time and is still valid today.
    The food distribution program makes enormous contributions to our 
school lunch program. Commodities constitute approximately 20% of food 
used by schools for the meal programs. My two school districts generate 
$3.7 million in revenue each year. I spend more than $1.25 million on 
food purchases. Without federal commodities, it would be nearly 
impossible for me to maintain a financially self-supporting program and 
still provide meals that meet our high nutrition and quality standards.
    In the late 1980s USDA convened a blue ribbon panel to evaluate the 
quality and nutrition of foods in the commodity program. The Department 
implemented many of the panel's recommendations. Product specifications 
have improved and the foods offered under the program are consistent 
with our national nutrition and health goals. More recent changes have 
reduced the allowable fat levels in meat and other center-of-the-plate 
products further facilitating schools'' ability to meet federal 
guidelines for nutritious meals in schools.
    In 1999, USDA undertook a re-engineering effort to identify ways to 
further improve the commodity distribution program to meet the needs of 
its key constituents--producers and consumers. I had the honor to serve 
as leader for the CORE (Commodity Order Re-Engineering) Team, the group 
that looked into the food distribution program for schools. Our team 
included representatives from schools, state commodity distribution 
agencies, and USDA staff from the regional offices and three USDA 
agencies with responsibility for the commodity program. We also 
received significant input from our agriculture industry partners. The 
team's goal was to evaluate the system then in place and consider 
alternative approaches regardless of how radical or far-reaching those 
proposals might be.
    I am pleased to report that many of the recommendations that our 
work group made have been incorporated into the federal commodity 
program. We felt that commodities should, to the extent possible, 
parallel comparable products in the commercial sector. The additional 
costs of maintaining separate production lines and inventories 
inevitably passes through to the consumer. Reducing or eliminating 
these non-value-added costs increases the amount of agricultural 
products purchased by USDA and distributed to schools. Additionally, 
USDA greatly expanded the ability of further processors to substitute 
commercial product for commodity product, as long as they are truly 
equivalent products. Also as a result of the re-engineering process, 
USDA is moving towards ``best-value'' purchasing that considers not 
just price, but those factors like the reliability of the supplier and 
the quality and acceptability of products to consumers. I ask the 
Committee to encourage the Department to move toward this for a broad 
range of products.
    Some recommendations of the task force are still being considered 
and support by the Committee for them would be greatly appreciated. For 
example, further processed foods are increasingly important to many 
school foodservice programs. As schools struggle to find qualified 
labor and keep costs down, processing relieves the need for some 
cooking staff. Further processed items provide a consistent product. 
And, finally, with our concern for food safety, fully cooked end-
products are an added safety measure for schools. The current system 
provides uneven access to these food items. Each state must enter into 
its own agreement with a processor, and processors interested in doing 
business in multiple states must have a separate contract for each. The 
CORE team felt national processing contracts would facilitate 
processing for all schools. USDA is testing the concept of a national 
processing contract as a means to streamline the program and reduce 
paperwork, and the Department should be encouraged to continue this 
effort.
    Along a similar vein, states sometimes limit the products offered 
by USDA that will be available to schools within that state. During our 
team process, we heard from school districts that had been told that 
certain products were not available to them when they were, in fact, on 
the offer lists USDA sent out. For example, a school in a small 
northwestern state wanted low-fat ground turkey. The state did not 
order any. The reason was that as a small state, they could not 
generate sufficient volume to meet the shipping minimums imposed by 
USDA. The Department has addressed this in several ways. They have 
reduced minimum order levels and encouraged cooperative buying among 
the states. Also, I am encouraged by the progress the Department has 
made in developing an electronic commodity ordering system (ECOS) and 
hope that this will facilitate all schools having access to the full 
array of products the Department buys.
    An area of great interest to us all is the availability of high 
quality fresh produce. I have the good fortune to be in one of the 
eight states that were part of a pilot partnership with the Department 
of Defense for the distribution of fresh produce with a small portion 
of their entitlement commodity allocation. Augmenting the federal pilot 
program, our state was able to negotiate with DOD so that school 
districts that choose to do so, may purchase all of their fresh produce 
under the contract, paying for that portion that is not available under 
the commodity program with other federal meal reimbursements. The DOD 
program is an enormous success. It ensures high quality and prices that 
reflect federal economies of scale. I encourage the Committee to expand 
this program by both increasing the amount of commodity dollars 
available from the current entitlement level from $50 million to $100 
million, and by facilitating what Colorado has been able to do in 
allowing us to buy through DOD beyond our commodity entitlement.
    Finally, I would like to talk about the commodity reimbursement. 
There are two areas where I believe this Committee can have a positive 
effect for our farmers and our children. Schools currently receive 
commodity reimbursement for every school lunch served. We believe this 
needs to be extended to school breakfasts as well. Five cents in 
breakfast commodities will help schools improve the nutrition quality 
of school breakfast at the same time it helps our growers.
    The other area of concern is the issue of bonus commodities and how 
they are accounted for in the school meal funding formula. As you know, 
a change imposed on the school lunch act in 1998 cut $50 million in 
commodity assistance for school meals by counting bonus commodities, 
those purchased for market support, as part of a school's entitlement 
commodities. For the past four years, Congress has provided funding for 
these bonus commodities and, more importantly, maintaining the level of 
entitlement commodities in a series of legislative actions. I encourage 
the Committee to continue this by restoring the entitlement 
commodities, at least for fiscal year 2004, through the continuing 
resolution extending the child nutrition programs, or through the 
agricultural appropriations bill.
    Mr. Chairman, members of the Committee, again I thank you for this 
opportunity and look forward to our continued work together for the 
good of America's children. I would be happy to answer any questions 
you may have.
                                 ______
                                 
    Chairman Boehner. Mr. Stenzel, you may begin.

STATEMENT OF THOMAS M. STENZEL, PRESIDENT AND CEO, UNITED FRESH 
                FRUIT AND VEGETABLE ASSOCIATION

    Mr. Stenzel. Thank you, Mr. Chairman, members of the 
Committee. Since my written testimony offers plenty of detail 
for the record, let me focus here on just one key question: Do 
our Federal child nutrition programs adequately address today's 
crisis in childhood nutrition and obesity?
    There is no doubt that our Federal nutrition programs have 
made a huge difference in feeding millions of American 
children. School breakfast and lunch are a valiant attempt to 
do good, but on any nutritional health scale today, our 
Nation's children are not getting healthier, but are instead on 
the front edge of an epidemic of obesity, diabetes and a whole 
array of chronic diseases. They are not making the right 
choices among foods, and they are not getting enough exercise. 
Schools are not the only solution to this crisis, but they have 
to be the cornerstone of teaching different behavior to the 
next generation.
    Today there is an amazing consensus among U.S. and world 
health authorities for the simple health message that people 
need to eat five to nine servings of fruits and vegetables 
every day for good health. That advice literally leaps out to 
Americans from the Federal dietary guidelines, from the Healthy 
People 2010 goals and numerous other health recommendations. 
But despite that consensus, our Nation is a poster child for 
long-term self-destruction.
    USDA's Economic Research Service reports that children age 
6 to 19 average only one-half the recommended levels of fruit 
and vegetable consumption, and as Mr. Osborne pointed out 
earlier, 45 percent of children eat no fruit on a given day at 
all, and 20 percent eat less than one serving of vegetables. 
While we can demand that school meals meet nutrition standards 
on the plate, we can't force-feed the children. They make 
different food choices every day not just from the school 
vending machines and the a la carte items, but from the 
convenience stores and supermarkets and restaurants in the 
community. We are not going to insulate them from those 
choices. But giving students healthy meals that don't meet the 
quality and taste tests of that other competition dooms these 
programs to wishful thinking and actually in our case puts kids 
off of fruit and vegetable consumption instead of encouraging 
promotion.
    My suggestion today is simple: Look at what works. If we 
see something that works, honor it, promote it, fund it and 
expand it. So I am going to ask the Committee to look long and 
hard at the fruit and vegetable pilot program that we have 
already talked about extensively. This small program, $6 
million in only 107 schools in 4 States and the Zuni Indian 
reservation, is rocking the nutrition world.
    I have to speak plainly. After spending hundreds of 
millions of dollars on elaborate nutrition education programs 
over the years, we finally found one simple way to get kids to 
seriously increase their fruit and vegetable consumption: Give 
them a good quality fresh fruit or vegetable snack in the 
school. It is that simple. Total cost: 25 cents per student per 
day, less than the cost of most of those brochures we pass out. 
It is a simple concept, but let me thank USDA and the Food and 
Nutrition Service. They did a fantastic job implementing that 
pilot so well and so quickly. And also the partnership of the 
National Cancer Institute's Five a Day Program has been key to 
its success.
    If any members of the Committee have not yet studied the 
ERS report to Congress about this program, I urge you to do so. 
In a nutshell, it is simple. USDA gives grants to schools that 
then purchase and distribute fresh fruits and vegetables as a 
snack to students in their schools. The schools can choose what 
fruits and vegetables the kids like to eat, what time of day to 
deliver the snack and how they choose to deliver them to the 
students. In the pilot most of the elementary schools delivered 
a tray of fruit or cut vegetables to each classroom where 
teachers often use them in their lessons. Many of the high 
schools set up kiosks in the hall to provide easy snack choices 
for fast-paced kids while they are changing classes.
    Could a simple program like this really make that big a 
difference? Look at the results. First, kids actually liked the 
choices, and they ate the fresh produce with no waste. The ERS 
reports what kids were eating: fresh carrots, celery, broccoli, 
cauliflower, cucumbers, tomatoes and peppers; the most popular 
fruits, fresh apples, bananas, oranges, pears, grapes, melon, 
pineapple, kiwi and strawberries. In this small pilot, most 
kids' consumption increased by at least a whole serving a day. 
That beats any long-term nutrition education program in 
actually changing behavior that I am aware of.
    Compare that result with the types of fruits and vegetables 
that USDA is buying in its commodity purchasing programs today: 
dried trail mix, canned peaches, frozen strawberries and the 
like. There is nothing wrong with those products, but they are 
just not competitive in the real world of our children's food 
choices today. How many of you go to the grocery store to shop 
for your kids and choose frozen strawberries in a little tin or 
canned peaches? We just don't do it.
    Let me quote again from this ERS report about what the 
schools were feeding the kids in this pilot program. Less than 
half of the schools served dried fruit of any kind. According 
to observers, dried fruit seemed to be less popular with 
children than fresh fruits and vegetables. Yet just a few days 
ago on September 30, the last day of the fiscal year, USDA 
proudly reported a purchase of $42.2 million of dried fruits 
and tree nuts for the child nutrition programs. $42.2 million. 
And we can't find the money to expand the simple pilot program 
that is only funded at $6 million right now? Something is 
terribly wrong.
    Yet I think the answer may be simple. In the 2002 farm 
bill, the Congress enacted a requirement that USDA purchase a 
minimum of $200 million of fruits and vegetables for school 
lunch and other programs. That is required. They have to 
purchase a minimum of $200 million. USDA could designate a 
portion of those funds that are already committed by law to 
expanding this fresh fruit and vegetable pilot program. For 
less than the amount that USDA spent on dried fruit and nuts 
last year, USDA could expand the pilot program to 25 schools in 
all 50 States. That is only 1,250 schools out of many 
thousands, 98,000 schools. But we need to extend this pilot to 
see if it works as well as it has thus far.
    Let me conclude, Mr. Chairman, by reading you a letter. I 
have here for the Committee today over 100 letters and e-mails 
and comments from teachers and PTA leaders, parents and school 
food service officials who can firsthand testify to the value 
of this product. Dear Chairman Boehner, my name is Kathleen 
Green, and I'm the principal of an elementary school here in 
Iowa. We were blessed to have been the site for a fruit and 
vegetable pilot program this year. I cannot begin to tell you 
how much this has added to our neighborhood children. Our 
poverty rate is 64 percent, and most of the children here eat 
free or reduced lunch. We have noticed a decrease in the amount 
of food that is thrown away during our lunches. The children 
have experienced fruit and veggies that have previously never 
been encountered. They have learned that fruits and vegetables 
are a desirable snack instead of packaged, non-nutritious, 
overprocessed carbohydrates. The students have reported that 
when they have been in the grocery store, they show their 
parents what they have been eating at school and ask them to 
buy it. It has actually been a family learning experience. Many 
of our families think that a snack must be something with flour 
and sugar, and their children are actually teaching them a more 
healthful way. Thank you for this wonderful pilot program. 
Please, please, give us the chance to depend on this program. 
Money spent on early childhood nutrition is gold.
    Thank you very much.
    Chairman Boehner. Thank you, Mr. Stenzel.
    [The prepared statement of Mr. Stenzel follows:]

Statement of Thomas E. Stenzel, President and CEO, United Fresh Fruit & 
                         Vegetable Association

Introductions
    Good morning Mr. Chairman and Members of the Committee. My name is 
Tom Stenzel. I am President and CEO of United Fresh Fruit and Vegetable 
Association, the industry's national trade organization representing 
growers, packers, processors, marketers and distributors of all 
varieties of fresh fruits and vegetables, working together with our 
retail and foodservice customers, and our suppliers. I appreciate the 
opportunity to testify before the Committee on behalf of the U.S. fruit 
and vegetable industry regarding the future direction of federal child 
nutrition policy.
    Across the life span, proper nutrition is critical in promoting 
health, preventing disease, and improving quality of life. Over a 
decade of research has revealed the health benefits of increased fruit 
and vegetable consumption in reducing the risk of cancer and numerous 
other serious illnesses including heart disease, stroke, and diabetes. 
According to federal government statistics, better nutrition could 
reduce the cost associated these diet-related diseases by a minimum of 
$71 billion each year, enough to fully fund the entire USDA. Therefore 
federal nutrition policy and assistance programs should support 
incentives and key strategies that help Americans reach national health 
goals.
    With obesity reaching epidemic proportions in the United States, 
greater attention must be focused on increasing produce consumption as 
a public health solution. The fruit and vegetable industry has the good 
fortune to offer consumers a healthy and nutritious product that is 
increasingly recognized as critical to the prevention of chronic 
diseases and maintaining overall good health. Therefore, increasing 
federal support and funding to promote fruit and vegetable consumption 
for chronic disease prevention and to reduce obesity should be a top 
priority for the nation.
    Over the past several years, the fruit and vegetable industry has 
become aware of the importance of nutrition policy and involved in 
child nutrition policy. Previously, our industry had little involvement 
with child nutrition reauthorization efforts, leaving this process 
mostly to those who had a more historical association with these 
important programs. Frankly, we have been surprised with what we've 
learned. Despite the best efforts of many on this Committee and in the 
Congress, the nutritional health of our nation's children has in far 
too many cases been secondary to other considerations.
    <bullet>  When states don't have adequate refrigeration or 
distribution systems, we still feed kids from 10 pound cans of soggy 
beans, instead of offering fresh vegetables they might like.
    <bullet>  We ask school officials to offer healthy meals, but low 
reimbursement rates encourage them to sell unhealthy competitive foods 
to break even on the business.
    <bullet>  Our supplemental benefits program to pass on surplus 
commodities from American agriculture is a free-for-all among commodity 
groups to fight for sales, leaving kids high-fat, and poor quality 
products that often wouldn't move through mainstream supermarkets.
    <bullet>  When the Congress for the past two years has asked USDA 
to add fruits and vegetables to the WIC program, we find out that WIC 
is more of an entitlement program for entrenched commodities, than for 
citizens who need a healthier WIC package.
    It is clear that with obesity, diabetes and other nutrition-related 
chronic diseases at epidemic proportions in the United States, 
something has to change. Mr. Chairman, we submit that child nutrition 
programs must put public health first, and guarantee that school 
lunches, breakfasts, after-school snacks, and WIC become part of the 
solution rather than part of the problem. Congress must develop 
legislation that makes healthy meals, a healthy school food 
environment, and a healthy start for WIC recipients our nation's top 
priority in child nutrition programs.
    So, how can we do that? As you review all the testimony before the 
committee--from the school foodservice association, the anti-hunger 
cause, the consumer groups, and more--you'll find that the one common 
goal of every group is increasing the availability of fresh fruits and 
vegetables in child nutrition programs. It doesn't matter whether we're 
talking about school lunch or WIC, the Committee should keep one 
overriding principle in mind as you write this bill: What are we doing 
to increase fresh fruits and vegetables in child nutrition program?
    Core Objectives for Child Nutrition Reauthorization
    Increasing federal support and funding to create greater awareness 
of the benefits provided by fruit and vegetable consumption with 
respect to disease prevention and intervention efforts is a top 
priority of the produce industry. Ultimately, we believe the goal of 
any nutrition policy developed by Congress, the Administration, and 
interest groups should ensure federal child nutrition feeding programs 
support and encourage the health and well being of all Americans. 
Simply stated, the produce industry's supports the overall nutrition 
policy goal:
        Federal nutrition policy should be developed which ensures the 
        increase of produce consumption by focusing efforts to reshape 
        national nutrition policy to anchor fruits and vegetable at the 
        ``center of the plate.'' In turn, the federal government should 
        elevate its financial investment into nutrition program 
        priorities to better address the significant role fruit and 
        vegetables play in health promotion and disease prevention for 
        all Americans. Ultimately, the goal of federal nutrition policy 
        should be to extend, expand and enhance policies that recognize 
        and would directly encourage fruit and vegetable as critical to 
        promoting health and preventing an array of chronic diseases.
    Within an overall commitment to increasing fresh fruits and 
vegetables in these programs, let me highlight several core priorities 
for you this afternoon.
    <bullet>  We support the recommendation of the American School 
Foodservice Association to increase reimbursement rates with the 
concept of a 10-cent per meal ``healthy children supplement'' to be 
devoted to improving the quality and healthfulness of school meals. 
Without greater funds, schools will continue to be forced to buy the 
lowest quality, cheapest, and least fresh product available.
    <bullet>  We support increased school breakfast programs, including 
expansion of the program to all children at no cost, and increased 
provision of commodities under the breakfast program.
    <bullet>  We support a new ``Healthy Foods for Healthy Kids 
Initiative,'' to provide $10 million annual for grants to states and 
school districts for innovative projects such as salad/garden bars, 
healthy vending programs, cold storage and other creative ways to 
increase fresh produce.
    <bullet>  We support expansion of the DOD fresh program from $50 
million annually to $100 million annually. This critical program is 
oversubscribed each year as it is the most practical way schools can 
receive frequent small deliveries of fresh produce under USDA programs.
    <bullet>  We support making USDA commodity purchases for schools 
conform to the U.S. Dietary Guidelines for Americans. It makes no sense 
to take high-fat or excess commodities and give those to schools. Let's 
make sure to provide commodities in the proportion called for in the 
Dietary Guidelines.
    <bullet>  We support a major research and education agenda at USDA 
to reflect its new commitment to the National 5 A Day Partnership. This 
program traditionally led by the National Cancer Institute has been 
expanded to multiple branches of government and public private 
partners. We commend Under Secretary Bost and Secretary Veneman for 
signing a Memorandum of Understanding with HHS supporting the 5 A Day 
Program, and now we need to see this successful program grow. 
Specifically, we support the USDA appoint 5 A Day coordinators in each 
state to work with state and local partners, as well as designated a 
permanent 5 A Day office within USDA to provide national leadership.
    <bullet>  Finally, on WIC, we strongly support the science-based 
revision of the WIC packages to increase fruits and vegetables offered 
to recipients. On April 24, 2000, USDA published, in the Unified Agenda 
section of the Federal Register, a notice about a rule FNS was 
developing to revise the WIC food packages to add nutrient-dense leafy 
and other dark green and orange vegetables to food packages for women 
and children. The time line contained in that notice indicated that a 
proposed rule would be published in September 2000. You know the rest--
even after several years of direction from Congress to publish the 
revised WIC package proposal, USDA has failed to do so. While USDA now 
seeks to have yet another study of the WIC program, the Congress should 
direct USDA to publish a proposed final rule within 120 days of this 
legislation's enactment so that further delay is not allowed.
    Mr. Chairman, this is not an exhaustive list, but gives you a sense 
of the clarity and specificity of the recommendations contained in our 
document titled A Fresh Start to Better Nutritional Choices--2003 Child 
Federal Policy Recommendations for Child Nutrition Programs which is 
attached to my prepared statement. This document includes 31 specific 
legislative recommendations covering seven key issue areas in child 
nutrition. I ask you to examine all of these areas for cost-effective 
and successful strategies for increasing fresh fruits and vegetables 
throughout child nutrition programs.
Expansion of the Fresh Fruit and Vegetable Pilot Program
    The single most important program I want to talk with you about 
today is USDA's fresh fruit and vegetable pilot program launched in the 
2002 Farm Bill. On behalf of the 107 schools in the pilot program, I 
bring you unqualified and enthusiastic support from teachers, parents, 
school foodservice officials, principals, school nurses,--and yes, even 
the kids--for continuing and expanding the fresh fruit and vegetable 
pilot program.
    In the 2002 Farm Bill, Congress authorized a $6 million Fruit and 
Vegetable Pilot program in fiscal year 03 to provide free fruit and 
vegetable snacks to students in 25 schools each in Michigan, Ohio, 
Indiana and Iowa, and seven schools in the Zuni Nation in New Mexico. 
In record time, USDA organized a basic pilot program and sent an 
announcement to the states, wondering whether many schools would 
volunteer to participate. With over 800 schools coming forward, USDA 
was hard pressed to select just 107 schools to participate in the 
program. Because of the efforts of Chairman Boehner and this committee, 
the program has been extended for the current schools through the 
fiscal year 04 school year.
    Beginning in October 2002, the pilot program has produced an 
unprecedented success story changing the lives of children and the 
healthy food environment of every school participating. On March 25-26, 
2003, USDA and the National Cancer Institute, supporter of the National 
5 A Day Program, co-hosted a conference in Indianapolis of teachers, 
food service personnel, principals, school nurses, parent-teacher 
organizations, education administrators and more to report preliminary 
results of the program. The reports, from participants in the 
conference are overwhelming.
        ``In my 32 years of teaching, I've never seen a program make 
        such a tremendous difference in the lives of our kids.'' 
        Teacher
        ``If we don't have the fruit and vegetable snack program next 
        fall, I'm not coming to school the first week because the kids 
        would kill me.'' Foodservice Director
        ``Visits to our nursing office are down, and the kids are 
        missing less school due to sickness.'' School Nurse
        ``Kids are trying new fruits and vegetables and then asking 
        their parents to buy them at home.'' Teacher
        ``We didn't expect it, but kids are actually eating more fruits 
        and vegetables from the regular school lunch, and our overall 
        sales are up.'' Foodservice Director
    U.S. Department of Agriculture's Economic Research Service (ERS) 
has further backed up the positive result of this program. In May they 
released a report to Congress citing that participating schools thought 
the USDA Fruit and Vegetable Pilot Program was successful and feel 
strongly that the pilot should be continued. As you are aware, the ERS 
was directed by Congress to develop a report this year to evaluate the 
pilot program. ERS based their analyses on site visits to schools, 
administrative records, interviews, focus groups, and other people 
directly involved in the administration of the pilot program. In the 
report, schools believed that the pilot program lessened the risk of 
obesity, encouraged children to eat healthier foods, increased 
children's awareness of a variety of fruits and vegetables, and helped 
children who would otherwise go hungry eat more food. The report cited 
that 99% of the schools thought the program was successful and all but 
two schools reported little to no food waste. Finally, USDA's Under 
Secretary for Food, Nutrition, and Consumer Services Eric Bost has 
testified that the Administration would like to extend and 
significantly expand this important program as part of the Senate Child 
nutrition hearings held earlier this year. We want to salute the 
Administration for their great work of getting the pilot program 
started and implemented as well as their strong support for expanding 
this important program to more states.
    After decades of working to teach school kids to make healthy food 
choices, we've finally learned the secret to increasing their 
consumption--put appealing, good-tasting, fresh fruits and veggies in 
front of them and they'll love you for it. All this just because the 
government spent a modest amount to give them a healthy fruit and 
vegetable snack at school. More importantly, that single lesson may 
help launch the most effective program in truly transforming the school 
food environment and increasing actual consumption of fruits and 
vegetables to meet U.S. Dietary Guidelines. With the rapidly growing 
obesity epidemic, we need to commit to providing students with healthy 
options, nutrition education, and programs that work to make a 
difference in the eating patterns of school children and to encourage 
healthy eating habits that last a lifetime. The fruit and vegetable 
pilot program must be expanded to reach school children in all 50 
states. When we're lucky enough to find a simple program that works, 
let's not keep reinventing the wheel but simply go forward aggressively 
to make this available across the country.
USDA Procurement and Distribution Systems
    We also greatly appreciate the Committee's interest in USDA's 
procurement and distribution system and the opportunity to discuss this 
system with you. The USDA Agricultural Marketing Service (AMS) has 
purchased and distributed U.S. produced products since 1935. Purchases 
are authorized under Section 32 for the Agricultural Act of 1935. This 
Act was designed to bolster declining agricultural commodity prices 
during the Depression and to help feed the growing number of hungry 
Americans. Through Section 32 of the Act, permanent appropriation was 
authorized that provides, in part, funds to the Secretary of 
Agriculture on an annual basis for surplus removal and price support 
for commodity markets. Section 32 funds are allocated each year to AMS 
procurement staff to purchase poultry and egg products, meat, fish, and 
fresh and processed fruits and vegetables. Besides Section 32 
purchases, AMS also purchases products on behalf of FNS for other 
Federal food assistance programs. Recipients include the elderly, 
Indian reservations, needy families, and the homeless.
    AMS purchases must satisfy three goals--support markets, provide 
commodities that meet entitlement needs and be 100% domestic grown and 
processed. The major outlet for commodities purchased is the National 
School Lunch Program. Besides the entitlement funds which are allocated 
to AMS each fiscal year to meet school lunch commodity needs, Section 
32 funds are also held in reserve by the Secretary for emergency 
surplus removal needs and disaster feeding programs. The reserve is 
called Section 32 contingency funds and can be replenished each fiscal 
year up to $500 million. The contingency funds are available for market 
stability programs when Section 32 entitlement funds are not available 
or when entitlement funding is insufficient to meet market needs. AMS 
may also purchase commodities for school lunch entitlement with funds 
authorized under Section 6 of the National School Lunch Act. This Act 
provides for the purchase of commodities without regard for surplus 
removal needs. USDA commodity procurement purchased about $617 million 
worth of fruits and vegetables in fiscal year 2001. Of this amount less 
than 5% ($32 million) of those purchases were for fresh fruits and 
vegetables. The bulk of this funding went to dried, canned, and frozen 
fruits and vegetable purchases.
    One must now ask so what's the big deal if it is canned, frozen, 
fresh, or dried? Unfortunately, when states don't have adequate 
infrastructures for their schools to adequately refrigerate, 
distribute, or prepare fresh produce, we are inclined to continue to 
feed kids from bulk cans of soggy vegetables or frozen fruit, instead 
of offering fresh produce they might like. As we have seen with the 
pilot program is does make a difference and can have an impact on 
children eating fruits and vegetables. In fact ERS's own report on the 
pilot stated that children preferred fresh fruits and vegetables over 
the dried trail mix and fruit. Therefore USDA's current procurement and 
distribution system is woefully inadequate to handle fresh produce for 
the federal child nutrition programs.
    USDA has stated many times having a difficult time buying fresh 
produce in part because of the distribution system at the department is 
adequate to handle highly perishable products. It is our belief that 
due to lack of infrastructure investment in schools by the federal 
government, the ability to provide fresh fruits and vegetables for 
school feeding programs continues to be inadequate. In addition, 
logistical transportation issues continue to impede the delivery and 
availability of fresh fruits and vegetables in school feeding programs. 
This must infrastructure hurdle must be changed and the Committee has 
an opportunity to take action ot make a change now.
    One program that has worked is the ``DOD Fresh Program.'' The 2002 
Farm includes language which allows for additional purchases under 
Section 32. This program provides $50 million in funding each year for 
the purchase of fresh fruits and vegetables for the schools, pursuant 
to existing authority under the School Lunch Act. Through a 1995 
memorandum of agreement between the AMS, FNS, and the Defense Personnel 
Support Center (DPSC), the Department of Defense serves as the 
servicing agency for the procurement of these fresh fruits and 
vegetables through the ``DOD Fresh'' program.
    Through this unique partnership between USDA and the Department of 
Defense, the utilization of fresh fruits and vegetables in schools is 
increasing. DOD/DPSC has provided a mechanism for delivering smaller 
quantities, less than a truckload, of fresh fruits and vegetables to 
schools and Indian reservations. DOD's distribution system is able to 
make more frequent deliveries of a greater variety of fresh fruits and 
vegetables in smaller delivery windows. The DOD program has been 
successful because the fruits and vegetables arrive in good condition 
and in smaller quantities that can be used while they are still fresh 
and in time for the planned school menus. DOD delivers fresh fruits and 
vegetables to 39 States, Indian Reservations, Guam and Puerto Rico in 
support of the National School Lunch Program and the Food Distribution 
Program on Indian Reservations. About 200 produce items of domestic 
origin are available for schools through the program. Most of these 
foods are available nationwide, but many are only regionally available.
    While the DOD program has been extremely successful, one must ask 
why the Department of Agriculture cannot find the ability to address 
procurement and distribution problems for fresh produce. There answer 
for the last 8 years has been to just contract with the Department of 
Defense to handle this situation. We believe that this must change and 
USDA must take responsibility for targeting adequate resources to 
address their infrastructure needs for fresh produce.
Congressional Action to Enhance Fruits and Vegetables in Child 
        Nutrition Programs
    There is no more important issue facing our country than investing 
in our children to fight today's alarming obesity and health crises. We 
are pleased that Congress is now recognizing the importance of 
significantly increasing the availability of fresh fruits and 
vegetables in federal nutrition programs and give children's nutrition 
the priority it deserves with the introduction of several important 
legislative bills in the U.S. House of Representatives.
    H.R. 2592, The Healthy America Act, introduced in June by 
Congressman Adam Putnam (R-FL) and Congressman Dennis Cardoza (D-CA), 
is designed to significantly increase the availability of fresh fruits 
and vegetables in nutrition programs supported by the federal 
government. The Healthy America Act includes a number of priorities 
submitted to Congress in April during Senate testimony by United 
Chairman of the Board Karen Caplan, Frieda's, Inc and recommendations 
presented to the Committee today. The Act calls for expansion of the 
fruit and vegetable pilot snack program to schools in all 50 states, 
inclusion of fresh fruits and vegetables in the WIC program, increased 
funding for the school breakfast program, and a doubling of the 
Department of Defense fresh produce purchase program for schools.
    Congressman Doc Hastings (R-WA) has introduced H.R. 2832, the 
Healthy Nutrition for America's Children Act which would expand the 
fruit and vegetable pilot program to all 50 states. Just last week 
Congressman Hastings spoke to the students in his district about the 
benefits of fruits and vegetables as part of a healthy diet. We want to 
also salute Congressman Hasting, Congressman Osborne, and Congressman 
Wilson and the other House cosponsors for their support to expand the 
pilot program.
    With the introduction of these bills, now is the time for all of us 
to work together in a bipartisan fashion to put in place actual 
solutions to these challenges, not excuses for failing to act. Congress 
must develop legislation to make healthfulness, freshness and quality 
equal components of school breakfasts and lunches, to build a healthier 
school environment that truly teaches lifelong wise food choices, and 
to launch a smarter start for WIC recipients that can be incorporated 
into healthy diets long after leaving the program. These legislative 
initiatives take us down that path. We strongly encourage Committee 
Members to include this legislation in the Committee's work on 
developing child nutrition reauthorization legislation this year.
Conclusion
    Since 1946, with the creation of the National School Lunch Program, 
child nutrition programs have been a vital link in providing access to 
nourishing meals for 25 million school children each day. Congress is 
now debating future funding and options for child nutrition programs 
such as school lunches, breakfast, after-school and summer programs, 
the Women, Infants and Children (WIC) nutrition program and more. With 
nutrition research continuing to confirm the importance of consuming 5-
to-9 servings a day of fruits and vegetables, and obesity reaching 
epidemic proportions, these child nutrition programs are a critical 
opportunity to improve public health.
    Yet, the importance of fruits and vegetables not only for nutrition 
but as a tool for teaching children healthy choices over a lifetime has 
been too often overlooked in these programs. I don't need to repeat the 
facts about today's crisis in childhood obesity and poor nutrition, 
which is leading to a future legacy of disease and staggering health 
care costs. We tell WIC recipients to eat more fruits and vegetables, 
but the WIC food packages don't include these very products. We tell 
schools to serve more fruits and vegetables, and then supply them with 
heavily processed foods and surplus commodities, rather than the 
freshest highest quality produce that kids would like to eat. Now, that 
can change as Congress renews and updates the Richard B. Russell 
National School Lunch Act and the Child Nutrition Act of 1966.
    It's a tragedy that research shows that on any given day, 45% of 
children eat no fruit and 20% eat less than one serving of vegetables. 
Yet at the same time, a GAO study released in September 2002 found 
federal nutrition programs such as the School Lunch program and the 
Special Supplemental Nutrition Program for Women, Infants, and Children 
(WIC) did not reach their potential for increasing the consumption of 
fruit and vegetables to yield health benefits for Americans. With 
obesity rates reaching epidemic proportions in the United States, 
greater attention must be focused on increasing fruit and vegetable 
consumption as a public health solution. Thank you Mr. Chairman and I 
will be happy to answer any questions at this time and look forward to 
working with you during your consideration of this important 
reauthorization process.
Attachments
    a.  A Fresh Start to Better Nutritional Choices--2003 Child Federal 
Policy Recommendations for Child Nutrition Programs. United Fresh Fruit 
and Vegetable Association, (April 2003).
    b.  USDA's Fruit and Vegetable Program Works! Produce for Better 
Health Foundation and United Fresh Fruit and Vegetable Association, 
(May 2003).
                                 ______
                                 
    [Attachments to Mr. Stenzel's statement have been retained 
in the Committee's official files.]

    Chairman Boehner. Ms. Slavin.

    STATEMENT OF JOANNE L. SLAVIN, PROFESSOR OF NUTRITION, 
    DEPARTMENT OF FOOD SCIENCE AND NUTRITION, UNIVERSITY OF 
                           MINNESOTA

    Ms. Slavin. Thank you for the opportunity to submit verbal 
and written testimony relevant to the nutritional needs of 
children and dietary requirements of the National School Lunch 
Program. I am here on behalf of the Wheat Foods Council, a 
nonprofit organization dedicated to increasing public awareness 
of the importance of grain foods, whole grains and fiber in a 
healthful diet.
    Grain foods provide many elements essential to growing 
children: complex carbohydrates; vitamins such as niacin, 
thiamin, riboflavin and folic acid; minerals important to 
children such as iron; plant protein; phytochemicals; and 
dietary fiber. Research continues to support grain foods at the 
base of the USDA food guide pyramid, with whole grains 
comprising a significant part of the base. The current U.S. 
Dietary Guidelines for Americans recommend that Americans eat a 
variety of grain foods each day with particular focus on whole 
grains.
    Whole grain foods have been linked to protecting people 
from a number of chronic diseases, including cardiovascular 
disease, cancer, and diabetes. The reauthorization of the Child 
Nutrition Act, along with the Richard B. Russell National 
School Lunch Act, provides Congress with the opportunity to 
review and strengthen current nutrition standards for grain 
foods, particularly whole grains.
    When the School Meals Initiative for Healthy Children was 
implemented in 1995, whole grain foods and fiber intake were 
not included as requirements because recommendations were not 
available at that time. Since 1995, the 2000 dietary guidelines 
for Americans changed to a new focus on grain foods with an 
emphasis on whole grains, and in 2002 the Institute of Medicine 
established for the first time adequate intake levels of 
dietary fiber for children and adults.
    The benefits of consuming adequate levels of dietary fiber 
are important for children as well as adults. Unfortunately, 
both children and adults do not consume enough fiber. Whole 
grain foods and their refined grain counterparts are important 
contributors of fiber. For example, whole wheat bread provides 
two or more grams of fiber per slice while white bread supplies 
about half a gram per slice. For Americans, white bread is an 
important contributor to dietary fiber in the diet, and as most 
parents know, white bread is a favorite choice for children.
    Children are also familiar with ready-to-eat cereals and 
cereal snacks. Ready-to-eat cereal-based products can help 
children meet their dietary fiber intake needs because many 
ready-to-eat cereals contain 2 to 5 grams of fiber.
    Led by the Department of Health and Human Services, Healthy 
People 2010 targets the needs for Americans age 2 and older to 
consume at least three servings of whole grains per day. Using 
this goal as a guideline, the inclusion of a whole grain choice 
in the National School Lunch Program and the School Breakfast 
Program will benefit our Nation's children.
    However, the serve-it-and-they-will-eat-it philosophy is 
not recommended. Schools will need pilot programs similar to 
the USDA's pilot fruit and vegetable program, along with 
education of classroom and marketing resources, to help 
children increase their intake of whole grain foods.
    School food programs provide excellent opportunities for 
children from all socioeconomic backgrounds to try new foods 
and develop healthy eating patterns. Many experts believe 
nutrition intervention should begin before 6th grade because 
children are not as resistant to change. We know whole grains 
are good for children, but if we want children and adults to 
increase whole grain consumption, we need to introduce whole 
grains to children when they are eager to learn.
    One way schools could help children increase whole grain 
consumption is to introduce whole grain foods gradually. 
Serving partial whole grain foods can help achieve this goal. 
For example, schools could offer sandwiches made with one piece 
of whole grain bread and one piece of white bread; pasta dishes 
with mixed with half portions of whole grain pasta. 
Manufacturers are generally very eager to sell products to 
school food services, due to volume, and once a whole grain 
standard is implemented, it is likely they will find ways to 
make whole grain foods more attractive to children.
    Children enjoy grain foods for many reasons, and we know 
that children are more likely to eat grain foods than fruits 
and vegetables. A 2002 report to Congress on plate waste and 
school nutrition programs showed that children wasted 1.6 to 3 
times more fruits and vegetables on their plates than they 
wasted breads and other grain foods.
    Grain foods are also popular with school food service 
personnel. In fact, a recent survey showed that 80 percent of 
food service personnel surveyed were somewhat or very motivated 
to serve whole grain foods in schools, and 88 percent believed 
whole grain foods will provide health benefits to students if 
they are included on school menus.
    Whether children are served whole or enriched grain foods, 
both options provide tremendous nutritional benefits. Grain 
foods are often misunderstood, and most people do not know that 
both white bread and whole grain bread are rich in 
antioxidants. In fact, both white bread and whole grain bread, 
on average, contain as much or more antioxidant activity as 
common fruits and vegetables. Children at a young age may not 
be as concerned about the health benefits of grains, but it is 
our job to ensure that they have every opportunity to include 
them in their diet.
    With all the myths surrounding protein and fat in popular 
weight loss diets, carbohydrate-based foods appear to be 
unappreciated by the media and misdirected consumers. 
Nutritionists who are knowledgeable about the importance of 
consuming a well-balanced diet need your help to ensure that 
children and consumers select a diet rich in grain-based foods.
    Thank you for the opportunity to provide these comments. On 
behalf of the Wheat Foods Council and myself, we urge you to 
legislate and fund whole grain offerings and pilot programs for 
the National School Lunch Program and other child nutrition 
programs.
    Chairman Boehner. Thank you, Dr. Slavin.
    [The prepared statement of Ms. Slavin follows:]

  Statement of Joanne L. Slavin, Ph.D., R.D., Professor of Nutrition, 
   Department of Food Science and Nutrition, University of Minnesota

October 3, 2003

The Honorable John A. Boehner
Chairman
Committee on Education and the Workforce
U.S. House of Representatives
2181 Rayburn House Office Building
Washington, D.C. 20515-6100

Dear Mr. Chairman:

    Thank you for the opportunity to submit verbal and written 
testimony relevant to the nutritional needs of children and dietary 
requirements of the National School Lunch Program (NSLP). I am here on 
behalf of the Wheat Foods Council, a nonprofit organization dedicated 
to increasing public awareness of the importance of grain foods, whole 
grains, and fiber in a healthful diet.
    Grain foods provide many elements essential to growing children--
complex carbohydrates; vitamins such as niacin, thiamin, riboflavin and 
folic acid; minerals important to children, such as iron; plant 
protein; phytochemicals and dietary fiber. Research continues to 
support grain foods at the base of the USDA Food Guide Pyramid, with 
whole grains comprising a significant part of the base. The 2000 
Dietary Guidelines Advisory Committee emphasized whole grain 
consumption because they recognized the health benefits associated with 
eating whole grain foods. The current U.S. Dietary Guidelines for 
Americans recommend that Americans eat a variety of grain foods each 
day, with particular focus on whole grains. This was a wise addition to 
the guidelines and, as a result of evolving research on grains in the 
diet, it is anticipated that the 2005 Dietary Guidelines Advisory 
Committee will update the guidelines with a whole grain serving 
recommendation.
    Whole grain foods have been linked to protecting people from a 
number of chronic diseases, including cardiovascular disease, cancer, 
and diabetes. The reauthorization of the Child Nutrition Act, along 
with the Richard B. Russell National School Lunch Act, provides 
Congress with the opportunity to review and strengthen current 
nutrition standards for grain foods, particularly whole grains.
    The NSLP not only contributes to the nutritional well-being of 
children, it also acquaints children with healthy dietary choices 
because the program requires participating schools to offer foods that 
meet set nutritional standards. When the School Meals Initiative for 
Healthy Children was implemented in 1995, whole grain foods and fiber 
intake were not included as requirements because recommendations were 
not available at that time. Since 1995, the 2000 Dietary Guidelines for 
Americans changed to a new focus on grain foods, with an emphasis on 
whole grains and, in 2002, the Institute of Medicine established, for 
the first time, adequate intake levels of dietary fiber for children 
and adults.
    The recommended dietary intake of fiber for school-age children 
ranges from 25 grams of total fiber per day (four- to eight-year-old 
children), to as high as 38 grams per day (14- to 18-year-old boys)\1\. 
Recommendations are based on caloric intake and, as children grow and 
need more calories, they also need more dietary fiber.
    The benefits of consuming adequate levels of dietary fiber are 
important for children as well as adults. Unfortunately, both children 
and adults do not consume enough dietary fiber\1\.
    Whole grain foods and their refined grain counterparts are 
important contributors of dietary fiber. For example, whole-wheat bread 
provides two or more grams of fiber per slice, and white bread supplies 
about 0.5 grams of dietary fiber per slice\2\. For Americans, white 
bread is the most important contributor to dietary fiber in the diet 
and, as most parents already know, white bread is a favorite choice for 
children. A survey of eight to 11 year olds showed that 72 percent of 
the children surveyed preferred white bread\3\. Children also are 
familiar with ready-to-eat cereal and cereal snacks. Ready-to-eat 
cereal-based products can help children meet their dietary fiber intake 
needs because many ready-to-eat cereals contain two to five grams of 
fiber\4\. In fact, cereal and cereal snacks are not only kid friendly, 
they can also be one of the best foods to eat to meet daily fiber 
intake needs.
    According to the USDA's 1994 96 Continuing Survey of Food Intakes 
by Individuals, children eat on average 0.8-1.1 servings of whole 
grains per day\5\. Only 2 percent of 6 to 11 year olds and 6 percent of 
12 to 19 year olds consume at least six daily servings of grain foods, 
with at least three being whole grains6. Led by the Department of 
Health and Human Services, Healthy People 2010 targets the need for 
Americans aged two years and older to consume at least three whole 
grain foods per day. Using this goal as a guideline, the inclusion of a 
whole grain choice in the NSLP and the School Breakfast Program will 
benefit our Nation's children.
    However, the serve-it-and-they-will-eat-it philosophy is not 
recommended. Schools will need pilot programs, similar to the USDA's 
pilot fruit and vegetable program, along with educational, classroom, 
and marketing resources to help students increase their intake of whole 
grain foods.
    School food programs provide excellent opportunities for children 
from all socio-economic backgrounds to try new foods and develop 
healthy eating behaviors. Many experts believe nutrition intervention 
should begin before sixth grade because children are not as resistant 
to change\7\. We know whole grains are good for children, but if we 
want children and more adults to increase whole grain consumption, we 
need to introduce whole grains to children when they are eager to 
learn. Many children will accept new foods if they are offered to them 
multiple times. Schools are uniquely positioned to offer a wide variety 
of healthy foods--so that children not only may learn about them, but 
learn also to select them for a healthful diet.
    One way schools can help children increase whole grain consumption 
is to introduce whole grain foods gradually. Serving partial whole 
grain foods can help achieve this goal. For example, schools could 
offer sandwiches made with one piece of whole grain bread and one piece 
of white bread, or pasta dishes mixed with one-half portion of whole 
grain pasta and one-half portion of enriched pasta. Additionally, 
school bakeries and manufacturers could produce more partial whole 
grain foods such as pizza dough, baked goods, and snacks. Manufacturers 
are generally very eager to sell products to school foodservices due to 
volume and, once a whole grain standard is implemented, it is highly 
likely they will find ways to make whole grain foods more attractive to 
children.
    Currently, there are many whole grain foods available, but 
marketing them and serving them as kid-friendly foods will be important 
for success. Some whole grain foods are already kid friendly. Whole 
grain cereals, whole grain snacks, whole grain crackers, and pizza made 
with whole grain flour, will certainly be acceptable to school 
children. Children tell us that food shape, color, and flavor are 
important to them, and peer pressure plays a role in deciding which 
foods they choose\8\. We urge Congress to earmark research funds for 
pilot programs to help schools increase whole grain consumption in kid-
friendly ways.
    Children enjoy grain foods for many reasons, and we know that 
children are more likely to eat grain foods than fruits and vegetables. 
A 2002 report to Congress on plate waste in school nutrition programs 
showed that children wasted 1.6 to three times more fruits and 
vegetables on their plates than they wasted breads and other grain 
foods\9\.
    Grain foods also are popular with school foodservice personnel. 
Most school foodservices must be self-sufficient, and grain foods are 
an important part of their menus because they are economical, popular 
with children, versatile, easy to prepare, and available from a wide 
variety of vendors year-round. In fact, a recent survey showed that 80 
percent of foodservice personnel surveyed were somewhat or very 
motivated to serve whole grain foods at schools, and 88 percent 
believed whole grain foods will provide health benefits to students if 
they are included on school menus\8\.
    Whether children are served whole or enriched grain foods, both 
options provide tremendous nutritional benefits. Grain foods are the 
major source of carbohydrates in our diets, and they serve as excellent 
foods to fortify our diets with vitamins, minerals, phytochemicals, and 
antioxidants. Grain foods are often misunderstood, and most people do 
not know that both white bread and whole grain bread are rich in 
antioxidants. In fact, both white bread and whole grain bread, on 
average, contain as much or more antioxidant activity than common 
vegetables and fruits\8\. Children, at their young age, may not be as 
concerned about the health benefits of grains, but it is our job to 
ensure that they have every opportunity to include them in their diets.
    With all the myths surrounding protein and fat in popular weight-
loss diets, carbohydrate-based foods appear to be unappreciated by the 
media and misdirected consumers. Nutritionists, who are knowledgeable 
about the importance of consuming a well-balanced diet, need your help 
to ensure that children and consumers select a diet rich in grain-based 
foods. Government funds nutrition programs to help children reach 
optimal health and well-being, and grain-based foods are instrumental 
in reaching these goals.
    Thank you for the opportunity to provide these comments. On behalf 
of the Wheat Foods Council and myself, we urge you to legislate and 
fund whole grain offerings and pilot programs for the NSLP and other 
child nutrition programs.

Sincerely,

Joanne L. Slavin, Ph.D., R.D.
Professor of Nutrition
University of Minnesota

REFERENCES
    1.  Institute of Medicine, Food and Nutrition Board, Dietary 
Reference Intakes for Energy, Carbohydrate, Fiber, Fat, Fatty Acids, 
Cholesterol, Protein, and Amino Acids. The National Academies Press: 
Washington, D.C., 2002; (7-35)--(7.36).
    2.  Marlett, J.A., Cheung, T.F. Database and quick methods of 
assessing typical dietary fiber intakes using data for 228 commonly 
consumed foods. J Am Diet Assoc. 1997; 97:1139-1148.
    3.  RHI, Assessment of Attitudes Towards Grain Among Children's. 
Overland Park, Kan. 2000; 4.
    4.  The American Dietetic Association, High-Fiber Diet. In: Manual 
of Clinical Dietetics. The American Dietetic Association: Chicago, Ill, 
2000; 710-711.
    5.  U.S. Department of Agriculture, Agriculture Research Service, 
Pyramid Servings Data Results from USDA's 1994-96 Continuing Survey of 
Food Intakes by Individuals. [Electronic Version]. Beltsville, Md., 
1999; 4.
    6.  Food and Drug Administration, National Institutes of Health, 
Healthy People 2010. Retrieved October 1, 2003 from http://
www.healthypeople.gov/document/HTML/Volume2/19Nutrition.htm. (n.d.); 
19-22.
    7.  Sandeno, C., Wolf, G., Drake, T., and Reicks, M., Behavioral 
strategies to increase fruit and vegetable intake by fourth- through 
sixth-grade students. J Am Diet Assoc. 2000; 100(7):828-830.
    8.  Marquart, L., Reicks, M., and Burgess Champaux, T., Data 
presented by Len Marquart at the annual conference for the American 
Association of Cereal Chemists, Oct. 1, 2003, at Portland, Ore.
    9.  U.S. Department of Agriculture, Economic Research Service, 
Plate Waste in School Nutrition Programs: Final Report to Congress. 
Retrieved March 18, 2002 from http://www.ers.usda.gov/publications/
efan02009/. 2002;9.
                                 ______
                                 
    Chairman Boehner. Mr. Joslin.

                STATEMENT OF ROBINSON W. JOSLIN

    Mr. Joslin. Mr. Chairman and other members of the 
Committee, I want to thank you for inviting me to testify at 
this important hearing on the dietary requirements of the 
National School Lunch Program, and whether these requirements 
are contributing adequately to the overall nutritional needs of 
students.
    My name is Rob Joslin, as Mr. Chairman already stated. I am 
not really an expert witness; I am a soybean farmer from 
Sidney, Ohio. I also serve as President of the Ohio Soybean 
Association.
    Today, I am representing both the American Soybean 
Association and the Soy Foods Association of North America. 
Members of these two organizations care greatly about 
nutritional adequacy of students' diets, and want Congress to 
modify the current laws to assure that schools can easily 
provide nutritional foods for all children regardless of their 
health, cultural, or religious needs.
    As part of efforts to reauthorize the Child Nutrition 
Programs, we ask the Committee to include language that 
provides schools an option to offer students soy milk that 
meets the nutritional requirements as prescribed by the 
Secretary. I feel there is a clear need to allow local control 
in this matter.
    I will summarize my testimony, and ask that the entire 
testimony be made part of the record. I will begin by sharing 
some background on why allowing soy milk is a beneficial option 
for children who do not drink cow's milk. Second, I will review 
the nutritional comparability of soy milk to cow's milk. And, 
finally, I will discuss some of the shortfalls of our current 
system.
    I want to make one thing clear at the outset. I was raised 
on a dairy farm. I drink milk. I like milk. Providing an option 
to offer soy milk to meet the nutritional needs of children who 
do not drink dairy milk and, thus, are not served by the 
current Federal Child Nutrition Programs would complement, not 
replace, milk in the program.
    This is not an issue of commodity versus commodity. A large 
portion of my soybean harvest and the soybean harvest of many 
farmers is used to manufacture feed for dairy cows, but some is 
also used for manufacturing soy milk.
    The desire to allow soy milk in the Federal Child Nutrition 
Program began with concerned food service directors. They 
requested soy milk as a reimbursable option for children who do 
not drink cow's milk. Soy milk would allow children a beverage 
containing protein, calcium, vitamin E and other essential 
nutrients for growth and development. School food service 
directors from across the country have written over 250 letters 
in support of soy milk as an option for their school children.
    Let me clarify that what I am asking for and what the Soy 
Foods Association of North America and the American Soybean 
Association supports is allowing schools the option to offer 
fortified soy milk as part of a reimbursable meal in the USDA's 
Child Nutrition Programs. The language drafted by these 
organizations is not a mandate for soy milk. It would simply 
allow soy milk as a reimbursable option of schools serving 
children who do not drink cow's milk.
    School food service directors are asking for this option 
because, according to USDA's own study, on average, 16 percent 
of the lunches selected by students in secondary schools did 
not include milk, and about 6 percent of the elementary school 
lunches did not include milk.
    Because of allergies to bovine protein, lactose 
intolerance, or cultural religious practices, a growing number 
of students do not take full advantage of the Federal nutrition 
programs, including the School Lunch and School Breakfast 
Programs. These students presently do not consume dairy 
products. Remember, milk not consumed does not meet any 
nutritional needs. For example, Seventh Day Adventists follow a 
strict vegetarian diet and do not consume cow's milk. For these 
children, lactose free cow's milk is not an acceptable 
alternative.
    A recent survey of food service directors sheds light on 
the need for soy milk in schools. I would like to read you one 
of their comments. A school food service director from Lewes, 
Delaware, wrote that, quote, ``This product is definitely 
needed. The African American population in our district are low 
consumers of dairy. We offer 1 percent unflavored and skim and 
still need a soy product,'' end quote.
    Congressman Kline asked about the cost of soy milk to 
schools. If this provision, giving the schools the option to 
offer soy milk to be reimbursed, is adopted, schools could plan 
their purchases. For example, schools could, No. 1, buy larger 
quantities to drop price; No. 2, buy products on the market 
that are now available at the same times they purchase milk; or 
three, request competitive bids from their suppliers.
    Now, I would like to talk about nutritional comparability 
of soy milk to cow's milk. Fortified soy milk is a nutritional 
option for children not consuming dairy products. Fortified soy 
milk on the market today contains calcium, vitamin A and 
vitamin D equivalent to milk as well as vitamin B, iron, and 
high-quality protein.
    The USDA's dietary guidelines for Americans and the food 
guide pyramid for children lists soy-based beverages with added 
calcium as a suitable source of calcium. In both the children's 
pyramid and the dietary guidelines, calcium-fortified soy milk 
is the only beverage listed as a suitable milk alternative.
    These Federal nutrition guidelines are meant to serve as a 
blueprint for Federal nutrition programs. The Soy Foods 
Association of America has submitted a letter recommending the 
USDA set nutritional requirements for soy milk served in 
Federal nutrition programs with established levels of protein, 
calcium, as well as vitamin A and vitamin D. USDA sets 
nutritional requirements for juice, cereals, and other foods 
used in these programs. I will submit a copy for the record.
    Currently, the USDA does not reimburse schools for soy milk 
unless a student provides a statement from a physician or other 
recognized medical authority. For low-income households that do 
not have primary care physicians or health insurance, going to 
health care professionals and taking time from work may not be 
possible or affordable. We ask the Committee to amend the law 
to give schools the voluntary option to serve fortified soy 
milk, therefore not increasing the school's workload or adding 
to the financial burden on families.
    In conclusion, I would like to thank the Members of the 
Committee for your commitment to the health and welfare of the 
Nation's children. Soy farmers, soy processors, soy food 
manufacturers share the goal of making our Federal nutrition 
programs more effective in improving the nutritional intake and 
health of our children. I urge you to ensure that schools have 
local control by offering a nutritious soy milk option to 
children receiving meals under the Federal nutrition programs.
    Thank you very much.
    Chairman Boehner. Thank you, Mr. Joslin.
    [The prepared statement of Mr. Joslin follows:]

  Statement of Robinson W. Joslin, President, Ohio Soybean Association

    Mr. Chairman and other members of the Committee, I want to thank 
you for inviting me to testify at this important hearing on the dietary 
requirements of the National School Lunch Program and whether these 
requirements are contributing adequately to the overall nutritional 
needs of students. My name is Rob Joslin and I raise soybeans in 
Sidney, Ohio. I also serve as the President of the Ohio Soybean 
Association.
    Today, I am representing both the American Soybean Association and 
the Soyfoods Association of North America. Members of these two 
organizations care greatly about the nutritional adequacy of the diets 
of students and want Congress to modify the current laws to assure that 
schools can easily provide nutritional foods for all children 
regardless of their health, cultural, or religious needs. As part of 
legislation to reauthorize the Child Nutrition Act and the Richard B. 
Russell National School Lunch Act, we ask the subcommittee to include 
language that provides schools an option to offer students soymilk that 
meets the nutritional requirements prescribed by the Secretary, as part 
of a reimbursable meal.
    I would first like to share some background on why allowing soymilk 
is a beneficial option for children who do not drink cow's milk. 
Second, I will review the nutritional comparability of soymilk to cow's 
milk. Then, I will discuss some of the shortfalls of our current 
system. And finally, I will discuss childhood health and soy protein.
    I want to make one thing clear at the outset. Providing an option 
to offer soymilk to meet the nutritional needs of children who do not 
drink milk and thus are not served by the current federal child 
nutrition programs, would complement, not replace cow's milk in the 
program. This is not an issue of commodity versus commodity. A large 
portion of my soybean harvest as well as many other soybean farmers, is 
used to manufacture feed for dairy cows, but some is used to make 
soymilk. I believe soymilk provides a nutritious beverage option to 
children who do not consume cow's milk. I am not alone in this belief. 
The desire to allow soymilk in the federal child nutrition programs 
began with concerned school foodservice directors requesting soymilk as 
a reimbursable option for children who do not drink cow's milk to have 
an opportunity to consume a beverage containing protein, calcium, 
vitamin D and other essential nutrients for growth and development. 
School foodservice directors from across the country have written over 
250 letters in support of soymilk as an option for their school 
children.

OUR NATION'S CHILDREN NEED ANOTHER OPTION
    Let me clarify that what I am asking for, and what the Soyfoods 
Association of North America and the American Soybean Association 
support, is allowing schools the OPTION to offer fortified soymilk as 
part of a reimbursable meal in USDA's child nutrition programs. The 
language drafted by these organizations is not a mandate for soymilk. 
It would simply allow soymilk as a reimbursable option for schools 
serving children who do not drink cow's milk.
    School foodservice directors are asking for this option because, 
according to the USDA's own study, ``on an average day, 16% of lunches 
selected by students in secondary schools did not include milk and 
about 6% of elementary school lunches did not include milk. 
<SUP>1</SUP> Because of lactose intolerance, allergies to bovine 
protein, or cultural and religious practices, a growing number of 
students do not take full advantage of federal nutrition programs, 
including the School Lunch and School Breakfast Programs--these 
students cannot consume dairy products.
    Some children who have lactose intolerance may be able to consume 
cow's milk, but many require an enzyme treated cow's milk or soymilk. 
But students have many other reasons for not consuming cow's milk that 
go beyond lactose intolerance. These reasons include cultural or 
religious beliefs, avoidance of animal products, and cow's milk 
allergy. For example, Seventh Day Adventists follow a strict vegetarian 
diet and do not consume cow's milk. It is estimated that up to 2.5% of 
infants and children are allergic to cow's milk. Symptoms of cow's milk 
allergy can include hives, rash, vomiting, diarrhea, breathing 
difficulties and drops in blood pressure <SUP>2</SUP>. For these 
children, lactose-free cow's milk is not an acceptable alternative.
    Lactose intolerance is prevalent in some population groups as early 
as two years of age. Studies have shown lactose intolerance in up to 
85% of Asian-American, 72% of African-American, 70% of Native American, 
56% of Hispanic-American, and 21% of Caucasian-American school aged 
youth. <SUP>3</SUP> Many of those with lactose intolerance experience 
nausea, cramps, bloating, gas and diarrhea that may begin about 30 
minutes to 2 hours after eating or drinking foods containing lactose.
    A recent survey of foodservice directors shed light on the need for 
soymilk in schools. Some of their comments were as follows.
    ``This product is definitely needed. The African American 
population in our district are very low consumers of dairy. We offer 1% 
unflavored and skim and still need a soy product.'' Foodservice 
supervisor in Lewes, Delaware
    ``At the present time we have parents sending soymilk to school 
with their children. This would be a helpful service for parents if we 
could offer soymilk.'' Foodservice director in Lindstrom, Minnesota
    ``We have a growing population of vegetarian students and I think 
they would find this appealing.'' Foodservice director in Reynoldsburg, 
Ohio
    ``I think soymilk as a ``mainstream'' beverage would appeal to our 
Asian population which is 30% of the enrollment. I am very concerned 
that our students are not getting the calcium they need.'' Foodservice 
director in Union City, California
    The 2000 Dietary Guidelines for Americans stress the importance of 
recognizing diversity within the American population and for 
alternative diets to meet the needs of an increasingly diverse 
population. Allowing soymilk as an option would accommodate the needs 
of growing numbers of children following alternative eating patterns.

COMPARABILITY OF COST
    Some have raised concerns about the cost of soymilk compared to 
that of cow's milk. The language submitted with this testimony does not 
ask for an increase in the meal reimbursement rate to schools serving 
soymilk. If the language were adopted, schools would have the 
opportunity to obtain soymilk by various methods. Schools could request 
competitive bids from soymilk manufacturers; request that dairy bids 
include soymilk options; or purchase large quantities of 8-ounce 
cartons of soymilk from supermarkets or wholesale stores. We anticipate 
that the demand for soymilk in federal nutrition programs will begin 
slowly and increase steadily over time with increased awareness of this 
option for children. This phase-in would give suppliers time to 
formulate and package a product that could be priced competitively with 
cow's milk.

FORTIFIED SOYMILK IS A NUTRITIONAL OPTION
    Fortified soymilk is a nutritional option for children not 
consuming dairy products. Fortified soymilk on the market today 
contains calcium, vitamin A and Vitamin D equivalent to milk, as well 
as iron, B vitamins and high quality protein. Fortified soymilk is also 
low in saturated fat and contains no cholesterol.
    It is true that commercially available soymilk does vary in 
nutrient composition, but the language submitted along with this 
testimony would allow the Secretary of Agriculture to determine the 
nutritional requirements for soymilk offered in federal child nutrition 
programs, just as nutritional requirements are set for cereal and juice 
for these programs. The Soyfoods Association of North America (SANA) 
has submitted a letter recommending that USDA set nutritional 
requirements for soymilk served in federal nutrition programs that 
establish 7 grams of protein, 300 milligrams of calcium, as well as 100 
IU of vitamin D and 500 IU of vitamin A per 8 ounce serving. Soymilk 
meeting these nutritional requirements would provide a nutritionally 
comparable product to cow's milk currently offered in the federal 
nutrition programs.
    While the bioavailability of calcium in soymilk and cow's milk may 
differ, soymilk can still be a significant source of calcium in the 
diet. In addition, studies have found that in comparison with animal 
protein, soy protein decreases calcium excretion, presumably due to the 
lower sulfur amino acid content of soy protein <SUP>4</SUP>. It is 
important to note that most soymilk consumers are not replacing cow's 
milk, but are adding fortified soymilk to a diet that did not contain 
dairy products for medical, religious or ethical reasons. Therefore, 
they are adding a good source calcium, as well as vitamin D, vitamin A 
and B vitamins, to a diet that may have been lacking in these 
nutrients.
    Many health groups recognize that fortified soymilk is an 
appropriate choice for children who do not consume dairy products. The 
USDA's 2000 Dietary Guidelines for Americans and Food Guide Pyramid for 
Young Children list ``soy-based beverages with added calcium'' as a 
suitable source of calcium. In both the children's Pyramid and the 
Dietary Guidelines, calcium fortified soymilk is the ONLY beverage 
listed as a suitable milk alternative. These federal nutrition 
guidelines are meant to serve as the blueprint for federal nutrition 
programs. We do not see our request as opening the door for calcium 
fortified juices or waters to be considered as suitable dairy milk 
alternatives, as these beverages do not contain high quality protein. 
The American Dietetic Association (ADA) and the American School Food 
Service Association (ASFSA) also support providing the option of 
fortified soymilk as an alternative to cow's milk in federal nutrition 
programs.
    In examining the composition of soymilk, questions have been raised 
about using a beverage that is fortified with calcium and vitamin D in 
the federal nutrition programs. The use of fortified foods in federal 
nutrition programs is not prohibited by federal or state regulations. 
In fact, vitamin and mineral fortification is very common among food 
products served in these programs. For example, cow's milk is fortified 
with vitamin D, and grain products are fortified with iron.

INADEQUACY OF THE CURRENT SYSTEM
    Currently, USDA does not reimburse schools for soymilk unless the 
student provides a statement from a physician or other recognized 
medical authority. For low income households that do not have primary 
care physicians or health insurance, going to a health care 
professional and taking time from work may not be possible or 
affordable. The option of utilizing school nurses to provide medical 
clearance for children who wish to consume dairy products has also been 
considered but is not practical. Many schools have only part-time 
nurses on the premises, and national data shows that there is only one 
school nurse for every 822 American schoolchildren. <SUP>5</SUP>
    As stated earlier in this testimony, some children do not consume 
cow's milk for cultural, religious, and health reasons. Involvement of 
the medical community in providing documentation for children who do 
not consume cow's milk for non-medical reasons is inappropriate. We ask 
the Subcommittee to amend the law to give schools the choice to serve 
fortified soymilk without increasing the workload burden on school food 
service personnel and school nurses or adding to the financial load on 
families.
    Moreover, offering soymilk on an a la carte basis is not practical 
for children who are low income and receive a free or reduced price 
meal, but cannot drink milk. Schools are not reimbursed for   la carte 
items, and children from low income families are often unable to 
purchase these options.

CHILDHOOD HEALTH AND SOY PROTEIN
    Fortified soymilk can also play a role in the growing problem of 
childhood overweight and obesity. Recent studies show the number of 
overweight children in the United States is up 50% since 1991. 
<SUP>6</SUP> And, 60% of overweight children ages 5 to 10 have at least 
one risk factor for heart disease. <SUP>7</SUP> These children also 
show signs of heart disease and diabetes (i.e. elevated cholesterol and 
blood sugar) that are normally only found in adults.
    Soy protein has been proven to reduce total cholesterol, especially 
LDL ``bad'' cholesterol, while maintaining HDL ``good'' cholesterol. 
Soy protein is recognized by both the Food and Drug Administration 
(FDA) and the American Heart Association as a means to reduce 
cholesterol and the risk of heart disease. In 1999, FDA approved the 
following health claim for soy protein:
    ``25 grams of soy protein a day, as part of a diet low in saturated 
fat and cholesterol, may reduce the risk of heart disease. A serving of 
(name of food) supplies (x) grams of soy protein.
    Some early results from human trials suggest that soy also may have 
a role in reducing blood sugars and related signs of diabetes. 
<SUP>8</SUP>- <SUP>9</SUP> According to preliminary research, the early 
introduction of soy into children's diets also may delay or prevent the 
onset of cancer and osteoporosis in adulthood. <SUP>10</SUP>

CONCLUSION
    I thank the members of the Committee for your commitment to the 
health and welfare of the nation's children. Soy farmers, soy 
processors, and soyfood manufacturers share the goal of making our 
federal nutrition programs effective in improving the nutritional 
intake and health of all children. I urge you to ensure that schools 
have the opportunity to offer a nutritious soy beverage to children 
receiving meals under federal child nutrition programs that do not 
consume dairy products.

REFERENCES
    <SUP>1</SUP> School Nutrition Dietary Assessment Study-II, USDA, 
January 2001.
    <SUP>2</SUP> Sampson, H. Food Allergy and Anaphylaxis. Food Allergy 
News, June/ July 2001.
    <SUP>3</SUP> American Academy of Pediatrics. The Practical 
Significance of Lactose Intolerance in Children. Pediatrics. 
1978;62:240-245. American Academy of Pediatrics. The Practical 
Significance of Lactose Intolerance in Children: Supplement. 
Pediatrics. 1990;86:643-644. Jackson KA, Savaiano DA. Lactose 
maldigestion, calcium intake and osteoporosis in African-, Asian-, and 
Hispanic Americans. J Am Coll Nutr. 2001;20(2 Suppl):198S-207S. Johnson 
AO, Semenya JG, Buchowski MS, Enwonwu CO, Scrimshaw NC. Correlation of 
lactose maldigestion, lactose intolerance, and milk intolerance. Am J 
Clin Nutr. 1993;57:399-401. Yang Y, He M, Cui H, Bian L, Wang Z. The 
prevalence of lactase deficiency and lactose intolerance in Chinese 
children of different ages. Chin Med J (Engl). 2000;113:1129-1132.
    <SUP>4</SUP> Messina M, Messina V. Soyfoods, soybean isoflavones, 
and bone health: a brief overview. J Ren Nutr
    2000;10(2):63-8.
    <SUP>5</SUP> National Center For Education Statistics (2002) and 
National Association of School Nurses (2002).
    <SUP>6</SUP> Flegal KM, Carroll MD, Kuczmarski RL, Johnson CL. 
Overweight and obesity in the US: Prevalence and trends, 1960-1994. Int 
J Obes Relat Metab Disord. 1998; 22:39-47. Strauss RS, Pollack HA. 
Epidemic increase in childhood overweight, 1986-1998. JAMA 
2001;286:2845-2848.
    <SUP>7</SUP> Freedman DS, Dietz WH, Srinivasan SR, Berenson GS. The 
relation of overweight to cardiovascular risk factors among children 
and adolescents: The Bogalusa Heart Study. Pediatrics 1999; 103: 1175-
1182.
    <SUP>8</SUP> Hermansen, K. Sondergaard, M, Hoie, L, Carstensen, M. 
Brock, B. Beneficial effects of a soy-based dietary supplement on lipid 
levels and cardiovascular risk markers in type 2 diabetic subjects. 
Diabetes Care 2001; 24: 228-33.
    <SUP>9</SUP> Jayagopal, V., Albertazzi, P., Kilpatrick, E. S., 
Howarth, E. M., Jennings, P. E. Hepburn, D. A., Atkin, S. L. Beneficial 
effects of soy phytoestrogen intake in postmenopausal women with type 2 
diabetes. Diabetes Care 2002; 25: 1709-14.
    <SUP>10</SUP> Badger, T., Hakkak, R., Korourian, S. Ronis, M., 
Rowlands, C. et al. (1999) Differential and tissue specific protective 
effects of diets formulated with whey or soy proteins on chemically-
induced mammary and colon cancer in rats. FASEB Journal; v13, n4, 
pA583.
                                 ______
                                 
    Chairman Boehner. Dr. Heaney.

    STATEMENT OF ROBERT P. HEANEY, M.D., F.A.C.P., F.A.C.N.

    Dr. Heaney. Chairman Boehner, Mr. Kildee, Members of the 
Committee, thank you. I appreciate the opportunity of being 
here. I am physician; I am a biomedical scientist; I work as a 
faculty member at Creighton University in Omaha, Nebraska, 
Congressman Osborne's home state.
    Greetings, Coach.
    I am here to try to address some questions of science that 
you may have, and I hope that I will offer some useful 
information either in my testimony or in questions afterwards. 
I would like to deal with some of the objections that one 
sometimes hears raised against milk and to provide you with 
some evidence that there are effectively no substitutes for 
milk that we know of in today's diet.
    Milk, you know, has been aptly described as nature's most 
perfect food. It has a cost per calorie that is less than that 
of the average food in a typical diet, and yet it packs in an 
amazing variety of nutrients: calcium, vitamin D, phosphorus, 
protein, potassium, magnesium, a host of vitamins, and a number 
of micronutrients that we haven't even figured out yet.
    This country is in the midst of what several Federal 
agencies and health professions' organizations have termed a 
calcium crisis. After age 8 or 9, the typical American female 
takes in an amount of calcium per day which is half or less of 
the recommended intake for the rest of her life. Calcium is 
vital not just for the development of strong bones, but for 
many body systems. Low calcium intakes have been convincingly 
implicated in diseases as varied as high blood pressure, 
cardiovascular disease, diabetes, colorectal cancer, and even 
obesity in addition to its established role in osteoporosis.
    But calcium is not the only critical nutrient. Studies that 
I performed in my laboratory at Creighton and confirmed by many 
other investigators show that diets low in calcium are 
typically low in up to four or more other nutrients as well. 
Different nutrients for different persons. But they are 
multiply deficient. We can remedy all those shortfalls with a 
single food, milk.
    Now, one sometimes hears the issue of lactose intolerance 
raised, and I would like to deal with that for a moment. The 
fact is that people of all races are able to consume, digest, 
and benefit from milk without difficulty. We have heard that 
many Americans and perhaps the majority of minorities lack the 
enzyme in their own intestines that help the body break down 
milk sugar, and this is true. But the good news is, it actually 
doesn't matter. What is often ignored--and those of us who know 
something about animal husbandry understand this. What is often 
ignored is the fact that the digestion of our foods is a 
cooperative process between our own intestinal enzymes and 
those of our intestinal bacteria who work together with us to 
help digest our foods.
    When our intestines lose the enzyme to break down milk 
sugar, our intestinal bacteria pick it up for us and carry on 
the process seamlessly. That is only true, however, if we feed 
them milk by drinking it ourselves. Persons who never stop 
drinking milk do not experience lactose intolerance regardless 
of race. And for those who have stopped, it only takes a few 
weeks of building up milk intake to get to the point where 
large quantities, more than would ever be served in a school 
lunch program, can be consumed without discomfort.
    Furthermore, it is hurtful to say that people who lack the 
enzyme--races, minorities--can't digest milk because it 
convinces them that they shouldn't be drinking it, and that 
deprives them of a nutrient that may be very important for 
their health.
    Among its other benefits of particular interest to African 
Americans is the fact that calcium helps maintain a normal 
blood pressure. High blood pressure starts during adolescence, 
and its consequences, that is, strokes and heart attacks 
occurring later in life, are major causes of morbidity and 
mortality for the African American population in this country.
    The widely acclaimed DASH studies, Dietary Approaches to 
Stop Hypertension, supported by the National Heart, Lung, and 
Blood Institute of the NIH, showed that a high dairy intake 
reduced blood pressure sufficiently to prevent roughly one-
fourth of all strokes and heart attacks in the United States, 
and in a study published just last summer in the Journal of the 
American Medical Association, a high dairy intake resulted in a 
62 percent reduction in development of hypertension among young 
adults, black and white. These are huge benefits, larger than 
can be claimed for most drugs.
    Finally, we have heard arguments that soy beverages should 
be allowed to substitute for cow's milk in federally sponsored 
meal programs. I want to be the first to say that soy beverages 
are wholesome and nutritious foods in their own right, but they 
are not substitutes for milk just as a potato is not a 
substitute for an orange.
    Soy does not have the nutrient profile of milk. And in 
order to compensate for one of its deficiencies, soy beverage 
processors add calcium, as we have heard. And one might think 
that would be sufficient to make them equivalent, but 
unfortunately that is not the case. The added calcium is not 
fully available to the body.
    In a study that I published 3 years ago, I found that 
despite having the same calcium content as cow milk, fortified 
soy beverage released substantially less of its calcium into 
the bloodstream. And just this past summer I tested all of the 
calcium-fortified soy and rice beverages that I could find in 
the Omaha market. In all of them, the calcium had settled down 
into the bottom of the carton as a heavy sludge. And although 
there was an instruction on the carton to shake before using, 
our experience in my laboratory was that it would have taken a 
hardware store paint shaker to suspend that calcium in the 
milk. What is worse, isotopic tracer tests that I performed on 
this calcium indicated that in several of the beverages the 
calcium was so coarse that it is unlikely that it would have 
been absorbable by the body.
    But, as I have already said, there is more to the story 
than just calcium. Although the evidence is not yet all in, 
what is available indicates that milk has about twice the 
effect on blood pressure as does an equivalent quantity of 
calcium. The same is true with respect to weight control and 
obesity. Milk performs nearly twice as well as calcium alone. 
Moreover, milk improves the body's response to insulin while 
calcium has no effect.
    No one knows what the special extra in milk may be. 
Scientists are working on it, but for now, substituting any 
other food for milk risks conveying a message that the other 
food is equivalent when it is not and depriving people of the 
full benefit no matter what the calcium content of the food may 
be.
    So, in summary, Mr. Chairman, I think we all know that 
milk, as provided to the school children in this country, as 
well as before that in Great Britain, plays a very important 
role in improving the nutritional status of our young people. 
There has been a decline in whole milk consumption, and the 
need today therefore for school milk intake is greater than it 
ever was in the past.
    And I thank you for the opportunity of providing this 
testimony.
    Chairman Boehner. Dr. Heaney, thank you for your testimony.
    [The prepared statement of Dr. Heaney follows:]

   Statement of Robert P. Heaney, M.D., John A. Creighton University 
Professor, Professor of Medicine, Creighton University, Omaha, Nebraska

    My name is Robert P. Heaney. I am a physician and biomedical 
scientist, a faculty member of Creighton University in Omaha, Nebraska. 
I work primarily in the field of calcium and bone biology. I was a 
member of the Calcium and Related Nutrients Panel of the Food and 
Nutrition Board, Institute of Medicine, the group which released the 
most recent recommendations concerning calcium, phosphorus, and vitamin 
D intakes for the American public. I also chaired the Science Advisory 
Panel on Osteoporosis for the Office of Technology Assessment.
    I am appearing before you to urge continued support for milk in the 
school lunch program, to reassure you that objections one sometimes 
hears against milk are scientifically groundless, and to provide you 
with evidence that there are effectively no substitutes for dairy foods 
if we are to meet the nutritional needs of our school age children.
The Role of Milk and Dairy Products
    Milk has been aptly described as nature's most perfect food. With a 
cost per calorie less than that of the average food in a typical 
American diet, milk packs an amazing variety of nutrients--calcium, 
vitamin D, phosphorus, protein, potassium, magnesium, as well as 
riboflavin, and a host of other vitamins. The nutrient most likely to 
be in short supply in a typical American diet is, as I think everybody 
recognizes today, calcium. Calcium certainly has received the most 
attention recently. The federal interagency task forces on US health 
goals, producing the plans ``Healthy People 2000'' and ``Healthy People 
2010'', in both reports, identified calcium deficiency as a problem of 
sufficient magnitude to warrant a national effort.
    This country is in the midst of what several federal agencies and 
health professional organizations have termed a ``calcium crisis''. 
After age 8 or 9, the typical American girl or woman gets half or less 
the recommended amount of calcium each day.
    An adequate calcium intake is essential, not just for the 
development of a strong skeleton, but for many other body systems. Low 
calcium intake has been convincingly shown to increase the risk or 
severity of hypertension, cardiovascular disease, diabetes, colorectal 
cancer, and even obesity, in addition to its generally recognized role 
in osteoporosis. Nor is the benefit deferred until later in life. There 
is a very large rise in the risk of forearm fractures occurring in 
children about the time of puberty. Parents commonly attribute those 
fractures to their child's being ``accident prone'', but we now know 
that it is the children with the thinnest bones who are most likely to 
break their bones, \1\ and we also know that calcium intake from 
beverages like milk is a factor in determining bone strength at that 
critical period of life.
    Obesity also affects children and adolescents. There is a growing 
body of evidence that an adequate calcium intake can help reduce that 
problem and assist efforts to lose weight. Low calcium diets, we have 
learned recently, send a signal to the fat cells to conserve energy 
\2\--exactly the wrong message in the face of national overconsumption 
and decreased physical activity.
    Moreover, calcium is not the only critical nutrient. Studies 
performed in my laboratory, and confirmed by many other investigators, 
show that diets low in dairy products are deficient not only in regard 
to calcium, but, on average, in four other nutrients as well. \3\ The 
most economical and effective way of remedying all these deficits in 
young people is to ensure the continued supply of milk in school meal 
programs.
The Myths about Milk
    The arguments raised against the healthfulness of milk are 
scientifically groundless. Jeanne Goldberg, the distinguished 
nutritionist and nutrition columnist published a paper on this topic in 
the official journal of the American Academy of Pediatrics in October 
2002 \4\ in which she refuted each of the milk myths currently 
circulating. (I am appending a copy of her paper to my testimony in the 
event the members of the Committee may wish to pursue this issue in 
greater depth.)
    Before I mention one of her key points, I think it is useful to 
recognize the origin of the anti-milk campaign--and it is literally a 
campaign. If one checks carefully, one finds that behind most of the 
stories is an organization called the People for the Ethical Treatment 
of Animals (PETA) and its sister organization, the Physicians Committee 
for Responsible Medicine (PCRM). These are animal rights organizations 
that oppose the use of any animal product--leather, fur, meat, or milk. 
At the time of the USDA's Dietary Guidelines for Americans, PCRM 
shamelessly played the race card, alleging that African Americans could 
not digest milk because of lactose intolerance. The facts are that 
people of all races are able to consume, digest, and benefit from milk 
without difficulty.
The Truth about Lactose Intolerance
    It is true that African Americans, Hispanics, Native Americans, and 
Oriental Americans commonly lose the enzyme that helps their bodies 
break down milk sugar sometime during childhood. This absence of a 
natural intestinal enzyme is tested for by consuming an amount of 
lactose equivalent to that in a quart of milk and detecting one of the 
byproducts in exhaled air. Many persons testing positive have 
absolutely no symptoms of lactose intolerance, and most can easily 
drink milk one serving at a time. Moreover, if persons who lack this 
enzyme continue to consume milk on a regular basis, their intestinal 
bacteria take over the job of digesting lactose for them. (Many of us 
tend to think of bacteria as ``germs'', with a negative connotation--
they cause disease. But that is true for only a minority of bacteria, 
most of which are actually quite helpful. In fact, if we had no 
intestinal bacteria at all, we would probably be malnourished because 
of the role bacteria play both in digesting our food for us and in 
manufacturing some nutrients that we need.)
    Dr. Dennis Savaiano, Dean of Nutrition at Purdue University in 
Indiana, has published extensively on this topic, and I commend you to 
his writings \5\ if you have further questions on this matter. In 
brief, he has been unable to find a single individual, of any race, 
whom he could not get to consume two to three servings of milk per day 
without difficulty. If they had never stopped drinking milk, then they 
never experienced lactose intolerance in the first place. If they had 
stopped, it takes only a few weeks, gradually building up milk intake, 
to get to the point where large quantities can be readily digested and 
utilized by the body, without discomfort.
    In fact, a case can be made that African Americans, despite their 
relatively strong skeletal structures, may actually need calcium more 
than do Caucasians, inasmuch as calcium is helpful in reducing blood 
pressure, and the protective effect seems to be larger in African 
Americans than in Caucasians. Recall that the consequences of high 
blood pressure, stroke and myocardial infarction, are major causes of 
morbidity and mortality in the African American population. In the 
widely acclaimed Dietary Approaches to Stop Hypertension (DASH) 
studies, \6\ \7\ supported by the National Heart, Lung, and Blood 
Institute, National Institutes of Health (NIH), the addition of 2-3 
servings of low fat milk to a diet rich in fruits and vegetables 
reduced blood pressure sufficiently that the researchers estimated that 
the result, on a nationwide basis, would be a reduction in stroke and 
heart attack risk in the range of 17-27 percent. This is a huge 
benefit, larger than can be attributed to most drugs, and the good news 
is that it is a benefit that comes at negative cost. As I have already 
indicated, dairy products cost less per calorie than most other foods 
in the diet. Moreover, it is important to bear in mind that high blood 
pressure commonly starts during the teen years; hence it is critically 
important that we maintain a high calcium intake in our school age 
children. In a study recently published in the Journal of the American 
Medical Association, young adults consuming a high dairy intake, 
followed over a 10 year period, experienced an astounding 62 percent 
reduction in development of hypertension. \8\
Soy Beverages are not Appropriate Substitutes for Milk
    Finally, arguments have been made that other beverages such as soy 
beverages should be given a status which would allow them to substitute 
for cow milk in federally sponsored meal programs. Some of this comes 
from the understandable economic interest of soy farmers and soy 
beverage makers, but some also comes from PCRM and PETA, as I have 
already noted. The truth of the matter is that soy beverages are 
wholesome and nutritious foods in their own right, but they are not 
substitutes for milk. Allowing them to serve as an alternative for cow 
milk conveys an inaccurate message. They do not have the nutrient 
profile of milk, and in order to compensate for some of their inherent 
deficiencies, soy beverage processors are required to add nutrients, 
such as calcium, to the native soy beverage. One might think that that 
would be sufficient to make them equivalent, but unfortunately that is 
not the case. Since calcium is regulated by the Food and Drug 
Administration as a food, and not as a drug, there are effectively no 
quality assurance standards with respect to the state of the calcium 
and other nutrients added as a fortificant to food.
    In my work as a calcium nutritionist, I have consulted extensively 
with (and done projects for) various cereal, beverage, and supplement 
manufacturers who have added calcium to their products. The most 
responsible of those manufacturers have taken pains to assure that the 
calcium they add is bioavailable--that is, can be assimilated by the 
body. (In fact, most of the tests for such bioavailability done 
nationally have been carried out in my laboratory.) I do not know what 
steps the soy beverage processors may have taken internally, but I have 
tested several of their products and am sorry to have to report to this 
Committee that the calcium that they contain is often not very 
assimilable. In a study published three years ago \9\ I found that, 
despite having the same calcium content as cow milk, fortified soy milk 
released substantially less of its calcium into the bloodstream. I have 
just this past summer tested four additional soy and rice beverages 
marketed as milk substitutes and fortified with extra calcium. In all 
of them the calcium settled down into the bottom of the carton on the 
supermarket shelf, as a heavy sludge, and although there was an 
instruction on the carton to ``shake before using'', our experience was 
that it would have taken a hardware store paint shaker to suspend the 
calcium in some of them. What is worse, isotopic tracer tests show that 
the calcium in some of these soy beverages is so coarse that it is 
unlikely to be readily absorbed even were it to be adequately suspended 
in the beverage itself? These are technological problems which the soy 
beverage manufacturers should have been able to solve if they had had a 
sufficient interest in doing so. But for the moment the evidence is 
clear that the soy beverages do not now provide calcium equivalent to 
that available from cow milk.
    In summary, milk provided to school children has played an 
important part in improving the nutritional status of the peoples of 
the United States and Great Britain for over 70 years. The need today 
is, if anything, greater than in the past. Milk is a safe, nutritious, 
and economical source of the nutrients our children need, and there are 
no effective alternatives.
    I thank you for the opportunity of offering this testimony and 
stand ready to answer any questions which you may have.
References Cited
 Goulding A, Cannan R, Williams SM, Gold EJ, Taylor RW, Lewis-Barned 
        NJ. Bone mineral density in girls with forearm fractures. J 
        Bone Miner Res 13:143-148, 1998.
 Zemel MB, Shi H, Greer B, DiRienzo D, Zemel PC. Regulation of 
        adiposity by dietary calcium. FASEB J 14:1132-1138, 2000.
 Barger-Lux MJ, Heaney RP, Packard PT, Lappe JM, Recker RR. Nutritional 
        correlates of low calcium intake. Clinics in Applied Nutrition 
        2(4):39-44, 1992.
 Goldberg J. Milk: can a ``good'' food be so bad? Pediatrics 
        110(4):826-832, 2002.
 Suarez FL, Savaiano D, Arbisi P, Levitt MD. Tolerance to the daily 
        ingestion of two cups of milk by individuals claiming lactose 
        intolerance. Am J Clin Nutr 65:1502-1506, 1997.
 Appel LJ, Moore TJ, Obarzanek E, Vollmer WM, Svetkey LP, Sacks FM, 
        Bray GA, Vogt TM, Cutler JA, Windhauser MM, Lin P-H, Karanja N. 
        A clinical trial of the effects of dietary patterns on blood 
        pressure. N Engl J Med 336:1117-1124, 1997.
 Vollmer WM, Sacks FM, Ard J, Appel LJ, Bray GA, Simons-Morton DG, 
        Conlin PR, Svetkey LP, Erlinger TP, Moore TJ, Karanja N. 
        Effects of diet and sodium intake on blood pressure: subgroup 
        analysis of the DASH-sodium trial. Ann Intern Med 135:1019-
        1028, 2001.
 Pereira MA, Jacobs DR Jr, Van Horn L, Slattery ML, Kartashov AI, 
        Ludwig DS. Dairy consumption, obesity, and the insulin 
        resistance syndrome in young adults. JAMA 287:2081-2089, 2002.
 Heaney Dowell MS, Rafferty K, Bierman J. Bioavailability of the 
        calcium in fortified soy imitation milk, with some observations 
        on method. Am J Clin Nutr 71:1166-1169, 2000.
                                 ______
                                 
    Chairman Boehner. Let me ask Ms. Cockwell about these 
children who don't select milk. I don't want to get you in the 
middle of this fight and I don't want to really be in the 
middle of it either.
    But why don't they take milk? Don't like it? Don't want to 
drink it? Lactose intolerant?
    Ms. Cockwell. Well, I can't say I have really surveyed the 
kids on the subject. Maybe when I go home that is one thing I 
should do, is check to see why they are not drinking their 
milk. We do have notes from doctors stating that certain 
children cannot drink milk, and we do, you know, provide other 
choices for them.
    Chairman Boehner. Is there a big demand in your school 
lunch program for soy milk?
    Ms. Cockwell. I haven't had any requests.
    Chairman Boehner. All right.
    Mr. Stenzel, why should schools make the distinction among 
fresh, frozen, or canned fruits and vegetables?
    Mr. Stenzel. Well, Mr. Chairman, I think we have heard in 
the earlier discussion by Under Secretary Bost that it is not 
what we put in front of kids, it is what they actually eat. And 
I think that is really where we have to look at these child 
nutrition programs now.
    Are we giving kids the quality of fruits and vegetables 
that they are going to choose on their own down the road? 
Maybe, if they are captive sitting there in front of that meal 
program and they have to eat it for some reason, that is one 
thing. But we know the real world is the competition outside 
the schoolroom.
    Chairman Boehner. But what about the cost?
    Mr. Stenzel. We have got to make sure the cost is equal. 
Let us go back to the Commodity Purchase Program. This year, 
this past year, USDA will have spent $92 million on dried 
fruits and nuts for the Child Nutrition Program. I find that 
astounding.
    Now, I will be the first to tell you that there are members 
of my own industry, who are right there knocking on the doors 
saying, Please take my surplus commodity, and it may be a dried 
or canned or other frozen product. On the other hand, I have 
never met a commodity that is not in oversupply. So I am not so 
sure whether those original messages from the 1930's and 1940's 
about propping up markets for dried fruits and nuts is the 
health and nutrition of our children.
    Chairman Boehner. What is the USDA going to do with the 
$200 million worth of fresh fruits and vegetables they are 
required to buy under the 2002 farm bill?
    Mr. Stenzel. That is precisely the issue, Mr. Chairman. And 
you know from the Ag Committee that you pushed through $200 
million in fruits and vegetables purchases. The Fruit and 
Vegetable Industry Advisory Committee that the Secretary 
appointed 2 years ago to advise her on infrastructure and 
issues with regard to our industry recommended increasing the 
share of fresh produce out of that $200 million. In the last 
several years, the amount of fresh produce out of the $200 
million, less than 5 percent.
    Less than 5 percent of all fruits and vegetables purchased 
were fresh. And those were potatoes, things that could be 
stored.
    We understand there are infrastructure problems in storage. 
The Department of Defense program is an excellent opportunity 
in order to deliver fresh produce to schools, but we simply 
have got to find a way to overcome the grain--.
    Chairman Boehner. But schools could buy fresh fruit and 
produce directly from their local vendors.
    Mr. Stenzel. Absolutely. Schools buy a tremendous amount of 
fresh produce. It is simply not being provided by the 
Department of Agriculture through the commodity programs.
    Chairman Boehner. Ms. Cockwell, let me ask you about the 
distribution program when it comes to things like beef, pork, 
poultry, where the Department goes out and buys it under 
section 32, they store it, they ship it somewhere where it is 
semiprocessed, and they distribute it through a school. Then 
the school sends it to a processor; and then the processor has 
to keep it segregated, then has to bring it back to you.
    It sounds like a very expensive way to do business. And I 
guess, in the end, it is still cheaper to you, buying those 
commodities through the USDA? I imagine you have to buy the 
same kind of commodities out on the open market.
    Ms. Cockwell. We are talking about--when we further process 
the items that USDA purchases is what it sounds like to me; is 
that your question?
    Chairman Boehner. Yes.
    Ms. Cockwell. OK. Sometimes when we do that it is to 
provide the item to the students or to our customers in the 
form that they will eat it, so that they do get the nutritional 
value that we are trying to convey to them every day in the 
school setting.
    Chairman Boehner. But you couldn't buy that directly from a 
commercial vendor at a comparable price?
    Ms. Cockwell. It depends on the product. Sometimes we can, 
sometimes the products aren't available, an equal product is 
not available on the commercial market.
    Chairman Boehner. Mr. Joslin, it sounds like Dr. Heaney 
doesn't like your idea of allowing soy milk to be reimbursable 
under the school lunch program. I give you an opportunity to--.
    Mr. Joslin. To respond?
    Chairman Boehner. To respond.
    Mr. Joslin. Well, I guess I will stand by my testimony.
    First of all, milk that is not consumed does not add in any 
way to the nutritional needs of the students. USDA already 
establishes as an alternative to milk--personally, if I had my 
druthers--like I said originally, I am a milk drinker. I was 
raised on a dairy farm. In an ideal world, every kid would 
consume their 8 ounces that is placed on their tray. But, 
again, there is a significant number of kids, not necessarily 
because of lactose intolerance, because of religious or 
cultural beliefs, who do not consume dairy milk. The American 
School Food Service Association, they represent 65,000 schools, 
have identified the need to include soy milk as an option, as a 
top priority.
    Chairman Boehner. But if we were to allow, if we were to 
suggest that there should be substitutes for milk, what about 
other fortified beverages?
    Mr. Joslin. Well, soy milk is the only one, first of all, 
that is recognized by the USDA and it has the adequate protein. 
It would be very cost-ineffective to include a protein in water 
or orange juice.
    Soy milk has a natural high-quality protein, which has 
already been recognized by the Food and Drug Administration as 
being heart healthy. It is a high quality. You just fortify it 
with calcium.
    The other thing--and I bought soy milk; I tried to drink 
it. I personally didn't care for it, but I didn't have it set 
up as cement in the bottom of my refrigerator. It sat in there 
for 2 or 3 weeks while I was trying to get used to it.
    Chairman Boehner. It sat in my refrigerator for my daughter 
for a long time, but I don't think I am going to try it. But 
having said that, that doesn't taint my objectivity here as the 
Chairman.
    I see that my time has expired. Let me recognize the 
gentleman from Michigan, Mr. Kildee.
    Mr. Kildee. Thank you very much, Mr. Chairman.
    Mr. Stenzel, since the inception of the breakfast program, 
I have not seen anything quite as exciting or as popular as the 
pilot program for fresh fruits and vegetables. I visited the 
Linden Middle School last May, this past May. And, first of 
all, you see no waste; it is all consumed. And it is--the 
school does a very good creative way of distribution of the 
fruits and vegetables. Students like it very, very much.
    You mentioned in your testimony that the lack of 
infrastructure investment by the Federal Government has a 
direct impact upon the ability of schools to introduce fresh 
fruits and vegetables into their school meals. Can you comment 
further on that?
    Mr. Stenzel. Mr. Kildee, thank you. I share your surprise 
and enthusiasm at the pilot program, quite naturally. I think 
going into it, none of us had any expectation that 99.5 percent 
of the schools would love the program. The students love it. We 
have really got a winner on our hands.
    Now, how do we transfer the lessons of that program to the 
overall commodity purchasing programs? We have to get more high 
quality, more fresh produce into those programs. Right now, 
most of those commodity purchases go through State warehouses, 
they have long delivery times, they sit. And that is one of the 
challenges for AMS in terms of its commodity purchasing 
programs.
    But I think rather than say that those are hurdles that we 
can't overcome, it really is time to find a way to overcome 
them. This pilot program allows schools to make local 
decisions, local choices, and they were able to get the fresh 
fruits and vegetables kids wanted.
    The Chairman asked about, don't some school districts buy 
produce on their own. Of course they do; and when they buy 
their own, it comes delivered every day. There are produce 
wholesalers and food service wholesalers who deliver great 
products to schools. We have just got to find a way to make 
sure that all of the money, the tax money that we are investing 
in these commodity purchase programs are giving kids what they 
want and need, and help them choose better, make better choices 
for their future rather than necessarily putting something in 
the program that they don't really want.
    Mr. Kildee. There seem to be three basic sources of fresh 
fruits and vegetables, three programs: the DOD fresh program, 
the commodity program allows the purchase of fruits and 
vegetables as part of the total commodities, and the Fruit and 
Vegetable Pilot Program. Of the three, the one that is most 
successful seems to be the pilot program.
    Mr. Stenzel. I would certainly say it has been the most 
exciting at the local level. But I will share the opinion of 
Ms. Cockwell that the DOD fresh program has also been extremely 
successful. It was really conceived to get around some of these 
infrastructure hurdles of having to store fruits and vegetables 
for long periods of time. So schools can now order from DOD 
whatever fresh produce that they want and have it delivered on 
a regular basis while it is still high quality.
    We need to expand that program from $50 million to the $100 
million level. In the farm bill, actually many of us thought 
that it was expanded by $50 million, not to $50 million. But 
AMS has a different interpretation of the statute than several 
of us who worked on it.
    But I would tell you that this pilot program, I think, says 
something else about experiential learning. It is not just 
about giving the kids food to eat; it is, every day we are 
taking about 5 minutes to give that kid an experience that 
makes them reflect on their own choices. We are not going to 
shut out the rest of the world and insulate them from the 
competitive foods, whether it is a la carte foods or Seven-
Eleven, but if every day they get a moment in time where they 
think, well, it does matter to me, there are consequences to my 
actions, I think that is what schools are all about, not just 
feeding kids, but helping them learn the context of their own 
food choices.
    Mr. Kildee. So the DOD fresh program and the pilot program 
really empower the school more to decide where to buy, when to 
buy, what to buy?
    Mr. Stenzel. I think that is absolutely right.
    Mr. Kildee. What I noticed at the Linden Middle School, 
they have a great distribution system, the students are in 
charge of all that. But in the classroom during the day, the 
fresh fruits and vegetables are there, available; and they are 
flexible enough where a student can go up during the third hour 
and grab a vegetable or some fruit. And as I say, there is 
virtually no waste that takes place.
    And for that $6 million, that is--I tell you, if we could 
increase that--I think that pilot programs generally come into 
being to see how they do work, and I think this has passed its 
final test very well. Thank you very much.
    Mr. Stenzel. Thank you.
    Mr. Osborne. [Presiding.] The gentleman from Minnesota, Mr. 
Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thank you, ladies and 
gentlemen, for being here. It is especially nice to have a 
Minnesotan from the university.
    By the way, Coach, the Gophers. We are doing all right out 
there. We are doing well out there. Thank you. To get an 
acknowledgment from the coach is very uplifting for all of us 
new Members of Congress.
    I guess just to prove I am fearless, if nothing else, I 
want to jump back into the discussion of milk and soy milk. In 
the interest of full disclosure, I have told a number of people 
that we have not a single dairy cow on the farm, but a number 
of acres of soybeans. Having said that, I, like Chairman 
Boehner, haven't spent much time drinking soy milk. And Mr. 
Joslin, because you have admitted that you are not a medical 
doctor and you are a farmer, I direct my question to Dr. 
Heaney.
    You in your testimony stated that--I gather the gist of it 
was that there really isn't lactose intolerance for a long 
period of time, that virtually anybody can drink milk; is that 
correct?
    Dr. Heaney. That is exactly correct. The biggest milk 
drinkers in the world are the Masai of East Africa. They have 
the same genetic background as African Americans. They have 
been tested for lactase nonpersistence, that is, the enzyme 
lack; and they have the same prevalence as lactase 
nonpersistence as North American African Americans. But they 
drink 5 or 6 quarts of milk per day without symptoms, without 
any symptoms.
    Mr. Kline. How does it help out my own granddaughter? For 
example, I noticed my kids, wisely on their part and good for 
us, dropped the kids off for a few days this summer; and my 
granddaughter drank soy milk and not dairy milk because my 
daughter-in-law was told that she couldn't drink milk.
    Where do those medical opinions come tomorrow?
    Dr. Heaney. Well, I can't tell you exactly where all 
medical opinions would come from, but there are such things as 
apparent milk intolerance in childhood, and pediatricians 
suggest trying something else in their place.
    The infant formulas which are soy-based are not the same 
type of a nutrient profile that the soy beverage that we are 
talking about as a possible substitute is concerned. These are 
all constructed foods, you understand. They are not natural 
foods in that sense.
    Soy is a marvelous nutritional source and, you know, I have 
been sitting here wondering why aren't we talking about putting 
textured soy protein into the spaghetti sauces, mixing it in 
with hamburger and some of the burgers, et cetera, or the meat 
loafs? A marvelous way to get good nutrition into our kids and 
use up a commodity at the same time.
    What I am concerned about is not that they shouldn't 
consume soy; I think it is a great idea. It is not just the 
equivalent of milk. And if we knew everything that was in milk, 
maybe we could put it in soy beverage, but we don't, and milk 
works better than any alternative.
    So to say that one is equivalent to the other is to convey 
misinformation to people.
    Mr. Kline. All right. Thank you, Doctor. I think that is 
extremely clear.
    Mr. Joslin, your understanding that under the current rules 
is, if a child does have a note from the doctor that they are 
lactose intolerant, that the soy milk is reimbursable. Is that 
correct?
    Mr. Joslin. That is my understanding.
    Mr. Kline. And your understanding, if the child for 
religious reasons is not supposed to drink milk, is that 
reimbursable?
    Mr. Joslin. It is my understanding that is not.
    Mr. Kline. OK. Thank you. But at a very minimum, I suppose 
you are saying that if for some reason, religious or medical 
intolerance, the ability to use soy milk instead of milk ought 
to be made easier; is that correct?
    Mr. Joslin. I think that is a fair summation.
    Mr. Kline. All right. We will let it rest at that.
    I am going to step back out of this battle, Mr. Chairman. I 
yield back.
    Chairman Boehner. [Presiding.] The Chair recognizes the 
gentleman from Nebraska, Mr. Osborne.
    Mr. Osborne. Thank you, Mr. Chairman.
    Apparently I am the only person in the room who has ever 
tried soy milk and have actually survived on it fairly well. 
And I have had some heart disease, and as a result, they have 
steered me in that direction. So I find that it is certainly 
tolerable and have used it for some time.
    I was just wondering if either of you gentlemen on the end 
there, who seem to be at odds, are aware of any comprehensive 
studies that have compared milk and soy milk. I know that each 
of you are advocates for either milk or soy milk. But are you 
aware of any studies that have been done where there have been 
a control group and some type of a double-blind or whatever 
study that has yielded some results?
    Mr. Joslin. My testimony has a whole list of studies at the 
end of it which talk about the benefits of soy milk, and 
several of them compare soy and cow's milk.
    Dr. Heaney. To answer your question directly, Coach, I know 
of no side-by-side study of the sort that you are talking about 
that would have compared the ability of either soy milk or 
cow's milk to support growth in children, which is what we are 
talking about.
    I don't think there is any question about the nutritional 
value of either product. The question is, are they equivalent, 
and I think they are not.
    Mr. Osborne. Well, thank you. That might be a topic of some 
academic research at some point. And it may be, you know, you 
don't want to use kids as guinea pigs, but apparently both are 
not sufficiently harmful that it would be doing any great harm 
to anybody.
    Mr. Joslin. May I add one point, though?
    Mr. Osborne. Mr. Joslin.
    Mr. Joslin. Again, the soy milk--my testimony today is not 
going after kids presently drinking milk. I hope everybody 
focuses on the significant minority of children that are not 
presently drinking dairy milk. That is what we are talking 
about. It is not--I don't want to inroad on the efforts of the 
dairy producers because I really believe in it.
    We had two people here mention, three with Mr. Osborne, 
mention that they either know somebody or have a family member 
or they themselves drink soy milk. It is a significant and 
growing number of our population that does not consume it. And 
offering a soy-based beverage as an alternative to people who 
either cannot, or choose not to, drink dairy milk, it is very 
appropriate for this Committee.
    Mr. Osborne. Well, thank you.
    Now, changing topics, Mr. Stenzel, what more needs to be 
done to improve USDA's capacity to handle fresh produce? You 
feel, evidently, there are some deficiencies. What would you 
suggest be done?
    Mr. Stenzel. I think in the commodity purchase programs, 
Mr. Osborne, the first thing has to be a commitment from the 
Department to substantially increase the percentage of fresh 
produce in those buys. We can't do business as usual.
    Now, how to do that means we have to overcome the hurdles 
of storage and distribution and transportation and those 
things, but I know with the American School Food Service 
Association there is a tremendous amount of interest in ways to 
do that, how we could provide for purchases under the 
entitlement programs and even the bonus buys in order to 
provide more fresh produce directly to the schools.
    We have got to find our ways around those warehousing and 
storage issues, but I think now is the time for smart people 
who are mutually motivated to put their heads together and find 
ways to do that.
    Mr. Osborne. Thank you, Mr. Chairman. I yield back.
    Chairman Boehner. I want to thank all of our witnesses 
today for your patience. We didn't think the first panel would 
go as long as it did. But we appreciate your testimony.
    And this concludes our hearing today. Thank you.
    [Whereupon, at 4:44 p.m., the Committee was adjourned.]
    [Additional material provided for the record follows:]

 Statement of Hon. George Miller, Ranking Democratic Member, Committee 
                     on Education and the Workforce

    Thank you, Mr. Chairman:
    <bullet>  I want to thank you for convening this full committee 
hearing in anticipation of the reauthorization of federal child 
nutrition programs.
    <bullet>  Since coming to Congress in 1975, I have been a steadfast 
advocate of child nutrition programs and the significant role they play 
in meeting the health and educational needs of our nations'' children.
    <bullet>  I have seen first hand--at school cafeterias, summer 
programs and WIC clinics--children who receive their only meals through 
our federal nutrition programs.
    <bullet>   I have seen the difference between the child who attends 
school on an empty stomach and the child who can sit down and have some 
cereal and juice in the classroom. The child who gets a free breakfast 
is more alert through the school day and can focus on learning. The 
child who does not eat breakfast faces a different day, and many times 
has difficulty making it through the day.
    <bullet>  I also know that we have an obligation to the children 
who participate in these programs, particularly in light of the growing 
epidemic of childhood obesity.
    <bullet>  The number of overweight children has doubled in the last 
two to three decades. This crisis spans age, race and gender groups.
    <bullet>  Because overweight adolescents have a 70 percent chance 
of becoming overweight or obese adults and with more than half of all 
students participating in the school lunch program, we have an 
excellent opportunity to address childhood obesity head on. Increasing 
the availability of nutritious foods in the commodities program will 
make a difference.
    <bullet>  If we are to truly leave no child behind and to narrow 
the achievement gap between the ``haves'' and ``have nots'', then every 
child should have access to a nutritious and safe school meal that 
contributes to a child's health and academic well being.
    <bullet>  The commodities that are made available to our schools 
for school meals are integral to this effort and I look forward to the 
testimony from our witnesses on how we can better meet the demands of 
schools and school food directors who face daily challenges from making 
meals more attractive so that children will eat them, to getting the 
right quantity of product when it is needed, to storage requirements 
for fresh fruits and vegetables.
    <bullet>  Mr. Under Secretary, welcome back. As this is the first 
time I have had the opportunity to hear from you during this 
reauthorization, I want to take advantage of your appearance during 
this hearing and ask you some questions about your plans for the 
reauthorization.
    <bullet>  Again, Mr. Chairman I look forward to the testimony of 
our witnesses and thank you for convening this hearing.
                                 ______
                                 

 Statement of Hon. Doc Hastings, a Representative in Congress from the 
                          State of Washington

    I am pleased to be able to provide my statement for the record on 
this very important issue.
    As you are aware, the 2002 Farm bill included a Fruit and Vegetable 
Pilot Program that provided $6 million to 107 schools with the goal of 
determining the best ways to increase fresh fruit and fresh vegetable 
consumption in elementary and secondary schools. Twenty-five schools 
were selected to participate in the pilot program in each of the states 
of Iowa, Indiana, Michigan and Ohio and seven schools of the Zuni 
Indian Tribal Organization in New Mexico. Schools provided fresh fruits 
and vegetables as snacks to children, many also provided nutritional 
education.
    An Economic Research Service (ERS) study of the pilot project 
showed that students involved in the program were more likely to eat 
more nutritious school lunch program meals and selected more fruits and 
vegetables as part of those meals. The study also showed that several 
schools implemented nutrition education activities to build on the 
healthy fruit and vegetable offerings. Teachers also reported that 
students ate less high calorie foods from vending machines, had greater 
attention spans and visited the nurse less.
    I have recently introduced legislation to expand this successful 
pilot program. H.R 2832, the ``Healthy Nutrition for America's Children 
Act'' is a common sense, practical way to introduce school children to 
the benefits of fresh fruits and vegetables.
    The media is full of reports about child obesity and proposed 
lawsuits against fast food companies. By using existing funds, H.R. 
2832 will enable selected schools in all 50 states the flexibility to 
design individual programs to encourage healthy eating habits through 
the purchase of fresh fruits and vegetables for snacks for children and 
in turn, promote a lifetime of healthy eating habits--something 
lawsuits won't ever accomplish.
    This program would use $75 million annually for five years. This 
funding would come from existing federal dollars provided in the 2002 
Farm Bill for fruit and vegetable purchases.
    The fruits and vegetables grown by American farmers are some of the 
finest in the world. My bill will teach children about the great 
products grown by our farmers and that these fresh fruits and 
vegetables play an important role in living healthy lives.
    Mr. Chairman, I urge you and your colleagues to include this 
proposal to expand the Fresh Fruit and Vegetable Snack Pilot Program in 
your legislation for reauthorization of the Child Nutrition Act and the 
Richard B. Russell National School Lunch Act.
                                 ______
                                 

Respnse to Questions Submitted for the Record from Eric M. Bost, Under 
 Secretary, Food, Nutrition, and COnsumer Services, Food and Nutrition 
                Service, U.S. Department of Agriculture

    1) a clarification on the Department's policy on offering dairy 
alternatives to students as part of the reimbursable meal. There is 
some confusion whether exceptions are made for medical issues only with 
a note from a medical professional, or whether exceptions also are 
granted for religious (or other reasons). If religious purposes also 
are acceptable, are notes also required and if so, by whom.
    <bullet>  In accordance with Section 9(a)(2) of the Richard B. 
Russell National School Lunch Act, schools must offer students milk as 
part of a reimbursable lunch. All milk served in the program must be 
pasteurized fluid milk that meets State and local standards for such 
milk.
    <bullet>  Program regulations require a substitution for children 
with disabilities who are unable to consume the milk or other food 
items. The substitution must be in writing and prescribed by a licensed 
physician identifying the food or foods and the food or foods of choice 
that must be substituted.
    <bullet>  The regulations permit and FNS encourages accommodations 
for children that are not considered disabled but have special dietary 
needs such as milk intolerance. Schools must have a statement from a 
recognized medical practitioner (e.g., a licensed physician, 
physician's assistant, nurse practitioner or other health professional 
specified by the State agency) that, (1) identifies the medical or 
other special dietary need which restricts the child's diet, (2) 
stipulates the food or foods to be omitted from the child's diet and 
the food or choice of foods to be substituted.
    <bullet>  FNS issued instructions on variations in the meal 
requirements for religious reasons for Jewish schools and Seventh Day 
Adventist Schools. For Jewish schools, juice may be substituted for the 
milk, when necessary to meet the Jewish Dietary Law or the milk may be 
offered at a different time than the meal. These schools must notify 
the State agency that they are implementing a variation offered in the 
instruction.
    <bullet>  As a reminder, students can decline fluid milk under 
``offer-versus-serve'' (OVS). OVS permits students to decline certain 
food items that they do not intend to consume.
    <bullet>  FNS encourages and program regulations specify that 
schools should consider ethnic and religious preferences when planning 
and preparing meals.
       Summary of the Recommendations for Certification Accuracy
    At the time of his testimony, Under Secretary recommended the 
following certification accuracy provisions:
Enhanced verification
    <bullet>  Enhance verification of paper-based applications by 
drawing on an increased verification sample including both a random 
sample and one focused on error-prone applications in each school and 
completing the verifications within 45 days. (Note: Although not 
mentioned specifically, the original thought was a sample size increase 
from 3% to somewhere between 10-15%; this enhanced verification sample 
was to be part of a comprehensive approach to improve both 
certification accuracy and access to eligible children. The 
administration considers the issue of sample size to be negotiable, but 
is committed to an increase in some measure that provides for improving 
certification accuracy.)
    <bullet>  Provide funding to support the enhanced verification 
activities and other improvements to the certification process.
Provisions to improve access by eligible children
    <bullet>  Require direct certification for free meals through the 
Food Stamp Program, to improve certification accuracy over paper 
applications while increasing access for the lowest-income families and 
reducing the application and verification burden for families and 
schools.
    <bullet>  Permit households to submit a single application covering 
all children attending school, and provide for yearlong certifications. 
These improvements reduce certification and verification burden while 
reducing potential for error.
    <bullet>  Minimize barriers for eligible children who wish to 
remain in the program by requiring a robust, consistent effort in every 
State to follow-up with those who do not respond to verification 
requests, including a minimum of three contacts in writing and by 
phone.
Research
    <bullet>  Initiate a series of comprehensive demonstration projects 
to test alternative mechanisms for certifying and verifying applicant 
information, including use of data matching that identifies eligible 
and ineligible households and a nationally representative study of 
certification error and the number of dollars lost to program error.
Additional ideas regarding ensuring protections for eligible children
    The Administration is committed to a balance of access to program 
benefits with efforts to ensure program integrity in the National 
School Lunch Program. Examples of opportunities might include data 
matching with other means-tested programs; school flexibility regarding 
the review process (for example, specific populations such as homeless 
children); and increased technical assistance and training for schools. 
FNS is interested in considering various safeguards that support the 
guiding principles outlined in Under Secretary Bost's testimony. Those 
guiding principles are:
    1.  Ensuring access to program benefits for all eligible children. 
Broadly speaking, we propose streamlining the application process and 
the administration of programs to minimize burdens on both schools and 
parents;
    2.  Supporting healthy school environments to address the epidemic 
of overweight and obesity among our children by providing financial 
incentives to schools that meet dietary guidelines and specific 
criteria; and
    3.  Improving the accuracy of program eligibility determinations, 
while ensuring access to program benefits for all eligible children, 
and reinvesting any program savings to support improved program 
outcomes.
                                 ______
                                 

      Statement of the American Commodity Distribution Association

    Chairman Boehner and members of the Committee, the American 
Commodity Distribution Association (ACDA) appreciates the opportunity 
to comment on the commodity distribution program. ACDA is a non-profit 
professional trade association devoted to the improvement of the U.S. 
Department of Agriculture's (USDA) commodity distribution system. ACDA 
members include state agencies that distribute USDA-purchased 
commodities, agricultural organizations, recipient agencies such as 
schools, and allied organizations. ACDA members are responsible for 
distributing over 1.5 billion pounds of USDA-purchased commodities 
annually to programs such as the National School Lunch Program.
    Our statement focuses on three important issues to the commodity 
distribution program: the important role of ``bonus'' commodities; 
efforts to ensure the safety of USDA-purchased food; and the need to 
continue to streamline program operation. Attached for your 
consideration is a copy of ACDA's legislative issue paper for this 
year. The issue paper outlines a number of additional topics, such as 
establishing a commodity reimbursement for the School Breakfast 
Program, that we believe would also help improve the operation of the 
commodity distribution program.
Bonus Commodities
    Through State agencies, USDA distributes well over 1.5 billion 
pounds of food annually, most of which goes to schools. Other 
recipients of USDA-purchased commodities include the Child and Adult 
Care Food Program, the Summer Food Service Program, the Nutrition 
Program for the Elderly, the Food Distribution Program on Indian 
Reservations, and the Emergency Food Assistance Program. One of the 
strengths of the Department's commodity distribution system is its 
ability to move commodities efficiently. This efficiency is largely 
dependent on the volume, not the dollar value, of product flowing 
through the system. The more cases of product that move through the 
system, the more cost effective it is for States to maintain their 
distribution system.
    For a variety of reasons, the cost of operating a commodity 
distribution system at the State level increases every year, and the 
volume of product moving through the system has not increased enough to 
offset these costs. As a result, States are finding it more and more 
difficult to provide services that are expected by our customers--the 
school districts. Complicating this, the Ticket to Work and Work 
Incentives Improvement Act (Public Law 106-170), passed in late 1999, 
would make it considerably more difficult to operate distribution 
programs at the State level by significantly reducing the volume of 
commodities available to schools and other programs.
    As you know, the Richard B. Russell National School Lunch Act 
requires that at least 12 percent of all school lunch assistance be in 
the form of USDA commodities. P.L. 106-170 amended the School Lunch Act 
to require USDA to include the value of bonus commodities when 
calculating whether or not the 12 percent requirement has been 
satisfied. On a per student basis the cut imposed by P.L. 106-170 might 
have appeared to be small. However, the overall impact on the commodity 
distribution system would be disastrous. This change could result in a 
decrease of at least 80 million pounds of commodities per year.
    Fortunately, this cut has never been realized as Congress has 
forestalled its implementation through either the annual appropriations 
process or other legislation. The most recent fix was enacted as part 
of the 2002 Farm Bill, which corrected this issue through Fiscal Year 
2003. Of course, fiscal year 2003 ended last month, and similar action 
by Congress is necessary to restore this funding for Fiscal Year 2004. 
ACDA hopes that Congress can enact a similar fix for the current fiscal 
year.
Food Safety
    It is often said the United States enjoys the safest food supply in 
the world. USDA commodity foods are no exception. These products are 
subject to the same inspection and regulatory requirements as the 
entire U.S. food supply. Additionally, USDA contract specifications are 
often more rigorous than commercial specifications and require federal 
employees to perform on site sanitation reviews and grading functions. 
Although the federal employees conducting these reviews are not 
directly charged with monitoring food safety, they are required to 
report food safety concerns to the appropriate federal agency. The end 
result is that there is typically a greater federal inspection presence 
in plants that sell product to USDA.
    The Department's commodity distribution program has a history of 
evolving to meet the changing needs of recipient agencies and American 
agriculture. One of the most significant changes began when USDA 
embarked on a broad effort to further improve the way it purchases and 
distributes food for the nutrition assistance programs. Part of this 
effort was a review of the process through which USDA initiates a 
recall of food it has purchased and distributed to recipient agencies.
    In July 2001, the Department issued a new policy to streamline this 
process. In summary, the updated recall policy:
    <bullet>  Institutionalized USDA's commodity food recall process;
    <bullet>  Streamlined and clarified communications between USDA and 
other federal agencies that may be involved in a recall, such as the 
Food and Drug Administration (FDA);
    <bullet>  Streamlined and expedited communications between USDA, 
State distributing agencies, and recipient agencies;
    <bullet>  Ensures the removal of adulterated product from recipient 
agencies as soon as possible; and
    <bullet>  Ensures appropriate reimbursement of costs to State and 
recipient agencies and expedites product replacement.
Improvements to the Commodity Distribution Program
    Over the past 20 years the commodity distribution program has 
improved significantly. Like any program, however, there is always room 
for additional improvement. USDA undertook a reengineering effort in 
1999 to identify ways to further improve the program so that it can 
continue to meet the needs of its key constituents--agricultural 
producers and consumers.
    This reengineering project has resulted in a number of important 
improvements. For example, USDA is in the process of rolling out an 
Electronic Commodity Ordering System (ECOS), which will, among other 
things, utilize the internet to facilitate the ordering and delivery of 
USDA commodities. Additionally, USDA pilot tested a number of 
initiatives intended to streamline the reprocessing of USDA commodities 
for schools.
    USDA should be applauded for its efforts in this area, and we are 
hopeful that the Department will continue to make additional 
improvements. Additional improvements will benefit all the stakeholders 
in the commodity distribution program--from the agricultural producers 
to recipient agencies.
Conclusion
    ACDA appreciates the opportunity to comment on these important 
issues, and we look forward to working with the Committee as the 
reauthorization process continues.
2003 ISSUE PAPER
    The American Commodity Distribution Association (ACDA) is a non-
profit professional trade association devoted to the improvement of the 
U.S. Department of Agriculture's (USDA) commodity distribution system. 
ACDA members include state agencies that distribute USDA commodities, 
agricultural organizations, recipient agencies, such as schools, and 
allied organizations, such as nonprofit anti-hunger groups. ACDA 
members are responsible for distributing over 1.5 billion pounds of 
USDA purchased commodities annually to programs such as the National 
School Lunch and Breakfast Programs, the Emergency Food Assistance 
Program (TEFAP), the Summer Food Service Program, the Commodity 
Supplemental Food Program, and the Child and Adult Care Food Program.
    ACDA believes Congress and USDA should consider several issues as 
they review how to further improve these programs. These 
recommendations will strengthen the commodity programs, and ensure that 
they will continue to meet the needs of agricultural producers and 
recipient agencies.
    Ensure USDA can continue to make bonus purchases. Nearly $1 billion 
has been transferred from the Section 32 account to provide much needed 
assistance to livestock producers. Section 32 funds have traditionally 
been the source utilized by USDA to make bonus purchases to support 
agricultural prices, and there is significant concern that the 
Department will not be able to make these purchases this year. If the 
Section 32 account is not replenished through legislative action, the 
Department must ensure that it can use other funding mechanisms to make 
bonus buys as needs arise.
    Restore the minimum level of commodity assistance for the School 
Lunch Program. The Richard B. Russell National School Lunch Act (NSLA) 
requires that at least 12% of federal assistance provided through the 
School Lunch Program be in the form of commodities. Starting with 
Fiscal Year 2004, bonus commodities--commodities purchased through 
USDA's price support programs--will be counted toward this requirement. 
This will result in a budget cut of at least $55 million per year, 
which amounts to over 80 million pounds of commodities. ACDA urges 
Congress to amend the NSLA to avoid this budget cut.
    Establish commodity assistance for the School Breakfast Program. To 
encourage efforts to expand the availability of the School Breakfast 
Program, Congress should provide commodity assistance for this program 
at a level of five cents per reimbursable breakfast served. This would 
provide an excellent avenue to assist the farm economy by removing 
surplus food, and would provide much needed assistance to this program.
    Revise the formula for allocating State Administrative Expense 
(SAE) funds. In most states, the amount of school lunch SAE funds 
allocated to the commodity program is not sufficient to meet regulatory 
requirements and satisfy the expectations of schools. As a result, 
recipient agencies are often required to pay a service and handling fee 
to receive USDA-purchased commodities. Congress should consider 
amending the NSLA to ensure a more equitable allocation of SAE funds at 
the state level to fund the food distribution program.
    Improve nutrition integrity by encouraging the consumption of 
reimbursable meals. The Surgeon General, among others, has recognized 
that the health effects of obesity and overweight are issues of 
national importance. The school meal programs are a healthy alternative 
to other options available to schoolchildren, and Congress should fund 
nutrition education efforts that encourage the consumption of program 
meals.
    Strengthen the Emergency Food Assistance Program (TEFAP) and the 
Commodity Supplemental Food Program (CSFP). Over the past two years, 
the declining economy has resulted in increased demand for emergency 
food assistance. At the same time, private sector food donations in 
many areas have decreased. Both of these factors are straining the 
budgets of local community action agencies and food banks. To help 
alleviate this problem, Congress should appropriate the fully 
authorized amount of funding for TEFAP storage and distribution costs--
$60 million. For the same reasons, adequate funding for CSFP is 
necessary to ensure that the addition of new state programs does not 
compromise existing programs.
                                 ______
                                 

Statement of Neal D. Barnard, M.D., President, Physicians Committee for 
                          Responsible Medicine

    The Physicians Committee for Responsible Medicine (PCRM) is a 
national, nonprofit health organization that promotes preventive 
medicine, especially good nutrition. PCRM recommends modifications to 
the National School Lunch Act in order to meet the goals of 
significantly reducing childhood obesity and promoting the long-term 
health of American children and adolescents. Last fall, PCRM launched 
the Healthy School Lunch Campaign in preparation for the upcoming 
reauthorization of the Act. The campaign's key message is simple: Foods 
served as part of the school lunch program should promote the health of 
all children.
    As you know, when the National School Lunch Program (NSLP) was 
established in 1946, its goal of safeguarding the health and well-being 
of the nation's children grew out of concerns with malnutrition caused 
by a shortage of food. Today, we are concerned with over-consumption. 
In fact, in a December 8, 2002, article by the conservative think tank 
American Enterprise Institute entitled We're Feeding the Poor as if 
They're Starving, it is noted that ``the central nutritional problem 
facing the poor--indeed, all Americans--is not too little food, but too 
much of the wrong food.''
    The school lunch program has not kept pace with what we have 
learned about health and nutrition. Rather, the foods given to children 
under the guise of good nutrition--chili-cheese dogs, pizza, 
cheeseburgers, chicken nuggets, dairy milk (all of which are too high 
in saturated fat and cholesterol and too low in fiber- and nutrient-
rich fruits, vegetables, whole grains, and legumes)--have played a role 
in helping to create a generation of obese and overweight children. Not 
only did the Surgeon General recently report that the prevalence of 
obesity has nearly tripled for adolescents in the past two decades, but 
the Centers for Disease Control and Prevention found that 60 percent of 
overweight five- to ten-year-olds already have at least one risk factor 
for heart disease, such as raised blood pressure or insulin levels. A 
shift away from unhealthy foods in favor of encouraging children to 
consume healthy and good-tasting food from plant sources would be a 
tremendous first step in addressing this epidemic.
    Currently, the USDA commodities program, which supplies food items 
to the NSLP, puts the needs of U.S. agriculture ahead of the health 
needs of children and provides few low-fat, plant-based entree 
ingredients for use in school lunch menus. Every year, the USDA buys 
millions of pounds of excess beef, pork, milk, and other meat and dairy 
products to bolster sagging prices in the animal agriculture industry. 
These high-fat, high-cholesterol products are then distributed at very 
low cost through the NSLP, where they fuel many children's life-long 
struggle against obesity and heart disease.
    Meanwhile, the USDA drops the ball on providing healthy foods. For 
example, it costs a school district more than twice as much to provide 
a high-fiber, low-fat, cholesterol-free veggie burger (approximately 
$0.55 each) than it does to provide a higher-fat, fiber-free hamburger 
(approximately $0.23 each). That's because the government subsidizes 
hamburger meat, but not veggie burgers. In 2001, of the two government 
commodity programs that provide food directly to schools, $518.1 
million was spent on cheese, beef, poultry, and eggs, and only $161.1 
million was spent on fruits and vegetables.
    Also, despite the public's growing appetite for non-dairy beverages 
and the health community's recognition of the health benefits of these 
products, the NSLP does not allow calcium-fortified soymilk or calcium-
fortified orange juice to be provided as a reimbursable option for 
school lunches. In other words, if soymilk or another non-dairy 
beverage is offered in place of cow's milk, the USDA will not reimburse 
school districts for the entire meal. This forces schools to shoulder 
the financial burden of providing these beverages as an alternative to 
cow's milk. Our organization petitioned the USDA to change its 
regulations to make non-dairy beverages available in the school lunch 
program as a reimbursable option regardless of whether the child has 
been diagnosed as lactose intolerant, but the USDA responded that it 
was prevented from doing so until Congress amends the statute. For 
these reasons, PCRM is asking that the commodities program be 
restructured to provide foods that offer health benefits to children in 
government-sponsored nutrition programs and that a calcium-rich, non-
dairy beverage be made available to children in schools and other child 
nutrition programs regardless of medical need.
PCRM recommends the following specific changes in the National School 
        Lunch Act:
    1)  That 42 U.S.C. Sec. 1755 Direct expenditures for agricultural 
commodities and other foods be amended to delete subsection (c)(1)(D) 
that requires the Secretary of Agriculture to ``give special emphasis 
to high protein foods, meat and meat alternates (which may include 
domestic seafood commodities and their products).'' In its place should 
be a provision that requires the Secretary of Agriculture to 
restructure the commodities program to provide foods that offer health 
benefits to children in government-sponsored nutrition programs. 
Instead of buying up beef, pork, chicken, butter, cheese, processed 
meats, and other foods high in saturated fat, USDA purchases should 
include healthy, low-fat, high-fiber, nutrient-rich commodity foods in 
quantities that schools can use.
    RATIONALE: While the USDA has the goal of providing nutritious 
meals for our nation's youths, it also aims to boost agricultural 
industries that produce foods that contribute to obesity, heart 
disease, and cancer. On average, only one-third of foods on the 
commodity foods list are healthy, low-fat, cholesterol-free, fiber-rich 
fruits and vegetables. Many of the healthier meat substitutes are not 
available in the commodity food program and cost the schools more to 
include in their menus.
    2)  That the nutritional requirements as set forth in 42 U.S.C. 
Sec. 1758 be amended to require that schools offer calcium-rich, non-
dairy beverages such as calcium-fortified juice, soymilk, or rice milk 
daily as a milk alternate, regardless of whether a student shows a 
medical, religious, or dietary need. RATIONALE: Numerous scientific 
studies link the consumption of cow's milk to obesity, anemia, ear 
infections, constipation, respiratory problems, heart disease, and some 
cancers. Due to the dangers of dairy product consumption, cow's milk 
with added lactase, such as Lactaid'' milk, is not a suitable 
alternative. And, as people of ethnicities other than Caucasian are 
typically unable to digest dairy sugar, relying on dairy products as 
the sole source of calcium in child nutrition programs favors children 
of Northern European descent. According to the American Academy of 
Family Physicians'' 2002 report on lactose intolerance, 60 to 80 
percent of blacks, 50 to 80 percent of Hispanics, 80 to 100 percent of 
American Indians, 95 to 100 percent of Asians, and 6 to 22 percent of 
American whites are lactose intolerant. Lactose intolerance, which is 
sometimes apparent as early as age three, causes flatulence, cramping, 
diarrhea, and bloating after eating dairy products. Therefore, Congress 
should authorize the USDA to reimburse school districts for offering 
non-dairy, calcium-fortified beverages in the NSLP as well as all other 
federal nutrition programs.
    A diet drawn from varied plant sources easily satisfies the Dietary 
Guidelines for Americans and, in particular, satisfies calcium and 
protein requirements, providing all essential amino acids, even without 
intentional combining or ``protein complementing.'' There is plenty of 
protein in whole grains, vegetables, and legumes, and plenty of calcium 
in green leafy vegetables, fortified juices, and other foods with 
health advantages that meat and dairy products lack. With the approval 
of Alternate Protein Products in the NSLP, schools are now able to 
provide children with meatless, cholesterol-free entries. PCRM 
recommends that schools offer vegan entries, such as veggie or soy 
burgers, bean and rice burritos, and veggie chili, on a regular basis 
so that children will be presented with nutritious selections, develop 
tastes for health-promoting foods, and acquire healthy eating habits 
that will stay with them for the rest of their lives.
    In summary, the Physicians Committee for Responsible Medicine urges 
you to mandate that meals served under the NSLP include a non-dairy, 
calcium-rich beverage option and contain only healthy, nutrient-dense 
foods, so that children have no choice but to eat a nutritious meal. 
The federal government should stop putting agricultural interests ahead 
of children's health. It is abundantly clear that providing the best 
possible foods for children--vegetables, fruits, and other vegetarian 
foods--will pay enormous dividends, helping to ensure their better 
health for years to come. Thank you for your attention to this very 
important health issue.
                                 ______
                                 

  Follow-Up Statement of Neal D. Barnard, M.D., President, Physicians 
                   Committee for Responsible Medicine

    Physicians Committee for Responsible Medicine (PCRM) submits this 
additional testimony for the record on ``Improving the Quality and 
Efficiency of Commodity Distribution to Federal Child Nutrition 
Programs.''
    As noted in our previous submission, dated 10/7/03, PCRM is a 
national, nonprofit health organization that promotes preventive 
medicine, especially good nutrition. Last fall, PCRM launched the 
Healthy School Lunch Campaign in preparation for the upcoming 
reauthorization of the National School Lunch Act (NSLA). The campaign's 
key message is simple: Foods served as part of the school lunch program 
should promote the health of all children. As part of the campaign, 
PCRM is encouraging lawmakers to amend the NSLA to make non-dairy 
beverages, such as nutritious, low-fat, and cholesterol-free soymilk, a 
reimbursable option in the National School Lunch Program (NSLP).
    A reimbursable non-dairy beverage alternative offered in the 
National School Lunch Program (NSLP) is necessary because many U.S. 
children are lactose intolerant (mainly children of ethnicities other 
than Caucasian), allergic to milk, or choose to avoid milk for other 
reasons, such as taste preferences, religious or ethical 
considerations, or health concerns. Cow's milk and other dairy products 
are not necessary in children's diets for bone health and can, in fact, 
be harmful to their health. Some cancers, asthma, allergies, ear 
infections, constipation, and diabetes have all been linked to the 
consumption of dairy products mainly due to the proteins in milk, not 
the milk sugar lactose. A number of studies have linked milk 
consumption with prostate cancer in older men, presumably due to milk's 
effect on hormones. All children, whether or not they experience 
discomfort or ill health upon consuming dairy products, should have the 
opportunity to choose a nutritious, non-dairy beverage such as soymilk 
through the NSLP.
    Children in the United States are becoming increasingly overweight, 
and rates of diabetes are on the rise--largely because we consume such 
a high-fat, calorie-dense diet. Whole and even ``low-fat'' milks 
contain saturated fat, sugar (lactose and added sucrose in flavored 
milks), and cholesterol, which collectively contribute to the 
development of obesity, heart disease, and diabetes. As reported by 
Duane Alexander, director of the National Institute of Child Health and 
Human Development, fluid milk is the number-one single food source of 
saturated fat and total fat in a child's diet. To reduce these health 
risks, children should be encouraged or at least given the opportunity 
to obtain calcium from dark green, leafy vegetables (calcium 
absorption: 52-59%), broccoli (calcium absorption: 61%), beans (calcium 
absorption: 22%), fortified juices (calcium absorption: 38%), and 
fortified soy-, rice, almond, and oat milks (calcium absorption: 24 - 
34%)--foods that provide highly absorbable calcium and a variety of 
health advantages without the fat and cholesterol in cow's milk 
(calcium absorption: 32%). Hence, children should, at a minimum, be 
able to choose an enriched soymilk beverage in the school cafeteria.
    Enriched soymilk is delicious and can help to meet the nutritional 
needs of children. Enriched soymilk contains protein, calcium, and 
vitamins A and D at levels comparable to cow's milk, but without the 
disadvantageous saturated fat, cholesterol, and hormones found in dairy 
milk. In comparison, an 8-ounce serving of 1/2% fat chocolate cow's 
milk contains:
    <bullet>  150 calories
    <bullet>  1 gram of saturated fat
    <bullet>  10 milligrams of cholesterol
    <bullet>  300 milligrams of calcium
    <bullet>  230 milligrams of sodium
    <bullet>  0 grams of fiber
    <bullet>  24 grams of sugar
    An 8-ounce serving of Silk chocolate soymilk contains:
    <bullet>  135 calories
    <bullet>  <0.5 grams of saturated fat
    <bullet>  0 milligrams of cholesterol
    <bullet>  300 milligrams of calcium
    <bullet>  96 milligrams of sodium
    <bullet>  1 gram of fiber
    <bullet>  17 grams of sugar
    In addition to the nutritional superiority of soymilk to cow's 
milk, children will choose and consume soymilk when it is offered to 
them in the lunch line. A pilot study conducted by PCRM at Dillard 
Elementary School in Broward County, Florida, demonstrated the 
acceptability of soymilk among school children. The pilot study 
included four weeks where both vanilla and chocolate Silk'' soymilk 
were offered in the lunch line next to the variety of dairy milks ( +% 
chocolate milk, 1% regular milk, and whole regular milk). Data was 
collected on how many children selected soymilk and cow's milk from the 
lunch line, as well as how much milk was consumed by weighing the 
contents of all milk cartons as children threw away their lunch trays. 
At the end of 4 weeks, one-third of the children were choosing either 
vanilla or chocolate soymilk over cow's milk, which represented a 2.5% 
increase in total milk selection from the lunch line compared with milk 
selection prior to the inclusion of a soymilk option (97.8% of kids 
chose some kind of milk after the introduction of soymilk). Regarding 
consumption, at the end of four weeks, an average of 61% of the soymilk 
chosen was consumed, and 53.5% of the cow's milk chosen was consumed. 
Children in Dillard Elementary School were delighted to have the 
soymilk option in their lunch line as many of them are African American 
and unable to tolerate cow's milk. One child stated, ``I can't have 
regular milk because I'll be on the toilet all day.'' This fall, PCRM 
will conduct three additional lengthier soymilk acceptability studies 
in elementary schools.
    In summary, the Physicians Committee for Responsible Medicine urges 
you to allow meals served under the NSLP that include a non-dairy, 
calcium-rich beverage option, such as enriched soymilk, to be 
reimbursable in order to accommodate the needs of all students. 
Enriched soymilk is a nutritionally replete and healthy beverage that 
is well accepted by elementary school children. Moreover, the inclusion 
of soymilk in elementary school lunch lines may very well increase 
calcium consumption from beverages in the National School Lunch 
Program.
    Thank you for the opportunity to provide this additional testimony. 
Please visit our Web site at www.HealthySchoolLunches.org or contact me 
directly for further information.
References:
    1.  Chan JM, Stampfer MJ, Ma J, Gann PH, Gaziano JM, Giovannucci 
EL. Dairy products, calcium, and prostate cancer risk in the 
Physicians' Health Study. Am J Clin Nutr. 2001 Oct;74(4):549-54.
    2.  Feskanich D, Willett WC, Colditz GA. Calcium, vitamin D, milk 
consumption, and hip fractures: a prospective study among 
postmenopausal women. Am J Clin Nutr. 2003 Feb;77(2):504-11.
    3.  Keller JL, Lanou AJ, Barnard ND. The consumer cost of calcium 
from food and supplements. J Am Diet Assoc. 2002;102:1669-71.
    4.  Lloyd T, Chinchilli VM, Johnson-Rollings N, Kieselhorst K, 
Eggli DF, Marcus R. Adult female hip bone density reflects teenage 
sports-exercise patterns but not teenage calcium intake. Pediatrics. 
2000 Jul;106(1 Pt 1):40-4.
    5.  Messina V, Mangels AR. Considerations in planning vegan diets: 
children. J Am Diet Assoc. 2001 Jun;101(6):661-9.
                                 ______
                                 

Statement of Nancy E. Foster, President and CEO, U.S. Apple Association

    The U.S. Apple Association (USApple) is the national trade 
association representing all segments of the apple industry. Members 
include 40 state and regional apple associations representing the 7,500 
apple growers throughout the country, as well as more than 400 
individual firms involved in the apple business.
    The U.S. apple industry has long partnered with the federal 
government to provide fresh-market apples and processed apple foods to 
federal child nutrition programs including the National School Lunch 
Program. Through this partnership, our industry has supplied wholesome, 
nutritious apples and apple products to our nation's schoolchildren 
through routine Section 6 purchases, while Section 32 surplus commodity 
purchases have served to remove excess supplies of apples and apple 
products from the market during years when the industry has faced 
market surplus. This relationship represents a ``win-win'' for all 
participants: the children who benefit from these programs enjoy 
delicious, nutritious U.S. apples and apple foods, the federal 
government receives the highest-quality apples and apple products 
available anywhere in the world, and the U.S. apple industry benefits 
from increased demand.
    The federal government is a very important customer of the U.S. 
apple industry. Over the past five years, the U.S. Department of 
Agriculture (USDA) has purchased an average of 350,000 cartons of 
fresh-market apples with an average value of $4.2 million per year, and 
has purchased 87.3 million pounds of apple juice, sauce and canned/
frozen apple slices with an average value of $25.2 million per year. 
These apples and apple products are sourced from suppliers across the 
country, who are proud to provide healthful apples and apple products 
to schoolchildren.
    However, our children are at risk for overweight and obesity, and 
our nation is losing its battle against these health-threatening 
conditions. Yet, the science is clear that eating more fruits and 
vegetables, including apples, can and should be part of the solution to 
that problem. Federal child nutrition programs represent an 
extraordinary opportunity to elevate child nutrition and health policy 
to a higher national priority, by moving fruits and vegetables, 
including apples and apple products, more to the ``center of the 
plate.''
    Apples are the original icon of health, and modern research is 
demonstrating that apples and foods made from them may in fact provide 
a ``whole body'' range of health benefits. Nutrient-dense, versatile, 
great-tasting U.S. apples, fresh-cut apple slices, and processed apple 
products, including 100 percent U.S. apple juice and apple cider, 
applesauce and canned slices, can play an important role in improving 
the health of the children who benefit from our country's child 
nutrition programs, while improving the U.S. apple industry's ailing 
economic health in the process.
    As this committee considers how to improve the efficiency and 
quality of commodity distribution to federal child nutrition programs, 
USApple urges that legislation to reauthorize these programs include 
the following three priorities:
    <bullet>  Increase federally-funded purchases of produce, including 
apples and apple products, such as through an expanded USDA Fruit and 
Vegetable Pilot Program;
    <bullet>  enhance the infrastructure needed to support federal 
purchases of produce, including apples and apple products; and
    <bullet>  create greater opportunities through federal child 
nutrition education programs to promote the health benefits of produce 
consumption and the ``5 to 9 A Day'' message.
Fruit and Vegetable Pilot Program
    As you know, the 2002 farm bill-authorized Fruit and Vegetable 
Pilot Program provided $6 million in Section 32 surplus commodity 
removal funds to 107 schools in Indiana, Michigan, Iowa, Ohio and the 
Zuni Indian Tribal Organization, with a combined total enrollment of 
64,377 schoolchildren. The USDA-administered program provided grants to 
schools to purchase fruits and vegetables for distribution throughout 
the school day, outside of USDA-supported school meal times. A valuable 
aspect of the program is local decision making; each school chose which 
fruits and vegetables to purchase, and many sourced from local 
producers.
    USDA's evaluation report of the pilot program's first two months is 
available online at http://www.ers.usda.gov/publications/efan03006/. 
The report documents that the pilot program was very popular with 
students and schools, and urged that the program be continued. It also 
found that apples were the most popular item in the pilot program:
    <bullet>  fresh-market apples were purchased by more schools than 
any other fresh item ($97,803 purchased in two months);
    <bullet>  dried apple chips were the third most-purchased dried 
fruit ($6,597 over two months); and
    <bullet>  fruit juices worth $5,570 were also purchased (data on 
apple juice/cider is not available).
    USApple strongly urges expansion of the Fruit and Vegetable Pilot 
Program. We recommend that the committee include H.R. 2832, introduced 
by Rep. Doc Hastings of Washington state, in its upcoming child 
nutrition reauthorization legislation. This program works for our 
schoolchildren, by immediately increasing their fruit and vegetable 
consumption, improving their health and further encouraging healthy 
food choices and better eating behaviors for a lifetime. It works for 
the U.S. apple industry by increasing distribution of fresh-market 
apples, fresh-cut apple slices, apple juice, apple cider and dried 
apples to participating schoolchildren. It also works for the federal 
government by reducing future health care costs for tomorrow's adults.
    Thank you for this opportunity to present our comments. We look 
forward to expanding our partnership with the federal government to 
promote our nation's and our industry's health.
                                 ______
                                 

          Statement of The Humane Society of the United States

    On behalf of The Humane Society of the United States (The HSUS), 
the country's largest animal protection organization with more than 7.8 
million supporters nationwide, we urge the House Committee on Education 
and the Workforce to allow soy milk to be a reimbursable beverage in 
the school lunch and breakfast programs. It should be reimbursable with 
no stipulations (e.g. doctors' notes) for the simple yet powerful 
reason that it makes sense.
Human Health
    A substantial number of children do not drink milk for health, 
ethical, or religious reasons. Children with lactose intolerance can 
suffer from uncomfortable and sometimes painful intestinal problems if 
they drink milk. For some children, milk consumption is associated with 
aggravated allergy symptoms, asthma, chronic ear infections, and other 
conditions because the milk protein, casein, can irritate the immune 
system and stimulate mucus production.
    Children who cannot or do not want to consume cow's milk should be 
provided with a healthful alternative--particularly since the National 
School Lunch Act mandates that the program should accommodate all 
children's dietary needs. Schools now offer alternatives such as soy 
milk only to students who bring doctors' notes explaining why they need 
nondairy beverages. But it makes no sense to require a doctor's note 
for something as simple as a nutritious drink--especially for 
economically disadvantaged schoolchildren who may not have access to 
adequate health care.
    A growing number of organizations and even school foodservice 
directors from across the country are calling for the inclusion of soy 
milk in school lunches. We add our voice to this chorus.
    Drinking soy milk can offer health advantages. The Food and Drug 
Administration has concluded that including foods containing soy 
protein in a diet low in saturated fat and cholesterol may reduce the 
risk of coronary heart disease by lowering blood cholesterol levels. 
Soy milk also contains fewer calories and less fat compared to dairy 
milk, which according to the National Institutes of Health is the 
number-one source of saturated fat in children's diets. While not the 
sole cause, the high level of fat found in animal products contributes 
to the growing epidemic of obesity in children. According to the 
American Academy of Pediatrics, childhood obesity in rising at an 
alarming rate and the rate is highest for minority and economically 
disadvantaged children. Therefore, ensuring that low fat, plant-based 
options are available would seem prudent. Enriched soy milk is 
comparable to dairy milk as a source of calcium and protein. It is 
outrageous for the dairy industry to suggest that soy milk is somehow 
nutritionally deficient; millions of people drink soy milk every day 
and derive a variety of nutritional benefits from this product.
Animal Welfare
    Some students who opt not to drink dairy milk make this choice as 
an ethical decision not to support intensive animal production. They 
are concerned about treatment of dairy cows as disposable commodities 
from whom every last ounce of efficiency must be squeezed at the 
expense of humane treatment. These students, like those who will not 
drink dairy milk because of health concerns or religious restrictions, 
should have ready access to a nutritious beverage alternative without 
needing to obtain a doctor's note.
    Dairy cow welfare has often been seriously compromised by an 
increasing focus on maximizing production. The amount of milk produced 
by the average dairy cow has been steadily increasing due largely to 
intense genetic selection. With this increase there has been a 
concomitant increase in production-related diseases, the most prominent 
being mastitis (infection of the udder) and laminitis (infection of the 
hoof), both of which can be very painful. These diseases and other 
problems related to high production, such as weakened immune systems, 
result in cows that are sent to slaughter having only lived a quarter 
of their natural life. These same health problems are exacerbated by 
the use in some conventional dairy farms of recombinant bovine 
somatotropin (rBST), a hormone that increases milk production.
Conclusion
    Congress does not face a public policy choice here between dairy 
and soy milk. It is a question of providing nutritious alternatives to 
dairy milk for those children who cannot or will not drink dairy milk. 
We urge the Committee to allow soy milk as a reimbursable school lunch 
and breakfast program option regardless of childrens'' reasons for 
preferring it. Thank you for this opportunity to submit comments and 
for your careful consideration of this issue.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T0141.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T0141.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T0141.003
                                 
  Letter from Donna Wittrock, President, American School Food Service 
                 Association, Submitted for the Record

November 14, 2003

Honorable John Boehner, Chairman
Committee on Education and the Workforce
U.S. House of Representatives
Washington, D.C. 20515

Re: Committee Hearing on Child Nutrition Reauthorization

Dear Rep. Boehner:

    Thank you for your continued interest and leadership on issues 
related to the federal child nutrition programs and the commodity food 
distribution program. We greatly appreciated having had the opportunity 
to testify at the hearing you chaired on October 7. During that 
hearing, Mr. Robinson Joslin, president of the Ohio Soybean Association 
testified regarding the availability of non-dairy milk products in 
school meal programs. I wish to clarify a statement Mr. Joslin made 
regarding the position of the American School Food Service Association 
on this issue.
    Mr. Joslin said, ``the American School Food Service Association, 
they represent 65,000 schools, have identified the need to include soy 
milk as an option, as a top priority.'' Mr. Joslin overstated ASFSA's 
position in this matter. We do, however, support making soy milk an 
OPTION and a supplemental sheet of lesser ASFSA positions does address 
soy milk as follows:
        Soy milk- support legislation that would allow soy beverage to 
        be credited as fluid milk in school meals but only if standards 
        are established requiring that such products provide at a 
        minimum the same nutrients as dairy milk.
    If the Congress does feel it is appropriate to include soy milk, we 
would urge that soy beverages be made available subject to a local 
decision. As yet, the products available to schools are considerably 
more expensive than dairy milk and it would be a burden to a program 
where the current reimbursement rate is inadequate to meet all of the 
needs for providing nutritious meals to children. However, where there 
is sufficient demand, a school district should be allowed to offer the 
alternate product as part of a reimbursable school meal.
    Thank you for allowing me to share these concerns with you and I 
would appreciate it if this letter can be included as part of the 
hearing record.

Sincerely,

Donna Wittrock
President
American School Food Service Association


</pre></body></html>
